<html>
<title> - PROTECTING OUR SCHOOLS: FEDERAL EFFORTS TO STRENGTHEN COMMUNITY PREPAREDNESS AND RESPONSE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                    PROTECTING OUR SCHOOLS: FEDERAL
       EFFORTS TO STRENGTHEN COMMUNITY PREPAREDNESS AND RESPONSE

=======================================================================

                              FULL HEARING

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2007

                               __________

                           Serial No. 110-37

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
48-912                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON-LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                  (II)
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida...........................................    27
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania.................................    28
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    36
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................    25
The Honorable David Davis, a Representative in Congress From the 
  State of Tennessee.............................................    19
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania......................................    30
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    31
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    21
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    35
The Honorable Carolyn McCarthy, a Representative in Congress From 
  the State of New York..........................................    37
The Honorable Eleanor Holmes Norton, Delegate in Congress From 
  the District...................................................    34
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    33
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington...................................    23

                               Witnesses
                                Panel I

Ms. Holly Kuzmich, Deputy Chief of Staff, Policy and Programs, 
  Department of Education:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
Mr. Robert J. Sica, Special Agent in Charge, United States Secret 
  Service, National Threat Assessment Center, Department of 
  Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14

                                Panel II

Ms. Cornelia M. Ashby, Director, Education, Workforce, and Income 
  Security, Government Accountability Office:
  Oral Statement.................................................    39
  Prepared Statement.............................................    41
Mr. David Rainer, Associate Vice Chancellor, Environmental Health 
  and Public Safety North, Carolina State University:
  Oral Statement.................................................    63
  Prepared Statement.............................................    65
Dr. James C. Renick, Senior Vice President for Programs and 
  Research, American Council on Education:
  Oral Statement.................................................    68
  Prepared Statement.............................................    69
Kenneth S. Trump, M.P.A., President, National School Safety and 
  Security Services:
  Oral Statement.................................................    51
  Prepared Statement.............................................    54

                                Appendix

Questions and Responses:
  Responses from Ms. Holly Kuzmich...............................    77

 
                    PROTECTING OUR SCHOOLS: FEDERAL
                    EFFORTS TO STRENGTHEN COMMUNITY
                       PREPAREDNESS AND RESPONSE

                              ----------                              


                         Thursday, May 17, 2007

             U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:10 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[chairman of the committee] presiding.
    Present: Representatives Thompson, Dicks, Norton, 
Etheridge, Langevin, Cuellar, Carney, Clarke, Perlmutter, 
Reichert, Dent, Bilirakis and Davis of Tennessee.
    Also present: Representative McCarthy.
    Chairman Thompson. The committee is meeting today to 
receive testimony on protecting our schools, to strengthen 
efforts of preparedness and response. Our Republican 
colleagues, they are in a meeting and will be over very 
shortly, but they indicated in the interest of time that we 
should begin.
    The Chair would like to acknowledge one Member who does not 
sit on the full committee, the Congresswoman from New York Mrs. 
McCarthy, has asked to participate in today's hearing. 
Consistent with the rules and practices of the committee, we 
are pleased to honor her request.
    I now ask unanimous consent to allow Representative 
McCarthy to sit and question the witnesses at today's hearing. 
Without objection, it is so ordered.
    Good morning. I thank all of you for joining us this 
morning as we explore the Federal efforts available for our 
schools and administrators when developing and implementing 
emergency preparedness and response plans. I would like to 
especially thank our witnesses for working with my staff as we 
periodically change the hearing schedule.
    The incident at Virginia Tech was just another reminder of 
the tragedies that children and students face in and around our 
Nation's school. In March 1999, the tragedy at Columbine left 
over a dozen students and teachers dead. In September 2001, 
dozens of schools and over 6,000 children were evacuated from 
the area surrounding the World Trade Center. In October 2002, 
snipers struck fear in the hearts of D.C.-area residents when 
they shot a Maryland boy as he stood outside of school. In 
September of 2004, 186 children were killed and hundreds more 
wounded when terrorists attacked the schools in Beslan, Russia. 
Each of these tragedies remind us that our schools remain 
vulnerable to direct and indirect attacks.
    Today we will discuss the resources that are available to 
our schools and look for ways to bridge the communications gap 
between local and State school administrators and the Federal 
Government.
    Existing objective and anecdotal evidence suggests that 
most American schools are not adequately prepared to respond to 
a serious crisis. I have spent much time on this committee 
working on school preparedness issues. Last year I commissioned 
a survey as Ranking Member of the House Homeland Security 
Committee. I sent this survey to various schools and school 
districts within the Second District of Mississippi to 
determine the level of preparedness within the schools and to 
see how these respondents are relying on Federal agencies like 
the Department of Homeland Security and the Department of 
Education in making their plans.
    Unfortunately, the results of the survey indicate that most 
of the schools in Mississippi are doing the bulk of the work 
alone. The two major fellow agencies designed to deal with this 
issue, DHS and Education, are not even considered resources by 
school officials. Many of the respondents commented that they 
welcome a more proactive approach from the Department of 
Homeland Security in reaching out to schools and school 
districts as they develop their emergency plants. 
Unfortunately, the Department thus far has failed to take a 
leadership role in preparedness.
    Our Federal agencies can do better in coordinating school 
preparedness materials for our the State and local governments. 
I hope that after today's hearing, officials from both 
Departments will work to create a comprehensive Web site that 
will serve as a one-stop shop for school administrators to use 
in planning for and responding to emergencies.
    There is an abundance of resources available to State and 
local officials. Up until now these resources have been 
difficult to find. I think a well-publicized Web site will help 
solve some of these problems, but I am also deeply concerned 
about the priorities of this administration when it comes to 
providing financial resources to help schools confront these 
problems.
    One must question the administration's priorities in light 
of the cuts that have been imposed on school preparedness 
funding across the country. For 2 consecutive years, in fiscal 
year 2006 and 2007, President Bush has sought to eliminate all 
funding for the State grant portion of the Safe and Drug-Free 
School program. This program provides grants to State education 
agencies which they can distribute to local schools for things 
like metal detectors, security cameras, and training for campus 
security personnel.
    The number of awards under the Emergency Response and 
Crisis Management Plan Discretionary Grants program has also 
dropped from 134 awards in 2003 down to 100 awards in 2005.
    We can't keep doing this to our children. The Federal 
Government can't prevent these tragedies from occurring, but we 
can help our schools plan better and prepare better. It is the 
very least we can do.
    Chairman Thompson. In the absence of The Ranking Member, I 
will move forward with the introduction of the first witness, 
panel of witnesses.
    I now welcome our first witness, Ms. Holly Kuzmich, Deputy 
Chief of Staff of Policy and Programs, U.S. Department of 
Education. Ms. Kuzmich oversees and works with the various 
policy officers at the Department on behalf of the Secretary.
    Our second witness is Robert J. Sica, Special Agent with 
the U.S. Secret Service, having served in various 
investigative, protective and staff assignments in New York 
City; Wilmington, Delaware; and Washington, D.C. Currently he 
is serving as a Special Agent in Charge of the National Threat 
Assessment Center.
    Without objection, the witnesses' full statement will be 
inserted in the record.
    I now ask each witness to summarize their statements for 5 
minutes, beginning with Ms. Kuzmich.

 STATEMENT OF HOLLY KUZMICH, DEPUTY CHIEF OF STAFF, POLICY AND 
               PROGRAMS, DEPARTMENT OF EDUCATION

    Ms. Kuzmich. Thank you, Chairman Thompson and other members 
of the committee, for inviting the Department of Education to 
come and share what we are doing in the area of emergency 
management as it relates to schools.
    When parents send their children off to school or college, 
they expect them to be safe. Horrible events like the recent 
shootings on Virginia Tech's campus give us the opportunity to 
review our efforts on school and campus safety and look at ways 
that we can improve those efforts.
    As part of this effort, in response to these deadly 
shootings, President Bush directed Secretary Leavitt, Secretary 
Spellings and Attorney General Gonzales to travel to 
communities across our Nation, meet with educators, mental 
health experts, and State and local officials to discuss issues 
raised by this tragedy.
    The three Cabinet officials traveled to 12 States across 
the country over the past several weeks and held productive 
meetings. The President instructed Secretary Leavitt to 
summarize the information gathered at the series of meetings 
and report back with recommendations about how the Federal 
Government can help avoid such tragedies in the future. We 
expect to report to the President in the next few weeks, and we 
look forward to sharing with you the results of these meetings.
    While my written testimony goes into much greater detail, I 
would like to provide some information about a few of our 
activities from the Department of Education that are most 
directly related to emergency management issues.
    To help create safe schools, ED's Office of Safe and Drug-
Free Schools carries out a broad range of activities. I am 
going to let Mr. Sica describe the joint Secret Service and 
Education effort under the Safe School Initiative in more 
detail.
    Our collective efforts as part of this initiative include 
development of a final report on targeted school shootings, a 
threat assessment guide in interactive CD-ROM, and threat 
assessment training. We believe these activities have proven to 
be very valuable to schools around the country.
    When school violence or a traumatic crisis occurs, a key 
function of the Office of Safe and Drug-Free Schools is to help 
school districts provide education-related services and restore 
the learning environment. Project School Emergency Response to 
Violence, or Project SERV, is the Department of Education's 
primary funding source for this purpose.
    Project SERV is designed to ensure a continuum of 
postincident services through two different tiers of funding: 
immediate services and extended services. Under the first tier, 
we provide emergency short-term assistance to affected school 
districts. Under the second, we assist school districts in 
meeting their longer-term needs in responding to the crisis.
    In addition to supporting schools that are recovering from 
traumatic events, we support schools as they plan for potential 
crises. We administer the Readiness and Emergency Management 
for Schools grant program to provide funds to school districts 
to improve and strengthen their emergency management plans.
    Grant funds enable schools to work closely with local 
community partners and first responders as well as to provide 
training on emergency procedures, conduct practice drills and 
purchase supplies to support their emergency management 
efforts.
    We also provide additional resources to support school 
preparedness efforts. Our Practical Information on Crisis 
Planning Guide provides schools and their communities with an 
introduction to emergency management as it applies to schools 
and basic guidelines for developing school emergency management 
plans.
    In addition, since 2004, we have supported an Emergency 
Response in Crisis Management Technical Assistance Center that 
is available to support schools in their development of all-
hazards emergency management plans. The Center supports a Web 
site and offers a series of school-based emergency management 
publications and training sessions to the public. And in an 
effort to provide crisis-planning information to an audience 
beyond our grantees, we provide training on emergency 
management planning for nongrantees twice a year, and this 
training has included attendees from over 40 States.
    In addition, in October of 2006, the White House convened a 
Conference on School Safety in a response to a series of tragic 
shootings that took place in our Nation's schools. The 
conference was designed to provide an opportunity for 
educators, law enforcement officials, mental health providers, 
representatives of community-based organizations, parents and 
students to come together to share strategies for preventing 
violence and learn from one another.
    Additionally, we hosted a special Webcast last November to 
review emergency planning and construct strategies to help 
schools mitigate, prevent, prepare for, respond to and recover 
from a crisis. We updated our crisis planning guide and 
recently sent it to chief State school officers, key education 
associations, Safe School Centers, and school security chiefs 
across the country.
    The Department of Education also works closely with other 
Federal agencies. We have worked with the Department of 
Homeland Security on a number of items including the Safe 
School Initiative and the protective efforts related to schools 
as part of the National Infrastructure of Protection Plan.
    In addition to the Department of Homeland Security, we will 
continue to work regularly with other Federal agencies, such as 
the Department of Health and Human Services, Justice, and the 
Office of National Drug Control Policy, on a variety of school 
safety initiatives.
    Mr. Chairman, schools are generally safe, but all of us, 
Federal, State, and local government, community-based 
organizations, and parents and students share the 
responsibility to work to make them safer. I believe that by 
working together we can do so.
    Thank you for this opportunity to appear before the 
committee, and I look forward to answering any questions.
    Chairman Thompson. Thank you very much.
    [The statement of Ms. Kuzmich follows:]

                  Prepared Statement of Holly Kuzmich

I. Introduction
    Thank you, Chairman Thompson, Ranking Member King, and all the 
members of the Committee for inviting the Department of Education to 
come and share with you what we are doing in the area of emergency 
management as it relates to schools.
    On behalf of Secretary Spellings I compliment you on your focus on 
the issues that are the subject of today's hearing, as well as the many 
actions you have taken prior to today. Whether we are parents or not, 
we are all touched by the lives of children. Childhood is a time of 
innocence, learning, and experiencing new things and we are deeply 
troubled when that innocence is shattered by senseless tragedy. When 
parents send their children off to school or college they expect them 
to be safe. And when horrible events like the recent shootings on 
Virginia Tech's campus happen, we are shaken to our core and need to 
take time, as a nation, to grieve for what we lost that day.
    As you know, in response to the shootings at Virginia Tech, 
President Bush directed Secretary Spellings, Secretary Leavitt, and 
Attorney General Gonzales to travel to communities across our nation, 
to meet with educators, mental health experts, and State and local 
officials to discuss issues raised by this tragedy. This effort is 
under way, and some very productive meetings have been held. The 
President instructed Secretary Leavitt to summarize the information 
gathered at the series of meetings and report back with recommendations 
about how the Federal Government can help States and communities avoid 
such tragedies in the future.
    But the events like those at Virginia Tech also require that we 
redouble our efforts to make schools even safer. As President Bush 
said, ``Schools should be places of safety and sanctuary and learning. 
When that sanctuary is violated, the impact is felt in every American 
classroom and every American community.''
    I want to start by mentioning a few key facts and principles about 
schools and school safety.
    Schools are safe places for students to be. While even one murder 
or one assault or robbery is too many, schools generally are much safer 
than the communities in which they are located. For many students, 
schools remain safe havens, places they can go to get away from 
violence.
    Schools can't create safe learning environments by themselves. They 
need to establish partnerships with a variety of local organizations 
and agencies, including law enforcement, health and mental health 
organizations, faith-based groups, youth-serving organizations, parent 
groups, and student groups.
    Issues related to the safety and security of our Nation's schools 
are primarily a State and local responsibility. While the Department of 
Education and other Federal agencies have an important role to play in 
helping make schools safer, that role is a limited one. Our priority is 
to have the greatest impact that we can, given the limited nature of 
our role.

II. Mission of the Department and of Schools
    The mission of the Department of Education is to promote student 
achievement by fostering educational excellence and ensuring equal 
access. We work to supplement and complement the efforts of States, 
local school systems, and others to improve the quality of education.
    We believe that supporting the efforts of States and localities to 
create safe and secure learning environments is a critical part of that 
mission. We know that while schools generally are safe and shootings 
are rare, we can and must work to make them even safer. When schools 
are not safe, when children are compromised because of drugs or 
alcohol, or when children are afraid to go to school because of 
bullying, the educational experience is diminished and academic 
achievement will be limited. Research on academic achievement indicates 
that students must first feel safe and secure and be healthy in order 
to have the best chance to be successful in school.
    While the mission of schools is to teach all students to the 
highest possible standards, we know that teachers can't teach and 
students can't learn to their fullest extent if they are not safe or if 
they don't feel safe. In order to help students maximize their academic 
potential, schools need to create a climate which not only promotes 
learning but does so in an atmosphere where:
        <bullet> inappropriate behaviors such as bullying are not 
        tolerated;
        <bullet> students are held responsible for their actions and 
        are sanctioned consistent with discipline policies;
        <bullet> the illegal possession of alcohol, drugs, and firearms 
        is strictly prohibited;
        <bullet> threats against schools, faculty, and students are 
        diligently investigated; and
        <bullet> all students feel connected to their school and know 
        that they have a place to turn for help and advice.

III. ED Emergency Management Activities
    To help create safe schools, ED's Office of Safe and Drug-Free 
Schools (OSDFS) carries out a broad range of activities. We provide 
support to States, local educational agencies, and community-based 
organizations through a formula-grant program, and also administer a 
series of competitive grant initiatives. We also carry out a range of 
national leadership activities with funds appropriated under the Safe 
and Drug-Free Schools and Communities Act National Programs authority. 
We use these funds to support activities including training, technical 
assistance, data collection and dissemination, program development, and 
program support.
    Many of these activities are developed and implemented in 
coordination and collaboration with a variety of other offices within 
ED, as well as with other Federal agencies and private organizations 
that serve youth. We work regularly with other Federal agencies such as 
the Department of Homeland Security, including the United States Secret 
Service, the Federal Emergency Management Agency, the Homeland Security 
Institute, and other offices and councils; the Department of Health and 
Human Services, including the Centers for Disease Control and 
Prevention, the Substance Abuse and Mental Health Services 
Administration, the National Institute on Drug Abuse, and the National 
Institute on Alcohol Abuse and Alcoholism; the Department of Justice, 
including the Office of Juvenile Justice and Delinquency Prevention; 
and the Office of National Drug Control Policy. We also work closely 
with a variety of private non-profit youth serving organizations, such 
as the National Center for Missing and Exploited Children.
    Details about some of the activities we carry out that are directly 
related to readiness and emergency management for schools follow.

Safe School Initiative:
    I am going to let Mr. Sica, the Special Agent in Charge of the 
United States Secret Service (USSS), National Threat Assessment Center 
describe the joint USSS and ED effort under this initiative in more 
detail. Our collective efforts as part of the Safe School Initiative 
include development of a Final Report on Targeted School Shootings; a 
Threat Assessment Guide; an interactive CD-ROM ``A Safe School and 
Threat Assessment Experience: Scenarios Exploring the Findings of the 
Safe School Initiative''; a study on students that were aware of 
planned school shootings and took no action (in draft); and threat 
assessment trainings (339 sessions to over 77,000 persons). We believe 
that these activities have proven to be very valuable to schools around 
the country.

Project SERV
    A key function of the Office of Safe and Drug-Free Schools is to 
help school districts provide education-related services and restore 
the learning environment after a violent or traumatic crisis. Project 
School Emergency Response to Violence (SERV) is the Department of 
Education's primary funding source for this purpose.
    Experience has taught us that responding adequately to school-based 
traumatic events requires both an immediate and a continuing component. 
Project SERV is designed to ensure a continuum of post-incident 
services through two different tiers of funding: Immediate Services and 
Extended Services. Under the first tier (Immediate Services), we 
provide emergency, short-term assistance to affected school districts; 
under the second (Extended Services), we assist school districts in 
meeting their longer-term needs in responding to the crisis.
    Immediate Services grants are intended to provide support very 
quickly following an incident. Immediate Services grants under Project 
SERV generally are for a maximum amount of $50,000 over a six-month 
period. Applications received for Immediate Services grants are given 
priority and undergo an expedited review. Extended Services grants are 
intended to address the long-term recovery efforts that may be needed 
following a significant, traumatic event. They generally provide a 
maximum of $250,000 over a period of up to 18 months to help maintain 
safety and security in an affected school and to help students, 
teachers, school staff, and family members recover from the event.
    Since the program's inception in 2001, the Department has awarded 
$24.9 million in grants under Project SERV to 34 school districts and 
nine States. These grants have included 45 Immediate Services and nine 
Extended Services grants. Funds have been awarded to districts in 
response to events such as school shootings and student suicides. In 
addition, Project SERV funds were awarded in response to large-scale 
events such as 9/11, the Washington, D.C., area sniper incidents, and 
Hurricanes Katrina and Rita.
    Project SERV funds have enabled schools to restore a critical sense 
of safety and security after a crisis. Funds have been used for mental 
health services, additional security services and temporary security 
measures, training for staff, and other services needed to restore the 
learning environment.

Readiness and Emergency Management for Schools
    In addition to supporting schools that are recovering from 
traumatic events, we support schools as they plan for potential crises. 
We administer the Readiness and Emergency Management for Schools (REMS) 
competitive grant program to provide funds to local educational 
agencies to improve and strengthen their emergency management plans. 
Since 2003, OSDFS has awarded 413 grants under this program totaling 
over $112 million for K-12 school preparedness. Funds are used to 
support emergency management plan development incorporating the four 
phases of emergency management: Prevention-Mitigation, Preparedness, 
Response, and Recovery. Grant funds enable schools to work closely with 
local community partners and first responders, as well as to provide 
training on emergency procedures, conduct practice drills, and purchase 
supplies to support their emergency management efforts.
    We also provide additional resources to support school preparedness 
efforts. Our Practical Information on Crisis Planning Guide provides 
schools and their communities with a general introduction to emergency 
management as it applies to schools and basic guidelines for developing 
school emergency management plans. In addition, since 2004, we have 
supported an Emergency Response and Crisis Management Technical 
Assistance Center that is available to support schools in their 
development of all-hazards emergency management plans. The Center 
supports a Web site and offers a series of school-based emergency 
management publications and training sessions to the public. Also, in 
an effort to provide crisis planning information to an audience beyond 
REMS grantees, we provide training on emergency management planning for 
non-grantees twice a year. These training activities have included 
attendees from more than 40 States. Our most recent session was held in 
St. Louis earlier in May.

DHS/NIPP
    OSDFS has been working with the Department of Homeland Security on 
protective efforts related to schools for several years. In the summer 
of 2006, the category of Education Facilities, which includes all 
schools and institutions of higher education, became a sub-sector 
within the Government Facilities Sector as part of the National 
Infrastructure Protection Plan (NIPP) effort. As part of this change, 
we are responsible for providing information to DHS on school and 
university protective efforts. We also coordinate school protective 
efforts with a number of other offices within DHS, including the Office 
of Infrastructure Protection, which leads the coordinated national 
effort to reduce the risk to our critical infrastructures and key 
resources posed by acts of terrorism, and the Office of Risk Management 
and Analysis, which leads DHS' efforts to establish a common framework 
to address the overall management and analysis of homeland security 
risk.
    We also participate in other homeland security-related activities, 
including working groups involved in the interagency review of the 
National Response Plan (NRP) and National Incident Management System 
(NIMS), and provide senior-level representation on the NIPP Federal 
Senior Leadership Council and the Homeland Security Council's Domestic 
Readiness Group.

White House Conference on School Safety
    In October of 2006, the White House convened a Conference on School 
Safety in response to a series of tragic shootings that took place in 
our Nation's schools. The conference was designed to provide an 
opportunity for educators, law enforcement officials, mental health 
providers, representatives of community-based organizations, parents, 
and students to come together to share strategies for preventing 
violence and learn from one another.
    Because school violence is a complex problem, requiring a 
comprehensive approach, panelists and participants discussed a wide 
range of topics, including:
        <bullet> research about the nature and extent of school 
        violence;
        <bullet> ways in which law enforcement, schools, and others can 
        work together to establish safe environments and prevent school 
        shootings;
        <bullet> emergency management planning activities that help 
        schools prepare to respond to violent acts and other crises; 
        and
        <bullet> strategies to help school communities heal and recover 
        if and when a violent incident occurs.
    As a follow-up to the Conference, the Department disseminated 
materials on emergency management preparedness to all public and 
private elementary and secondary schools, including a message from the 
Secretary summarizing the conference content and the Practical 
Information on Crisis Planning brochure.
    We hosted a special web cast on November 15 to review emergency 
planning and suggest strategies to help schools mitigate, prevent, 
prepare for, respond to, and recover from a crisis. Nearly 3,900 people 
successfully participated in the live event in November, and, by the 
end of 2006, about 2,600 additional individuals downloaded the archive 
Web cast.
    In December, the Secret Service and ED released a new interactive 
CD-ROM, A Safe School and Threat Assessment Experience: Scenarios 
Exploring the Findings of the Safe School Initiative, designed to 
complement the existing Threat Assessment Guide. As Mr. Sica mentioned, 
this CD-ROM, which included a copy of the Threat Assessment Guide and 
final report of the SSI, was distributed to chief state school 
officers, key education associations, Safe School Centers, and School 
Security Chiefs in January 2007.
    We updated our crisis-planning guide and mailed the revised 
information to chief state school officers, key education associations, 
Safe School Centers, and School Security Chiefs on April 19, 2007.

Chiefs of School Police
    ED staff meets regularly with the head safety and security 
officials from the Nation's 40 largest school districts. These face-to-
face meetings provide the Department with a better understanding of the 
problems confronting the Nation's schools and allow the safety and 
security officials to share information about issues facing their 
particular school districts. We have also established a list serv for 
the group that allows the Department and the security officials to 
engage in dialogue on various issues related to school safety and 
security, school crime, and emerging concerns.

NOAA Public Alert Radios
    Since 2005, the Office of Safe and Drug-Free Schools has 
collaborated with the Departments of Homeland Security and Commerce to 
provide NOAA Public Alert Radios to schools. Since 2005, 97,000 radios 
have been distributed to public schools in the country.
    Information on these initiatives and the various products I've 
mentioned is available on the Department's web site www.ed.gov by 
clicking on ``school safety''.

IV. Other Related Activities
    The Department of Education also implements several other programs 
and initiatives that, while not designed to immediately address 
readiness and emergency management concerns, do play an important role 
in efforts to create safe and supportive school climates. Details about 
some of these activities follow.

Safe Schools/Healthy Students
    A joint project of the Departments of Education, Health and Human 
Services, and Justice, the Safe Schools/Healthy Students initiative 
provides grants to local school districts to develop and implement a 
comprehensive plan to create safe school environments and support 
healthy youth development. Local school districts that receive grants 
under the initiative are required to enter into partnerships with 
juvenile justice and law enforcement officials, as well as the local 
public mental health authority as part of the initiative.

Character Education
    The Partnerships in Character Education Program helps create a 
school climate that is safe and caring. Since 1995, the goal of this 
grant program has been to bring schools, parents, students, and the 
community together to implement a community-wide character education 
program. To date, we have made 139 partnership grants to State 
educational agencies and local school districts totaling more than 
$121,500,000. Research studies posted on the U. S. Department of 
Education's What Works Clearinghouse Web site show that character 
education is linked to improved character development, pro-social 
behavior and academic achievement.
School Associated Violent Death Study
    Since 1992, the Department of Education has assisted the Centers 
for Disease Control and Prevention in collecting information about 
school-associated violent deaths in order to identify trends that can 
help schools develop preventive measures that protect and promote the 
health, safety and development of all students. Although school-
associated violent deaths remain rare events, they have occurred often 
enough to begin to detect patterns and identify potential risk factors. 
The data has provided important information about the characteristics 
of homicides, homicide perpetrators and the context of a homicide event 
to help inform potential homicide prevention strategies and activities. 
Results from the ongoing study are available on the Centers for Disease 
Control and Prevention website.

Gun-Free Schools Act
    The Gun-Free Schools Act (GFSA) requires that each State or 
outlying area receiving Federal funds under the ESEA have a law that 
requires all local educational agencies to expel from school for at 
least one year any student who takes a firearm to school or possesses a 
firearm at school. State laws also must authorize the local school 
superintendent to modify, in writing, any such expulsion on a case-by-
case basis. In addition, the GFSA states that the law must be construed 
so as to be consistent with the Individuals with Disabilities Education 
Act (IDEA).
    The GFSA requires States and outlying areas to report information 
about the implementation of the GFSA annually to the Secretary of 
Education. We summarize reports from the States and produce an annual 
report that is released to the public. The reports are not designed to 
provide information regarding the rate at which students carry firearms 
to school or possess firearms at school. Rather, the data summarized in 
the report relate to actions taken with regard to the number of 
students found bringing firearms to schools or possessing firearms at 
schools.
    The most recently released report contains data from the 2002-2003 
school year. That report indicates that the States (including the 
District of Columbia and the territories) expelled 2,143 students for 
bringing a firearm to school or possessing a firearm at school. More 
than half of the expulsions (58 percent) were in senior high schools 
and 11 percent were for elementary school students. Fifty-five percent 
of expulsions were for bringing or possessing a handgun, and 13 percent 
were for bringing or possessing a rifle or shotgun. The remaining 32 
percent of expulsions were for other firearms or destructive devices 
such as bombs or grenades.
    Additional details about all of these initiatives are available at 
the Department's website, www.ed.gov.

V. Reauthorization
    While many local school districts have made strides toward creating 
safe and drug-free learning environments, it is clear, based on the 
results of the Program Assessment Rating Tool (PART) review, as well as 
our experience in administering the Safe and Drug-Free Schools and 
Communities Act provisions, that we must do better. The 2006 PART for 
the Safe and Drug Free Schools State Grant Program found the structure 
of this program is still flawed, spreading funding too broadly to 
support quality interventions and failing to target those schools and 
communities in greatest need of assistance. As part of the 
reauthorization of No Child Left Behind, we propose restructuring the 
Safe and Drug-Free State Grants program in order to better serve 
schools and communities. Specifically, we propose making Safe and Drug-
Free Schools State Grants funds available to States to support 
training, technical assistance, and information for schools about the 
most effective models and strategies to create safe, healthy, and 
secure schools.
    A key difference between our proposed approach and the current Safe 
and Drug-Free Schools State Grants program is that our reauthorization 
proposal would focus on building State capacity to assist schools adopt 
and implement effective models that, to the extent possible, reflect 
scientifically based research. While States would be authorized to make 
subgrants to local school districts, these awards would not be made 
based on a statutory formula, but rather in response to demonstrated 
need for assistance.
    Our reauthorization proposal would complement these changes to the 
Safe and Drug-Free Schools State Grants program with revisions to the 
SDFS National Programs authority. We propose consolidating SDFS 
National Programs into a single and flexible discretionary grant 
program that would be focused on four priority areas--emergency 
management planning; preventing violence and drug use, including 
student drug testing; school culture and climate, including character 
education; and other needs related to improving the learning 
environment to help students meet high academic standards.
    Our proposed approach would replace an array of narrowly conceived, 
but sometimes overlapping-authorities with a single program focused on 
critical areas of national concern. It would provide the flexibility 
that we need to respond to new and emerging needs in school safety and 
drug prevention, and provide potential grantees with the opportunity to 
develop more comprehensive proposals rather than piecing together 
activities from multiple grant streams, requiring multiple application 
notices, implementation rules, and reporting and accountability 
requirements.

V. Closing
    In conclusion, I want to return to where I began. Schools are 
generally safe, but all of us--Federal, State and local government 
organizations, community-based organizations, and parents and 
students--share the responsibility to work to make them safer. I 
believe that by working together we can do so. Thank you for this 
opportunity and I look forward to working with you on these issues.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Thompson. We now will hear from Special Agent Sica 
for 5 minutes.

  STATEMENT OF ROBERT J. SICA, SPECIAL AGENT IN CHARGE, U.S. 
 SECRET SERVICE, NATIONAL THREAT ASSESSMENT CENTER, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Sica. Good morning, Chairman Thompson, Congressman King 
and distinguished members of the committee. Thank you for the 
opportunity to testify before you today.
    Mr. Chairman, if it pleases the committee, I will offer a 
few brief remarks and ask that my full statement, in addition 
to the guides and CD-ROM before you, be made part of the 
record.
    Chairman Thompson. Without objection.
    Mr. Sica. On behalf of the men and women of the United 
States Secret Service, I would like to convey our condolences 
to the families of the Virginia Tech victims and all other 
victims of school-targeted school violence.
    In 1997, the Secret Service completed the exceptional case 
study project, an operational study of the behavior of all 
persons who attacked or tried to attack prominent public 
officials or public figures in the United States between 1949 
through 1995. This study lead the Secret Service to modify and 
improve its approach to threat assessment as it relates to the 
protection of our national and world leaders.
    Also, as a result of this study, the term ``targeted 
violence'' was developed. Targeted violence refers to any 
incident of violence where a known or knowable attacker selects 
a particular target prior to their violent attack.
    In 1998, the Secret Service established the National Threat 
Assessment Center, an entity within the Secret Service that is 
dedicated to continuing efforts to study and prevent targeted 
violence and to share this developing knowledge with other 
constituent agencies responsible for public safety and 
protection.
    After a number of school shootings that occurred in 1998 
and 1999, the Secret Service, at the invitation of and in 
partnership with the U.S. Department of Education, began a 
similar operational study of school shootings: the Safe School 
Initiative. The goal of the Safe School Initiative was to 
gather and analyze accurate and useful information about the 
behavior and thinking of students who commit acts of targeted 
violence in our Nation's schools.
    The study was comprised of a systematic analysis of 
investigative, judicial, educational and other pertinent case 
records and included interviews with those involved with school 
shootings. As a result of the study, the Secret Service and the 
Department of Education published a final report and the threat 
assessment guide for schools, copies of which have been 
provided to this committee.
    The Secret Service and the Department of Education 
routinely share results of our study with school and law 
enforcement professionals responsible for the prevention of 
targeted school violence. We believe that the guide and final 
report may aid our Nation's school and law enforcement 
communities to work together in a systematic way and prevent 
further acts of targeted violence in schools.
    These publications are available on our public Web site.
    The report contains key study findings, two of which I 
would like to highlight: Prior to most incidents, other people 
knew about the attackers' idea or plan to attack. The attackers 
often communicated their plans to others, friends, schoolmates, 
or siblings. This finding, in particular, struck both the 
Secret Service and the Department of Education as being of 
particular importance to prevention efforts.
    We are currently conducting additional research into this 
bystander phenomenon to shed more light on more information 
that may be conveyed prior to an attack. We hope the knowledge 
gained through this study will help improve prevention efforts.
    Despite prompt law enforcement response, most incidents 
were stopped by means other than law enforcement intervention. 
Most school-based attacks were stopped through intervention by 
school administrators, educators and students or by the 
attacker stopping on his own.
    In light of these findings and others, the use of a threat 
assessment approach may be a promising strategy for preventing 
a school-based attack.
    Threat assessment is a fact-based investigative and 
analytical approach that focuses on the identification, 
assessment, and management of those who may pose a threat of 
targeted violence. Schools and law enforcement may be able to 
prevent some incidents of targeted school violence if they know 
what information to look for and what to do with such 
information when it is found.
    Schools should consider establishing multidisciplinary 
threat assessment teams to better detect and evaluate 
information that might indicate that there is a risk of 
targeted school attack and ultimately develop strategies to 
prevent potential school attacks from occurring.
    As of April 2000, the National Threat Assessment Center has 
provided briefing and training on school initiatives in 339 
different sessions to over 77,000 people. The attendees have 
included educators, school administrators, school resource 
officers, other law enforcement and community representatives. 
However, to even better assist with the dissemination of this 
salient research, the Secret Service and the Department of 
Education have recently released an interactive CD-ROM, a copy 
of which has been provided to this committee.
    Through the use of hypothetical school-based scenarios, 
school threat assessment team members may further develop their 
skills in conducting a threat assessment inquiry. The unique 
interactive format is designed to serve as a tabletop exercise 
for team members to gain familiarity with the threat assessment 
process as well as the role each team member will play in it.
    Mr. Chairman, that concludes my prepared remarks, and I 
would be happy to answer any questions that you or other 
members of the committee may have.
    Chairman Thompson. Thank you very much.
    [The statement of Mr. Sica follows:]

                   Prepared Statement of Robert Sica

    Good morning, Chairman Thompson. I would like to thank you, as well 
as the distinguished Ranking Member, Mr. King, and the other members of 
the Committee for providing an opportunity to discuss the Safe School 
Initiative, a collaboration between the U.S. Secret Service and the 
U.S. Department of Education.
    As part of our protective responsibilities, the U.S. Secret Service 
has long held the view that the best protective strategy is one of 
prevention. The goal of Secret Service threat assessment efforts is to 
identify, assess, and manage persons who have the interest and ability 
to mount attacks against Secret Service protectees.

National Threat Assessment Center
    In 1998, the Secret Service created the National Threat Assessment 
Center (NTAC). The mission of NTAC is to provide guidance on threat 
assessment both within the Secret Service and to the criminal justice 
and public safety communities. Through the Presidential Protection Act 
of 2000, Congress formally authorized NTAC to provide assistance to 
federal, state, and local law enforcement as well as others with 
protective responsibilities in the following functional areas:
        <bullet> Conducting research on threat assessment and various 
        types of targeted violence;
        <bullet> Providing training on threat assessment and targeted 
        violence to law enforcement officials and others with 
        protective and public safety responsibilities;
        <bullet> Facilitating information-sharing among agencies with 
        protective and/or public safety responsibilities;
        <bullet> Provide case consultation on individual threat 
        assessment investigations and for agencies building threat 
        assessment units; and,
        <bullet> Developing programs to promote the standardization of 
        federal, state, and local threat assessment and investigations 
        involving threats.
    As a result of our research in the areas of attacks on public 
officials, public figures, and in schools, NTAC has provided relevant 
information and advice to law enforcement and other professionals who 
are charged with investigating and/or preventing targeted violence. 
NTAC has also collaborated with experts in the fields of stalking, 
domestic violence, and targeted workplace violence. The Secret Service 
provides this information nationwide through NTAC's threat assessment 
seminars and formal presentations, as well as several publications. In 
addition, NTAC offers assistance to organizations interested in 
developing threat assessment programs.

Background
    In response to concerns about the safety of America's schools 
following several high-profile shootings, in June of 1999, the U.S. 
Secret Service and the U.S. Department of Education collaborated on the 
Safe School Initiative (SSI), an operational analysis of school-based 
attacks in the United States. The SSI focused on a rare but significant 
component of the problem of school violence--incidents of targeted 
violence in schools. The term ``targeted violence'' evolved from the 
Secret Service's Exceptional Case Study Project (ECSP), an operational 
analysis of the thinking and behavior of those who have assassinated, 
attacked, or tried to attack public officials or public figures in the 
United States since 1949. The ECSP defined targeted violence as any 
incident of violence where a known (or knowable) attacker selects a 
particular target prior to their violent attack. The purpose of the 
ECSP was to generate a better understanding of attacks against public 
officials which, in turn, would assist the Secret Service with 
investigations of threats against the President and other protectees, 
and support the development of strategies to prevent harm to these 
public officials.

Research and Findings
    The SSI, in both focus and design, was modeled after the ECSP. 
Targeted school violence was defined as an incident where a current or 
recent former student attacked someone at his or her school with lethal 
means and purposefully chose the school as the location of the attack. 
Through the use of this modified definition, the SSI identified and 
studied 37 school shootings, involving 41 attackers that occurred from 
1974 through 2000. The emphasis of the SSI, as with the ECSP, was on 
obtaining information about the pre-incident thinking and behaviors of 
the attackers--students who have planned and carried out instances of 
targeted violence in American schools. This information was gathered 
through a systematic analysis of investigative, judicial, educational, 
and other pertinent case records, and interviews with ten (10) of the 
young boys involved in school shootings. Ultimately, this collaboration 
was designed to address two central questions concerning school 
attacks: ``Could we have known these attacks were planned?'' and, 
``What could be done to prevent these attacks from occurring?''
    The SSI resulted in the publication of two documents, The Final 
Report and Findings of the Safe School Initiative: Implications for the 
prevention of school attacks in the United States (May 2002), and 
Threat Assessment in Schools: A guide to managing threatening 
situations and to creating safe school climates (May 2002), copies of 
which have been provided to this Committee. The report and guide are 
available on the Secret Service web site at: www.secretservice.gov.
    The ten key findings of the SSI, as detailed in the Report, 
include:
        1. Incidents of targeted violence at school rarely are sudden, 
        impulsive acts.
        2. Prior to most incidents, other people knew about the 
        attacker's idea and/or plan to attack.
        3. Most attackers did not threaten their targets directly prior 
        to advancing the attack.
        4. There is no accurate or useful profile of students who 
        engaged in targeted school violence.
        5. Most attackers engaged in some behavior prior to the 
        incident that caused others concern or indicated a need for 
        help.
        6. Most attackers had difficulties coping with significant 
        losses or personal failures. Moreover, many had considered or 
        attempted suicide.
        7. Many attackers felt bullied, persecuted, or injured by 
        others prior to the attack.
        8. Most attackers had access to and had used weapons prior to 
        the attack.
        9. In many cases, other students were involved in some 
        capacity.
        10. Despite prompt law enforcement response, most incidents 
        were stopped by means other than law enforcement intervention. 
        Most school-based attacks were stopped through intervention by 
        school administrators, educators, and students or by the 
        attacker stopping on his own.
    While each of these findings is important and may be useful for 
improving school safety, one finding in particular struck both the 
Secret Service and Department of Education as being of unique 
importance to prevention efforts: ``Prior to most incidents, other 
people knew about the attacker's idea and/or plan to attack.'' We are 
currently conducting additional research into this `Bystander' 
phenomenon to learn more about information that may be conveyed prior 
to an attack. Some of the questions we are attempting to address 
include: What information is conveyed prior to the attack? To whom? Why 
isn't the information brought forward to a responsible adult? How can 
we increase the likelihood that information will be shared? The goal of 
this effort is to provide information to school administrators and 
educators regarding possible barriers that may prevent children who 
have information about a potential incident from reporting that 
information to a responsible adult.

Threat Assessment Approach
    Threat assessment, as developed and utilized by the Secret Service, 
is a fact-based investigative and analytical process that focuses on 
the identification, assessment, and management of those who may pose a 
threat of targeted violence. In light of findings of the SSI, a threat 
assessment approach may be a promising strategy for preventing a 
school-based attack. The Secret Service believes there are six 
fundamental principles to the threat assessment process:
        1. Targeted violence is the end result of an understandable, 
        and often discernable, process of thinking and behavior.
        2. Targeted violence stems from an interaction among the 
        person, the situation, the setting, and the target.
        3. An investigative, skeptical, inquisitive mindset is critical 
        to successful threat assessment.
        4. Effective threat assessment is based on facts, rather than 
        characteristics or traits.
        5. An integrated systems approach, which incorporates gathering 
        and sharing information between entities that had involvement 
        with the student, such as educational, community, or faith-
        based organizations, should guide threat assessment 
        investigations.
        6. The central question of a threat assessment is whether a 
        student poses a threat, not whether a student made a threat.
    As illustrated by these principles, targeted violence is the end 
result of a process that can often be detectable by accurately 
gathering and assessing the facts of a particular case. Schools and law 
enforcement may be able to prevent some incidents of targeted school 
violence if they know what information to look for and what to do with 
such information when it is found. To best gather and evaluate 
information from multiple sources, schools should consider establishing 
multidisciplinary threat assessment teams comprised of people from the 
school, the community, and law enforcement. By utilizing this multi-
systems approach, these threat assessment teams may be able to detect 
and evaluate information that might indicate that there is a risk of a 
targeted school attack; and, ultimately develop strategies to prevent 
potential school attacks from occurring.

Trainings and Dissemination
    The U.S. Secret Service routinely shares the results of the SSI 
with school and law enforcement professionals responsible for the 
prevention of targeted school violence.
    As illustrated in the graph below, through April 2007, NTAC has 
provided briefings and training on the SSI at 339 different sessions to 
over 77,000 people. The attendees have included educators, school 
administrators, school resource officers, other law enforcement, and 
community representatives. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These information-sharing seminars have occurred throughout the 
United States and internationally as well. The illustration below 
depicts the locations of the SSI sessions. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    To aid in the dissemination of this salient research, the Secret 
Service and Department of Education have released an interactive CD-
ROM, A Safe School and Threat Assessment Experience: Scenarios 
Exploring the Findings of the Safe School Initiative, a copy of which 
has been provided to this Committee. Following last October's White 
House Conference on School Safety, this CD-ROM along with a copy of the 
threat assessment guide and final report of the SSI described earlier--
was distributed to school superintendents and others involved in school 
safety in January 2007. Through the use of hypothetical school-based 
scenarios, school threat assessment team members may further develop 
their skills in conducting a threat assessment inquiry. The unique 
interactive format is designed to serve as a tabletop exercise for team 
members to gain familiarity with the threat assessment process, as well 
as the role each team member will play in it.

Conclusion
    The research completed by the Secret Service and Department of 
Education through the Safe School Initiative has greatly contributed to 
our understanding of targeted school violence and helped to identify 
steps that may be implemented to prevent future occurrences. 
Establishing and maintaining multidisciplinary threat assessment teams 
that enlist school and community resources may better equip schools to 
handle those who pose a risk of targeted violence through prompt 
identification, accurate assessment, and effective management.
    Chairman Thompson, thank you again for the opportunity to appear 
before this Committee.

    Chairman Thompson. I would like to thank you both for your 
testimony.
    I remind each Member that he or she will have 5 minutes to 
question the witnesses.
    I now recognize myself for questions.
    Ms. Kuzmich, first of all, thank you for helping me in the 
Greenville, Mississippi, forum. As you saw, there is a good bit 
of interest in this whole question, but you could see the range 
of participation from small districts to large, and the degree 
of sophistication varied based on that.
    Can you tell the committee, for the most part, what a 
school district is telling you they need from a preparedness 
standpoint?
    Ms. Kuzmich. I think in terms of what we hear consistently 
as we talk to people across the country is wanting model 
programs to look at. We especially hear--you know, I think we 
see from urban districts across the country and larger school 
districts who have more staff and more capacity, they have 
obviously looked at these issues more significantly. We do hear 
a lot from smaller, rural districts that they need, you know, 
best practices and model approaches that they can take and 
adopt in their district because it is more of a challenge for 
them.
    I think the thing that we have worked on significantly, 
too, and the thing that we see as something to continue working 
on in the future is, you know, there are 15,000 school 
districts across the country, and State education agencies 
obviously play a large role in education within our States and 
is one of our main liaisons at the Department of Education. So 
how can we best work not just with all 15,000 school districts, 
which is a big challenge for us at the Federal level, but to 
work with States so that they can work with their own 
districts, provide training, technical assistance to their own 
districts on emergency management planning.
    Chairman Thompson. Well, is it your testimony before the 
committee that you have provided training for all States on 
school preparedness at this point?
    Ms. Kuzmich. We have about 40 States who have participated 
so far.
    Chairman Thompson. So it is voluntary.
    Ms. Kuzmich. It is.
    Chairman Thompson. Can you tell the committee whether or 
not the Department plans to do anything else around school 
preparedness other than to offer voluntary participation in 
training?
    Ms. Kuzmich. There is voluntary participation at the State 
level. Right now through the Safe and Drug-Free Schools formula 
program that we currently have, which is a formula grant to all 
50 States, but essentially a formula program to all districts 
across the country, as part of that program within No Child 
Left Behind, districts have to certify that they have an 
emergency response plan within their districts. Now, whether 
that plan is updated and robust is another question, and I 
think that is certainly something we need to work on.
    And the thing that we have proposed, since that program is 
authorized through No Child Left Behind, which is up for 
reauthorization this year, what we propose to do with the 
States grant program, which right now is disbursed very thinly 
to districts across the country, half of districts get less 
than $10,000, which is not really effective for them to do 
alcohol/drug prevention and emergency crisis planning--what we 
have proposed to do is to change that plan program into a more 
robust State grant program where we give the funding, two 
grants at the State level, and allow them to do training and 
technical assistance, because disbursing funds to all 15,000 
districts we don't think is the most effective way to really 
get more bang for our buck.
    Chairman Thompson. You do understand this is the same 
program that the President has zeroed out in the last two 
budgets?
    Ms. Kuzmich. We have put money in the budget this year for 
that program, and we have redesigned it to focus it at that 
State level so that we can --I think we feel like that is a 
more effective model to work with State leadership.
    Chairman Thompson. How much money?
    Ms. Kuzmich. We have $99 million.
    Chairman Thompson. Ninety-nine million dollars for 15,000 
school districts?
    Ms. Kuzmich. For 50 States. We have redesigned how to--how 
we send that money out.
    Chairman Thompson. Fifty States, 15,000 school districts. 
It still has to get to the school districts, right?
    Ms. Kuzmich. It does.
    Chairman Thompson. So that is about a million and a half 
per State?
    Ms. Kuzmich. It is about $2 million per State, although 
that could change based on the size of the State. And I mean 
our real goal, we are always going to have a discussion about 
what is the right level of funding for programs like this where 
9 percent invest in education. So there needs to be a 
significant role for States and locals in funding these 
programs, too.
    But I think the way we would redesign the program is that 
funding would not have to go to all 15,000 districts. Some 
districts have already done a very good job of emergency 
management planning, so States would have the authority to 
target funds within their State to districts to keep funding at 
the State level if they would choose.
    Chairman Thompson. Thank you.
    The last thing is when these districts submit school 
preparedness plans, do you approve them or reject them or you 
just receive them?
    Ms. Kuzmich. We don't actually receive the plan itself. The 
current provision in law is that districts have to certify that 
they have a plan. They do not have to send the plan in to us at 
the U.S. Department of Education.
    Chairman Thompson. So, in essence, if they certify they 
have it, then we give them the money.
    Ms. Kuzmich. That is a piece of their State application, 
State and district application.
    Chairman Thompson. But we never look at the plan.
    Ms. Kuzmich. Correct.
    Chairman Thompson. Okay.
    I now yield 5 minutes to the gentleman from Tennessee, Mr. 
Davis.
    Mr. Davis of Tennessee. Thank you, Mr. Chairman.
    Ms. Kuzmich, thank you for being with us today. I 
appreciate your testimony. If you would, could you please 
discuss the grants that are available through the Department of 
Education for school preparedness?
    Ms. Kuzmich. Our most targeted grant program is those--are 
the Readiness Emergency Management grants that I talked about 
in my testimony that go out to districts to essentially create 
very robust emergency response plans within their districts. 
That is the most significant piece of that. We have our Project 
SERV grants, which I talked about, which are for the aftermath 
of an event within a district or a State, whether it be a 
natural disaster or school violence. We used them post-9/11. 
And then we have our State grant program. So there are the 
three main pieces that we have.
    Mr. Davis of Tennessee. Who has the ability to apply for 
the grants?
    Ms. Kuzmich. Local school districts generally are the 
applicants for those grants.
    Mr. Davis of Tennessee. And do you provide assistance in 
actually setting up a plan?
    Ms. Kuzmich. We do. We have offered, as I said, to 
grantees. Obviously we go out and use model plans that we 
funded in the past to talk to districts about what we are 
seeing, what the most effective ways to put together a plan 
are. We provide training to those who are nongrantees. You 
don't have to be a grantee to access the model plans that we 
have at the Department.
    Mr. Davis of Tennessee. How many schools have taken 
advantage of these grants? How many school systems?
    Ms. Kuzmich. I believe it is over 400, although I will have 
to get back to you and double-check that number for you, sir.
    Mr. Davis of Tennessee. And how much money is typically 
given out in a given year, grant money?
    Ms. Kuzmich. It ranges between 20--and $30 million that we 
have given out over the past several years each year for those 
emergency response grants, and then the State grants program, 
which is not solely targeted on emergency response; it can be 
used by States and districts at their discretion for alcohol/
drug prevention programs and emergency response. We have spent 
about a little over $30 million a year.
    Mr. Davis of Tennessee. How do you go about spreading the 
word to local school systems that there is grant money 
available?
    Ms. Kuzmich. It is a challenge, and it is always something 
that we are always continually trying to do. It is where we try 
to work with States as much as possible, because while we do--
while we have sent--after the White House conference last fall, 
we sent communication in our General Guide on Emergency 
Response Planning to all 15,000 districts across the country. 
You know, sending it to them doesn't mean that they always use 
it and share it within their community.
    And so we work with the Safe School Centers, which are in 
States across the country, with the chief State school officers 
who are in every State and, you know, communicate with their 
districts on a regular basis. So these are a variety of means.
    Mr. Davis of Tennessee. There is only 400 out of 15,000 
that have applied for the grants. What can we do as Members of 
Congress to help spread the word across our districts?
    Ms. Kuzmich. Well, we have--you know, we have a Web site 
with all of or resources, with all of our model plans, with the 
threat assessment guides on it, all of the grants that they can 
apply for. So part of it is publicizing that with your own 
district, letting educators know it is there.
    A lot of it, too, is getting educators to work within their 
local community with law enforcement and the mental health 
community. You know, we can't, at the Federal level, force 
those discussions, but they are very important as far as 
emergency response planning.
    Mr. Davis of Tennessee. I think I hear you saying that you 
feel like emergency preparedness is best done in local 
communities with assistance from the Federal Government, not 
mandated from the Federal Government; is that correct?
    Ms. Kuzmich. And we think that we have a role to play in 
providing best practice and model plans, but the real work that 
happens to create these plans is at the local level.
    Mr. Davis of Tennessee. Thank you for being here today. And 
I yield back.
    Chairman Thompson. Thank you very much.
    I now yield 5 minutes to the gentleman from North Carolina 
Mr. Etheridge.
    Mr. Etheridge. Thank you, Mr. Chairman, and let me thank 
you and the Ranking Member for calling this hearing.
    Just so the witnesses know, I think I am the only former 
State chief school officer serving in Congress. This is not a 
new issue with me, and I don't think it is a new issue with 
members of the committee. So we have been interested in it, and 
I expect, as we start this conversation, all others are 
interested in improving emergency school planning, emergency 
and response.
    So let me ask this question this way, and it may not be 
what you anticipate to hear from some of the stuff you have 
talked about, but let me ask the question for both of you.
    Because I think the other issues that we haven't talked 
about, crowding in school facilities, plagues a lot of school 
districts across this country, both large and small, despite 
local government efforts to put more money in on bond issues, 
et cetera. Surveys have found that there are a lot of kids, 
millions of students in the country in makeshift classrooms in 
trailers, and a host of conditions that we would not want to 
run an office in and we wouldn't put up with, and yet we put 
our children there, and if this were in prisons, we would have 
a lawsuit against us, but yet we put children there. A number 
of reports have come out that says they are just not good 
places to learn nor good environments.
    So here is my question: Does the size composition of our 
schools increase the risk or effects of an emergency; and 
secondly, how does school overcrowding affect the schools' 
emergency management plans; and number three, have you looked 
into how much or how vulnerable trailers or portable facilities 
are compared to brick-and-mortar school buildings? If not, why 
not?
    Ms. Kuzmich. Congressman, you know, this isn't--school 
facilities is generally a local and State issue. We have done 
some work on--
    Mr. Etheridge. We used to say that about roads and a host 
of other things. I know the--
    Ms. Kuzmich. We fund a Center on School Facilities. They 
have done some work on this issue, and there are some outside 
organizations that have done some work on this, and I do know 
that at our White House conference last fall, we had several 
participants come and talk about the design of schools, things 
that we have learned post-Columbine in terms of how to design 
schools to minimize risk at those facilities.
    So I would encourage you--we would be happy to share that 
information with you.
    Mr. Etheridge. The answer is no.
    Ms. Kuzmich. The answer is there has been work done on 
that. It is not my area of expertise, but I would be happy to 
get that information.
    Mr. Sica. Congressman, unfortunately our research does not 
speak to the overcrowding issue whatsoever, and I wouldn't be 
able to comment on that accurately.
    Mr. Etheridge. That is a concern to me when we look at 
security, because if you do it in any other area, you would 
look at those issues, I would think. Seems to me that would be 
an issue.
    Let me go back to another question, because there is 
probably most likely going to be legislation this time at the 
Federal level for school construction across the country so the 
government can be a partner if we are going to require certain 
things get done, and I think we will have an opportunity to 
provide that.
    You may not be able to ask for it at the Department of 
Education, but at some point I am going to get the Secretary 
and ask her the question whether or not the Department will 
support Federal legislation for school construction on a 
partnership, because I think we may be a 7 percent partner, but 
having been a State superintendent, I can tell you many times 
there are more than 7 percent requirement on the things that we 
do. On many issues it is more like 50 or 60 percent requirement 
on 7 percent of the money.
    Would you want to comment on that?
    Ms. Kuzmich. No. But I would be happy to follow up with you 
on it.
    Mr. Etheridge. If you would, please.
    Both the National Threat Assessment Center and U.S. 
Department of Education have done a lot of analyses of school 
safety and response, and you alluded to that earlier and have 
developed an impressive collection of information, planning, 
resources in our school preparedness that are useful. However, 
my concern is that information doesn't really get in the hands 
of school officials, and you alluded to that dealing with 
thousands of school districts, many of which, you know, there 
is no such thing as school districts, and no one there--it is 
just in name only and just in this country.
    My question is as you meet with chief State school officers 
who do have the responsibility, depending on the State where 
you have a school system or system of schools, it seems to me 
there is a leverage at that level through the U.S. Department 
to implement.
    So my question is this: As we deal with school safety. I 
think the view as every parent--I agree with you there, the 
safest place is where children go everyday, but the issue is 
the parents want 100 percent. And we look at urban and rural, 
and if you look at where the major incidences have happened in 
recent years, they weren't in the large urban areas. They were 
in the isolated rural areas, and there is a reason for that.
    So my question is what are you doing to ensure that 
schools--or what are the resources available through NTAC and 
through the Department of Education? And given the variety of 
demand of school administrators and teachers, their first job 
is to teach, of course, do you think there is enough funding 
available to help schools out?
    It is one thing to make them available; it is another thing 
to make sure they have the resources. And you alluded to that 
earlier that when you spread it out, it is so thin, that there 
is not enough money. This committee needs to know that.
    Ms. Kuzmich. I think--you know, I think the reauthorization 
of No Child Left Behind, which we are working on this year, 
gives us a good opportunity to look at a lot of these--
    Mr. Etheridge. Even that is underfunded by a huge amount of 
what the President proposed. So if we underfund that, we still 
don't have resources there or here.
    Ms. Kuzmich. I think one of the things that we would like 
to do from the Department level is really focus our funding in 
on the most effective programs, and we are certainly open to 
talking with you about how to do that.
    We feel like, you know, spreading that money thinly across 
all districts is not the most effective way to spend our 
Federal dollars. To partner with our States; to do that, and to 
also continue to fund these model programs so that we can share 
that information. We do have a lot to do to get better 
information out, and while in a lot of the recent discussions 
we have had where the Secretary has gone out after Virginia 
Tech, we have heard a lot of people talk about the threat 
assessment guide, some of the model plans out there. We don't 
hear as much as we should. And that is--you know, that is a 
continuing challenge we face.
    We are doing a national conference this summer where all 50 
States will be present on Safe and Drug-Free Schools, and 
emergency planning will be a significant piece of that. And we 
continue to look for new ways to communicate with them and get 
them to do this effectively.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. The time of the gentleman has 
expired.
    We now recognize the gentleman from Washington Mr. 
Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. My--I think it is 
always important for the people who are testifying to know a 
little bit of background of the person that is asking the 
questions.
    My background was in law enforcement. I was the sheriff in 
Seattle up until a couple of years ago, and now I find myself 
here. So 33-years in law enforcement, and we watched what 
Columbine did to change the way that local law enforcement 
responded to a school crisis.
    One of the things that we have done in Washington State, 
and I think that maybe you will find that is one of the more 
progressive states in this arena, is we have a rapid response 
plan in place. It is a statewide system. We also have a mapping 
system that maps all of the schools in the State. We are moving 
on to mapping colleges so that as first responders arrive, they 
immediately have a floor plan of the school and immediately can 
communicate with the school officials and other first 
responders in the area and those coming to help.
    But to really get to some of the questions, the threat 
assessment guide that was conducted and then provided, I am 
really curious about--you know, when I went to school in 1950, 
1960s, boy, things have changed a lot. What is happening? I 
mean, the bottom line is prevention is really what we are 
looking for here.
    So in your assessment really, and Mr. Etheridge hit on part 
of the problem, but drugs and alcohol and that sort of thing, 
how do gangs play into this? What about home-grown terrorism? 
What is happening in the homes? Have you looked at those sorts 
of things, and do you guys work together? Do you know each 
other, and do you----
    Mr. Sica. We do now, Congressman.
    Ms. Kuzmich. Our staff at the Department works very 
significantly with Mr. Sica.
    Mr. Reichert. So how deep does the assessment go? I mean, I 
think we get caught up in, you know, now we are here, these 
things are happening, now what are we going to do? We talk 
about prevention, but really what is the underlying cause of 
the violence happening in our society today in our schools 
today, in gradeschools?
    Mr. Sica. Congressman, if I may, I will at least start to 
answer that question.
    What we found--and this is consistent with the research 
that was conducted, and the exceptional case study project that 
goes back to 1997 which really transformed the way the Secret 
Service conducts its protective intelligence investigations. We 
moved away from more of a profile approach to a nonprofile. The 
research suggested that there is no profile of an assassin, 
that mental illness was a product--or assassination was a 
product of mental illness, and that--and direct threats. All of 
these myths were debunked by that research.
    And one of the things that really changed the course of our 
practices was a behavioral-based approach. We looked at the 
thinking and behavior of attackers, and, quite frankly, we 
applied that approach to the targeted violence and school 
issue, and we saw that it really did have application, and that 
is truthfully why it is so successful.
    The research doesn't really speak to gang violence. And one 
of the interesting things that came out of the Safe School 
Initiative that supports the nonprofile is that very few 
attackers in the--there were 41 attackers that we looked at and 
37 incidents, and of those 37 incidents, rarely were attackers 
using drugs or alcohol. It just didn't seem to be the factors 
that we thought it would be.
    One of the notable behaviors, I think, that is worth 
mentioning, and I think it is true of the exceptional case 
study as well, attackers are looking to solve a problem, and 
they resort to violence as the only way that they can solve 
that problem. I think that is something that we pay a lot of 
attention to.
    Mr. Reichert. Thank you.
    So we are talking about $99 million, which is what you are 
budgeted for. Just recently within the last week or so, we 
passed a bill in the House of Representatives increasing grant 
monies for COPS funding by $1-1/2 billion. I know as a sheriff 
for 8 years in Seattle, I really accessed and used COPS 
funding, and it does marry up with the 99 million for school 
resource officers, and I think, wouldn't you both agree, that 
that is a program that really is a program that works and is 
preventative in nature?
    Ms. Kuzmich. Yes. And besides the Department of Education, 
the Department of Homeland Security also has their general, you 
know, emergency planning monies that can be used for schools. 
So ours is just a piece of what is going on.
    Mr. Reichert. Thank you, Mr. Chairman.
    I yield.
    Chairman Thompson. Thank you very much.
    We now yield 5 minutes to the gentleman from Texas Mr. 
Cuellar.
    Mr. Cuellar. Thank you for hosting this meeting today on 
this very important issue.
    In 1999, I was part of a task force in Texas because of 
what happened in Colorado. We also did the same thing. 
Basically what we are doing right now, except at a State level, 
we traveled the State of Texas. We got 1,048 school districts 
in Texas, and we are facing the same type of situation--we 
faced the same type of situations that we are seeing right now 
in many ways.
    What I gathered, as you see, and I think Bob mentioned 
this, you got the large school districts, and I see that you 
meet with about 40 of the largest school districts across the 
Nation, but we are also looking at the small school districts, 
the ones that can't travel, that don't have access to you. And 
one of the basic issues that I remember from that 1999 tour 
that we did across the State of Texas was what you all 
mentioned, and I think we still try to figure out how do we 
implement this.
    Number one, what they wanted was model plans and the best 
practices, but it was not only develop them, but how do you get 
it over to them so they can implement those model plans and 
best practices? Because you can have the best plans on one of 
your shelves and best practices; that doesn't help anybody.
    So the question is how do we get to the 15,000 school 
districts, which is probably the hardest question is how do we 
get to them to establish that, and some of the basic things 
that they needed--and I think the former sheriff over here, 
because we had a lot of law enforcement--is do the training 
with them and make sure that they act in this with the local 
law enforcement and all of that.
    But even some of the basic things that they needed was 
information; for example, can we buy some video cameras for our 
schools because I know the big school districts have them, but 
if you go to the school districts, and I have got a lot of 
small school districts in my area, and I am sure every single 
Member has this, some of the basic things like video cameras, 
they couldn't even get that.
    So what I am asking is a two-part question, is, one, put 
yourself in the shoes of a school official that is not part of 
this 40 larger school districts that you have, and if you are 
in their shoes, they are supposed to take the first step to 
address this, what would they do? In other words, can you 
provide us a list of all of the different agencies that are 
involved in school safety and what each of them does?
    So horizontal, vertical; which are the different agencies 
and what they provide under that. And the second part to that 
is what are the different grants are available, for example, 
and your answer to your question, you said you have about $99 
million to address about 15,000 schools. If you look at the 
Emergency Response Crisis Grant program under the Homeland 
Security, we have got about $24 million involved there.
    So I need a list of all of the agencies, what they can do, 
number one.
    Number two, what are the grants that are available, what 
they cover in an easy format--not 20 different sources, but an 
easy format--if you can compile that, so they can go ahead, and 
if somebody who is calling from Atascosa County in Pleasanton, 
Texas, they can call up, they can do this without going to 20 
different places, pretty much in line with what the Chairman 
said.
    I think it is a great idea about having a one-stop center 
and a very easy way to access this, because otherwise we will 
be here another 8 years, like we did this back in 1999, still 
trying to address the same thing.
    What are the model plans? What are the best practices are 
there on somebody's shelves right now and in somebody's, you 
know, drawers, and how do we get that to them as soon as 
possible? What are the grants available? And then you can put 
that--and I would ask you, too, Mr. Chairman, if I could ask 
that they submit this to the committee, and I would like to 
look at that and have some input, because I think, like all of 
the Members, we all have--have our own experiences. I know that 
Carolyn has different types of experiences. All of us bring 
them in, and I think you ought to allow some of us with some 
different type of experiences to help you put this in a format 
that large school districts can get it, small school districts 
can get it and in an easy format that we can all understand.
    Ms. Kuzmich. We would be happy to do that.
    Mr. Cuellar. Then I got 20 seconds.
    How fast can you all put this together? Because if you all 
have been coordinating, you can probably turn this in by this 
afternoon.
    Ms. Kuzmich. We do have a lot of this on our Web site right 
now. We probably don't have it all in one matrix. We can 
probably do that fairly quickly.
    Mr. Cuellar. Five days, ten days.
    Ms. Kuzmich. I will get back to you, but we can do that 
probably within the next week or so.
    Mr. Cuellar. Will you contact the staff and my office?
    Ms. Kuzmich. We will be happy to.
    Mr. Cuellar. Thank you, Mr. Chairman. I have no further 
questions.
    Chairman Thompson. Thank you very much.
    We now recognize the gentleman from Florida Mr. Bilirakis 
for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Like all Americans, I was deeply disturbed when I learned 
of the tragedies at Virginia Tech. Our Nation's schools should 
be sanctuaries for safety and learning, not front lines for 
senseless violence. Unfortunately, when these events happen, we 
must reevaluate how we are ensuring our children's security, 
and I know that a lot of this takes place with the State and 
local government; however, I am interested in learning what 
additional roles, if any, the Federal Government should have.
    With that I have a couple of questions. And the first one 
to Mr. Sica.
    After reading the conclusions of the Safe School 
Initiative, it seems that it is extremely difficult to profile 
someone who intends to commit an act of violence at school. 
Would it be correct to believe that this makes it very 
difficult to prevent an attack?
    Mr. Sica. Our research suggests, Congressman, yes. There is 
no profile, and again, that is consistent with the exceptional 
case study and validated through the Safe School Initiative 
report.
    Despite all of our best efforts, we will never prevent 
every incident of targeted violence in schools. And I think we 
have to accept that.
    What we have to embrace is looking at thinking and behavior 
and looking at ways to intervene before an attack occurs, and 
therein lies the challenge.
    Mr. Bilirakis. Could you give me a couple of examples on 
how we can do that?
    Mr. Sica. I think we are doing it, Congressman.
    I am confident that through the collaborative effort that 
we have with--efforts that we have with the Department of 
Education, the research that we have conducted and provided to 
the 77,000 people that we have talked with over the course of 
the last 5 years, I know we have prevented acts of targeted 
violence in schools. Unfortunately, we don't have raw data, but 
we do hear occasionally of schools and law enforcement calling 
back to the Threat Assessment Center and thanking us. Quite 
often if a threat assessment inquiry is occurring in a school, 
we will assist and provide guidance. So I do know that this 
works.
    Mr. Bilirakis. Thank you.
    Can you discuss the--and pardon me, I had a conflict 
earlier, so you may have discussed this earlier. Can you 
discuss the bystander phenomena you described? Can you describe 
it in more detail? Specifically, do you believe that other 
students bringing information to law enforcement is the best 
way to prevent school violence?
    Mr. Sica. Absolutely. The research suggests that--often 
suggests that oftentimes attackers have communicated to others. 
In fact, a very sad part of this bystander phenomenon, we know 
that some students have actually participated in providing 
logistical support to the attack.
    The bystander study will be released later in the year. It 
is going through some final editorial reviews, and I would be 
happy to provide this committee with that report as soon as its 
available.
    Mr. Bilirakis. So you anticipate it may be later in the 
year, maybe in the fall?
    Mr. Sica. Yes, Congressman.
    Mr. Bilirakis. Thank you very much.
    No further questions.
    Chairman Thompson. We now yield 5 minutes to the gentleman 
from Pennsylvania Mr. Carney.
    Mr. Carney. Thank you for holding this important hearing. I 
want to thank the witnesses for coming as well.
    I will be very brief.
    The $99 million, is that an annual sum?
    Ms. Kuzmich. That is.
    Mr. Carney. We spend about $12 million in Iraq, so this is 
about an 8-hour day's work in Iraq of funding for safe schools. 
What is the prospect of getting more money available?
    I agree with my colleagues, Mr. Davis. You know, I think 
that it is important that States have control as much as 
possible. I agree with the philosophy. I am just appalled by 
what I consider to be a very paltry amount for this problem.
    You know, I am a father of five kids in a public school, 
and it concerns me that we are at $99 million for grants for 
the entire Nation for 15,000 school districts.
    Ms. Kuzmich. That is a piece of our funding. We have got 
over $300 million in the Office of Safe and Drug-Free Schools 
that we propose at the Department of Education, and that is, 
once again, in partnership with other programs that we run with 
other agencies or that other agencies run. Homeland Security 
provides funding. We partner with the Department of Health and 
Human Services on our Safe Schools Healthy Student Program. We 
work with the Department of Justice in a lot of their programs, 
too.
    So that is one piece, and, you know, when we have that 
right calibration, we are happy to discuss with you. We do 
think it is a priority, though.
    Mr. Carney. How close do you work with the States' 
departments of education to promulgate the information to the 
various school districts and their States?
    Ms. Kuzmich. We work closely. We think we could work more 
closely in the sense of how our funding goes out, and what I 
talked about earlier in terms of how, instead of funding down 
to districts across the country, work more significantly with 
State departments, many of whom are taking and have taken a 
more active role post-Columbine and post-9/11 in the area of 
school safety and in emergency planning so that we are not--so 
that we are dovetailing on their efforts with them as opposed 
to duplicating anything they are doing.
    Mr. Carney. Thank you. No further questions.
    Chairman Thompson. I will take a little bit of your time.
    Can you explain to the committee how do you evaluate the 
districts who only check that they have completed their plans 
to see whether or not they are complete or anything? In other 
words, they check that we have a plan. Who actually goes out to 
see whether or not the plans are actually being followed, or 
are we just taking them at their word?
    Ms. Kuzmich. Mr. Chairman, you are right. They do just have 
to certify that they have those plans. I think that is an area 
that we would be happy to look at, you know, how we can ensure 
that they don't create a plan that doesn't address all of the 
four critical pieces of emergency management planning.
    I do think it is a capacity issue, and it is why I think we 
would like to work with States as the intermediary in some of 
this. But we do know that a lot of districts have a plan in 
place. They put it on the shelf, and they don't update it and 
use it, and that is an important part, and we would be happy to 
talk with you further.
    Chairman Thompson. I think that is the crux of what I think 
the committee is trying to respond to. There is no real 
oversight in this whole process.
    I yield the balance of the time to the gentleman from North 
Carolina Mr. Etheridge.
    Mr. Etheridge. I would like to offer, as a suggestion, 
since you have 50 States and the territories, it would be a lot 
simpler to have them to be the ones responsible where they are 
funding anywhere, depending on the range, from 40 to 70 percent 
of the funding; they ought to be the ones where you have the 
repository to check, to reinforce and work with. It would be a 
lot simpler and then you don't have to check with--
    Ms. Kuzmich. I think we would agree with you on that.
    Mr. Etheridge. That seems to me that would be a commonsense 
approach.
    Ms. Kuzmich. We do have a good opportunity to work on that 
in reauthorization of that Safe and Drug-Free School program.
    Mr. Etheridge. That seems to be--wouldn't be a 
reauthorization issue. It should be an administrative issue 
that you should deal with because it is in the law.
    Ms. Kuzmich. The law only requires that they certify. So if 
we are going to do something above that, we will have to change 
the statute on that.
    Chairman Thompson. Can you provide the committee--and I 
will take back the balance of the time--can you provide the 
committee what the Department expects in a plan that you 
certify, that you--that a district certifies?
    Ms. Kuzmich. I will get back to you on this. I don't have 
the application with me.
    Chairman Thompson. They certify something.
    Ms. Kuzmich. Yes.
    Chairman Thompson. And we need to know what it is the 
Department expects.
    Mr. Dicks. She said something about four elements of a 
plan.
    Chairman Thompson. Please.
    Ms. Kuzmich. The four elements: Prevention, planning, 
response, and recovery; those are the four critical areas of a 
good plan. Now, that is not required statutorily under the Safe 
and Drug-Free Schools program. So I think we would like to look 
into how we can strengthen those requirements and make sure 
that plans are robust and that States have a real active role 
in that.
    Chairman Thompson. I think the issue is the general public 
would expect us to have some standard of measurement as to 
whether or not a district is meeting some expectation, but if 
we only require the Department to certify something that we 
never look at, then we have really not met the real 
expectations.
    Mr. Reichert. Will the gentleman yield?
    Chairman Thompson. Yes.
    Mr. Reichert. Just through my experience through my 
sheriff's office in Seattle, the COPS office is a great 
practice in monitoring grants. They have performance measures 
set out. They sent out a team of people to the sheriff's 
office, to the school district. When you talk about safe 
schools and drugs, there are grants available and have been--
and granted, they have been reduced, and now they are going to 
be increased. But if you are working in partnership with the 
COPS office, that performance measure program is already in 
existence and, in my experience, is just outstanding program.
    I thank the gentleman.
    Chairman Thompson. I think all of us are just trying to 
push the envelope to the point where there is some real 
oversight and not just a certification taking place in the 
process.
    Thank you.
    I now yield 5 minutes to the gentleman from Pennsylvania 
Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman.
    Mr. Dent. Thanks, Mr. Chairman. States are permitted--they 
are permitted to use funding from the Department of Homeland 
Security's Homeland Security Grant Program and UASI program, 
the Urban Areas Security Initiative, for school security and 
preparedness activities. Does DHS share information with you 
regarding how States are using homeland security grant funds to 
secure schools?
    Ms. Kuzmich. They do generally. I will have to get back to 
you with how specifically they do that. I do think that we can 
do a better job of making sure that, through DHS grants, 
schools are included in that community-wide planning. They are 
not always included as a piece of that.
    Mr. Dent. Well, it certainly should be better coordinated. 
I would like for you to follow up with the committee on that if 
you would. Do you believe that DHS should play a greater role 
with respect to school security, Ms. Kuzmich?
    Ms. Kuzmich. Well, I will have to leave that to my DHS 
colleagues. We work with them very well in terms of our joint 
activities. We obviously have different constituencies. We 
think that partnership is important. We work most significantly 
with districts and State education officials. They work more 
with, you know, the emergency planning community. So there is a 
reason that we have different pieces, but we should also work 
jointly together.
    Mr. Dent. Yeah, it seems there is a coordination issue here 
that has to be addressed. The Department of Education recently 
held an emergency management training session for schools in 
Philadelphia, and I think another session is planned this month 
or later this month. How frequently does the Department of 
Education hold this type of sessions?
    Ms. Kuzmich. We do these every few months. We also have Web 
casts so people who can't come can see it online.
    Mr. Dent. Who can participate in these programs?
    Ms. Kuzmich. I will get back to you in terms of the actual 
sessions on site, but the Web casts anyone can participate in.
    Mr. Dent. What do you generally discuss in these sessions? 
Does the Department of Education consult with DHS in creating 
the curriculum for these programs?
    Ms. Kuzmich. We do. We talk about our grant programs and 
specifically, you know, how to apply what we have learned from 
those, what model plans look like, how to address those four 
areas that I talked about before in creating those model plans 
across the country.
    Mr. Dent. Okay. Thank you. Would you like to add anything?
    Mr. Sica. No, Congressman.
    Mr. Dent. I will yield back the balance of my time. Thank 
you, Mr. Chairman.
    Chairman Thompson. Thank you very much. I now recognize the 
gentleman from Washington, Mr. Dicks, for 5 minutes.
    Mr. Dicks. Thank you, Mr. Chairman.
    The U.S. Secret Service completed a study to which the 
term, as you mentioned, Agent Sica, the targeted violence was 
developed--which the term targeted violence was developed. Can 
you explain what targeted violence is and how it relates to 
school preparedness?
    Mr. Sica. Yes, Congressman. Targeted violence was developed 
through the exceptional case study project, and it refers to 
any incident where a known or knowable attacker selects its 
particular target prior to their violent attack. In the case of 
schools, that target might be a classmate, maybe a teacher or 
even the school building itself.
    Mr. Dicks. The U.S. Secret Service, in partnership with the 
Department of Education, conducted and completed an operational 
study of school shootings, the safe school initiative. What was 
the primary goal of this safe school initiative?
    Mr. Sica. The primary goal of the safe school initiative 
was to identify information about the thinking and behavior of 
individual students who planned or committed acts of targeted 
violence, and what we were looking to do is take that 
information and provide it to these schools and law enforcement 
which we have in hopes that they would develop preventive 
policies and strategies.
    Mr. Dicks. Yeah. It seems to me that one of the key facts 
here that I have heard is that we--there may not be any 
overall, you know, indication of who is going to do this. But 
there are people who do hear about it. I mean, it seems to me 
that one of the things we have to do is work with the school 
districts to talk to the kids and to tell them, if somebody 
brings up the idea that they are going to do something, they 
are expected to turn, you know, to bring that information to 
the authorities. Do they do that? I assume they do that, but is 
it happening out there?
    Ms. Kuzmich. It could be happening a lot more. And they do 
that. That is a part of a lot of guidance we give.
    Mr. Dicks. Is it on your Web site?
    Ms. Kuzmich. It is. When we held our conference last fall, 
one of the things we heard about was the importance about 
talking to kids and teachers about reporting things that they 
hear. That can really only happen, you know, within a school at 
a very personal level, this whole issue of connectedness and 
not fearing disclosing information to a teacher.
    Mr. Dicks. In an ideal situation, what is the relationship 
between the law enforcement community and the school district 
or the school itself? I mean, what should they be doing? What 
are the key things in terms of their cooperation? My colleague 
from Washington mentioned, in Washington State, we have this 
prepared response program where they have maps of the schools 
that are available to law enforcement. So if something happens, 
they are able then to go into the school and have a real 
understanding of how the whole situation is laid out, which I 
think is--you know, I think all of our schools out there have 
this. I think it is a very valuable way for law enforcement to 
have a better understanding of how to proceed into the school 
and deal with the shooter.
    Ms. Kuzmich. Congressman, when we give out our emergency 
response grants, one of the things we require that we know is 
effective is that you have to have the school, the school 
district. We require the school and school district to work 
with law enforcement and mental health. They have to all be 
partners in this, because those are essential elements of 
creating a good emergency plan and having that link between the 
two and open dialogue and discussion within a community.
    Mr. Dicks. You know, it does bother me that--which one of 
the programs, Mr. Chairman, you mentioned this--was not funded 
in 2006 and 2007, not requested in the President's Budget?
    Ms. Kuzmich. He was referring to our State grants program.
    Mr. Dicks. Is that the $100 million?
    Ms. Kuzmich. That is the one we proposed $100 million for.
    Mr. Dicks. In 2008?
    Ms. Kuzmich. Correct.
    Mr. Dicks. But, in 2006 and 2007, it was not in the 
President's Budget?
    Ms. Kuzmich. Correct.
    Mr. Dicks. How do you explain that?
    Ms. Kuzmich. The evaluations of the program and the way 
that the funding flows has been very ineffective in the past, 
and several studies have demonstrated that, that the amount of 
funding that gets out to districts is an amount that is, you 
know, useful to them. So we have proposed a redesign of the 
program, and we have put that money back in our budget to focus 
it more on the State level.
    Mr. Dicks. I would yield to my colleague from North 
Carolina who I think has a comment.
    Mr. Etheridge. Who did the evaluation? Did GAO do it?
    Ms. Kuzmich. OMB.
    Mr. Etheridge. OMB, not GAO?
    Ms. Kuzmich. Yes.
    Mr. Dicks. And did Congress restore the money both in 2006 
and 2007?
    Ms. Kuzmich. Yep.
    Mr. Dicks. Heaven forbid, earmarks, that the Congress steps 
in and puts the money back in. I just hope we think about that 
as we give away the power of the purse here to the--you know, 
this is why we have a Congress, to have oversight, and when 
there is a mistake made, to put the money back in. I don't 
think we should give away that authority. And I yield--I have 
no further--I have no further time.
    Mr. Etheridge. Let me just say, Mr. Chairman, on this very 
issue, this money is--I am reminded by my friend from 
Washington was talking about--which is so well coordinated with 
our law enforcement folks and the school folks at the local 
level that he just talked about. You know, it baffles me that 
OMB would say it was so ineffective unless they were the ones 
who said they didn't want it to start with because it was a 
congressional program. I can tell you, in North Carolina, it 
works. I can't speak for other States. It works; it saved 
lives. It makes a difference in safety at schools for children.
    Chairman Thompson. Thank you very much. We now yield to the 
gentleman from Colorado Mr. Perlmutter for 5 minutes.
    Mr. Perlmutter. Thanks, Mr. Chairman.
    Mr. Perlmutter. I think that Mr. Dicks, Mr. Etheridge and 
Reichert are right on the numbers here. It is law enforcement. 
It is mental health, and it is schools. And I want to come at 
this a little bit differently because I have had the 
unfortunate circumstance of having Columbine two miles, three 
miles from my house and another school, Platt Valley. So a 
suburban school and then a rural school where we have had 
attacks. And I think the thing that I would just suggest to the 
Department of Education is to keep an eye. You know, we have 
got to prevent the attacks, but there is a mental health aspect 
to the kids after all this happens. And between 9/11 and these 
various Columbine and now Virginia Tech and then all of the 
copycat stuff that goes on, I have seen, as my kids have gone 
through school and particularly with one of my children, you 
know, boy, if anything like this happens, it brings up kind of 
a post-traumatic stress for them. And I don't know what is in 
the safe schools and drugs act or anything else we have for the 
mental health to kind of keep an eye on our kids. Is there 
anything in there about that?
    Ms. Kuzmich. There is. There is. Two pieces that I will 
highlight most significantly: First of all, in places where 
there is an incident, those project moneys that we have at the 
Department are used most directly for mental health services 
for students in those schools impacted by violence.
    We also fund the Safe Schools, Healthy Students Program in 
partnership with HHS and the Department of Justice. And that is 
very significantly--a piece of that is mental health and mental 
health services in schools and creating a healthy school 
environment for students.
    Mr. Perlmutter. Is anybody looking at the fact now that, I 
mean, at Virginia Tech, you know, it was a copycat--I mean, 
they refer to Klebold and Harris out of Columbine--picked that 
same week, you know, that we had Waco, now Columbine, Virginia 
Tech. I mean, we ought to take a look at that week--and I would 
turn this to the Homeland Security Department as being a week 
that is going to be one where we are going to have threats and 
violence. And I don't know what to do about it. You know, you 
can't take the week out of the calendar, but maybe have 
vacations there then. I don't know if anybody has thought about 
that. That is another kind of off-the-radar-screen kind of 
question, but the fact that I have had to deal with this stuff 
personally has caused a lot of thought about this. So, I mean, 
what do the schools do when we come up to that week of April 
15?
    Ms. Kuzmich. You know, that wasn't something--the 
secretaries have been out obviously post-Virginia Tech talking 
about the issues of campus safety. And we didn't really hear 
too much about that, but that is something we will take under 
advisement as we move forward. But we didn't hear specifically 
about timing issues, but we did hear about copycat issues and 
how to prevent that in the future. And a lot of that is the 
threat assessment piece, looking for warning signs and having a 
culture where people feel free to share information which we 
often don't find on college campuses these days.
    Mr. Perlmutter. And I would just suggest, in Colorado, we 
have seen you know the Platt Valley was at a whole different 
time. But what we have seen is kind of a spike in threats, and 
most of them are, you know, you leave something in the library, 
and it says x, y and z are going to be killed, you know, on the 
anniversary of Columbine. It never materializes, but we have 
seen those kinds of things. And we definitely saw them in a big 
way after Virginia Tech, which was the Monday of that week. And 
then the rest of the week we had schools being shut down on a 
pretty regular basis, which you know they were taking these 
things seriously, and I applaud them for that. I would just 
suggest to all of you that you take a good look at that week if 
there is some way to kind of--I don't know that there is much 
that can be done. But you certainly should look at that as a 
period of time when there is more energy, negative energy, 
whatever you want to call it in kids and others, you know, 
towards violence. And then I guess the last thing, and it is 
more of a statement, and if I didn't do this, one of my former 
campaign managers would be terribly upset. But at Virginia 
Tech--and I am curious how we are dealing with college 
campuses--she would say, you know, that kid, the mental health 
problem that he had coupled with guns that he had, you know, 
led to a lot of deaths. And one or the other of those, we 
wouldn't have had that kind of problem with that particular 
student. And so that is just more of a statement than an 
answer.
    Chairman Thompson. Thank you very much. We will try to get 
through and complete the panel. But if we could ask the 
indulgence of the rest of the committee to try to shorten it to 
less than 5 minutes for your questions so we can get through.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I certainly 
will do that so that everyone has a chance here. We have seen 
the violence in schools only escalate. It is as if there was no 
Federal response. And by the way, when you said the 50 States 
we are dealing--I take it you mean 50 States and the District 
of Columbia.
    Ms. Kuzmich. Correct.
    Ms. Norton. We have passed the gun culture down to kids 
clearly. It used to be that somebody who was half off, a little 
mentally deranged--and we know about those people in the 1970s 
and 1980s and 1990s, and now most of the people look like they 
are kids. Actually, my good friend's daughter questioned--that 
was indeed going to be my question, that is given 
particularly--or even before Virginia Tech, are colleges and 
universities required to have any plans? We were shocked to 
know that they didn't--you know, some of them didn't know 
whether you could contact people by text messaging, whether you 
do it by loud speaker. They seemed to have no plan whatsoever 
and no guidance from the Federal Government or anyone else. And 
finally, I just wanted to know about an administration report 
that I think I read about that talked about trying to do 
something about the effect of gun violence in the media on 
violence in children. I guess that would be Ms. Kuzmich.
    Ms. Kuzmich. On your first issue, especially on college 
campuses and whether they have plans, most college campuses do 
have plans. Now whether they are robust--
    Ms. Norton. I am just asking, just like you are requiring 
something of the schools, are you requiring anything of 
colleges and universities?
    Ms. Kuzmich. Colleges, I believe currently there are no 
statutory requirements for college campuses.
    Ms. Norton. Mr. Chairman, I think that is a hole, and 
Virginia Tech shows them. You need statutory guidance, and I 
think we ought to give it to you. What about the--I believe 
there was a report from the administration on gun violence and 
its effects on children, gun violence in the media and its 
effects on children. Are you aware of that?
    Ms. Kuzmich. Not specifically, but I would be happy to 
follow up if we can get more details on where that came from.
    Ms. Norton. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    Gentleman from Rhode Island Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank our 
witnesses for their statements here today and questions they 
have answered. I know we talked a bit about coordination. I 
want to focus in on that specifically.
    Mr. Sica, I have worked closely with Chairman Thompson to 
conduct assessments of emergency preparedness and response in 
schools located in my district about a year and a half ago. The 
results of that study were astonishing. I have to tell you that 
neither the Department of Homeland Security nor the Department 
of Education had been effective resources for Rhode Island 
schools in developing their emergency plans. In fact, none of 
the respondents in my district indicated that DHS assisted in 
developing their emergency plans, and only one responded it had 
relied on the Department of Education. Now in answering a 
question regarding the role that DHS should take in providing 
or funding emergency response plans, some of the respondents 
stated that they did not even know that DHS was a resource. And 
I fear that many of the results yielded by that survey still 
hold true today.
    So my question for you, Mr. Sica, is, what is DHS doing to 
change this perception? And what methods do you have reaching 
out to schools and universities? And please also describe how 
the Department partners with the Department of Education to 
effectively alert State and local officials of Federal 
resources in emergency planning for schools. And my last 
question, I know Mr. Reichert had touched on the issue of 
mapping. This is for the panel. I think it would be useful for 
emergency responders to readily have access to school floor 
plans and building maps in an emergency situation. We can all 
understand how that would be of great value. A part of the 
problem we saw at both Virginia Tech and Columbine shootings, 
law enforcement officials lacked key logistics needed to 
effectively quarantine the shooters. So I understand that the 
technology actually exists to compile information about floor 
plans and other relevant information and to do a consolidated 
database and make it easily accessible for first responders. 
Some cities and towns have actually moved to catalog plans of 
their schools, government buildings and their critical 
infrastructure to give first responders greater situational 
awareness. Many cases, these floor plans and maps already 
exist. They just haven't been compiled into a combined database 
that can be accessed onsite. So my question is, are you aware 
of these efforts? And do you think that this concept is 
something that either the Department of Homeland Security or 
the Department of Education would be interested in supporting 
on a larger scale? Perhaps providing assistance for State and 
local governments to develop these preparedness databases?
    Mr. Sica. Congressman, I cannot speak for the Department. 
That would be the type of question you would pose to my 
colleagues at the Department directly. I think it is very, very 
important that we clarify the Secret Service's role in this in 
that the Secret Service doesn't have statutory authority here. 
And our contribution to this has been on the prevention side, 
quite frankly, and we have tried to stay in that lane because 
we don't have any statutory authority. We recommend--we 
typically don't tell the States or the school districts or even 
law enforcement what to do. We just strongly recommend, based 
on our expertise in prevention, in threat assessment, but that 
type of a question would probably be better answered by a 
member of the Department directly.
    Ms. Kuzmich. I have talked a little bit about some of our 
information-sharing efforts. You know, we work with our 
colleagues at DHS. We have a variety of methods for 
communicating with districts across the country. It is clear 
that we can do a better job and our efforts after Virginia Tech 
are going to lead us to make some recommendations about how we 
can do that even more and provide better guidance for districts 
and States across the country. So we will continue to do that.
    Mr. Langevin. I think that would be important to have a 
better outreach and coordination with the schools. It would be 
nice for them to say, yes, we were contacted and assistance was 
offered, and this is what we did as a result.
    Thank you, Chairman.
    Chairman Thompson. Thank you very much. The gentlelady from 
New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. In New York 
City, the threats of terrorists attacks and natural disasters 
are very real to the community. Because of the enormity of the 
event, the terrorist event known as 9/11, many people were 
unaware that just minutes away from that event were a community 
college, a high school, an elementary school. These issues are 
compounded when we see news stories about schools taken hostage 
in Russia and elsewhere and when we hear about schools 
destroyed by hurricanes and tornadoes across America, when we 
find out that somewhere a deeply disturbed student or adult has 
run through a school building and shot at students and 
teachers. While we can never completely prevent tragedy from 
occurring, it is vital that the Federal Government work with 
local governments and individual schools to ensure that 
catastrophes are very rare and that they are able to respond 
appropriately when these acts do happen. In my constituency, in 
Brooklyn, this concern is extended to religious based 
educational institutions such as the Yeshivas that are embedded 
in densely populated urban environments. To Special Agent Sica, 
I would like to ask, in your testimony, you noted that the 
National Threat Assessment Center often disseminates 
information about safe school initiatives to over 77,000 people 
representing schools, law enforcement and others. Can you tell 
me what percentage of that number are school officials? And do 
these seminars work? Are they just briefings, or do you 
actually go to individual schools and work with people onsite?
    Mr. Sica. Congresswoman, it is an excellent question. It is 
something that we are working toward, better instructing 
audiences in a fiscally responsible way. I think it is 
wonderful that we have been able to reach the 77,000 people and 
the fact that we have conducted over 340 or 350 presentations. 
What I am more interested in is ensuring that we are 
instructing audiences that touch the right people, people that 
can actually implement different preventative strategies to 
include policymakers. Last week I was up in the State of 
Connecticut at the request of the Governor, and I addressed a 
group of representatives from colleges and universities 
throughout the State of Connecticut and the State police as 
well, law enforcement. And it was very apparent to me that this 
was something that we needed to continue to do. We need to 
ensure that we are touching the right people. I think there 
isn't a person that hasn't heard our presentation.
    Chairman Thompson. I might have to cut it off. I apologize 
for that. But I am trying to get to the gentlelady from New 
York, who has been so patient for the last round of questions. 
And for the second panel, we have 70 minutes of votes to take. 
So I would beg your indulgence for that period and would 
suggest that we reconvene about 1:00. So you can get lunch or 
something like that, because we have 70 minutes of votes.
    Mrs. McCarthy.
    Mrs. McCarthy. Thank you, Mr. Chairman. And I certainly 
enjoyed sitting here listening to this on the Homeland Security 
Committee. I wish we had done a joint hearing with the 
Education Committee because everything fits in. I sit on the 
Education Committee. Let me just give you a little background. 
I have introduced a bill, H.R. 354, Safe Act, which would 
require the use of law enforcement data to identify the safety 
climate in k-through-12 schools because, in my view, we do not 
have an accurate picture of what is happening in our schools. 
We are missing a piece of the puzzle, namely timely and uniform 
data which we could use to identify school violence and crimes. 
Under the Cleary Act, colleges are required to use law 
enforcement data in reporting to parents and the Department. 
But there is not a crime-tracking system in place for K-
through-12.
    With that being said, to make it go a little bit faster, 
you had mentioned the Associated Violent Death Survey Act which 
the CDC emphasized the word study. This is certainly something 
that is more interviews than anything else from 1994 to 1999 
with data for further studies being primary. We are in the year 
2007. But I can go to the Web site of one of the witnesses that 
we will be talking to later on the next panel, Mr. Trump, who 
will get violent death numbers as current as last week. I guess 
my question is, if we don't have the correct data up to date, 
we don't know what schools are actually violent. And if we 
don't know what schools are actually violent, then how are we 
supposed to send our very sources there to help those 
particular schools? So I am hoping that you really can look 
that this because it is something both of you said, prevention. 
And that is how we can do that by going to the lowest grades 
and more, is about talking to the children and young people. I 
can go into any school, and everybody will say it is a safe 
school. And if you talk to those students, they are not going 
to feel that way. Whether it is bullying or other issues that 
they are being faced or even to the point, especially among 
young women that were saying they were being sexually assaulted 
and some verbally which makes them feel unsafe. So there is a 
lot more we could go do.
    We will be reauthorizing Leave No Child Behind. I know a 
lot of people are probably going to be disappointed that I am 
not talking about guns at this particular hearing. But I do 
believe what we can do in schools today to make them safer is 
reach out to our young people to prevent gun violence in the 
future.
    Ms. Kuzmich. I would just agree with you, we can do a 
better job of collecting data on our k-through-12 schools on 
issues of safety and violence. It is something we have learned 
over the years. We have put money out for States to develop 
better systems, but we are still behind. That is something we 
need to work on.
    Mrs. McCarthy. We did a lot of research on this. That is 
why we need to do it on the Federal level.
    Mr. Sica. Congresswoman, community outreach for the Secret 
Service is certainly a core value of our agency. And I am very, 
very proud of that. When I ran the office up in Delaware, I was 
very--I had a very ambitious outreach with the Boys and Girls 
Club community, and that is a national effort that all of the 
field offices throughout the country are encouraged to support. 
And that is such a wonderful opportunity for us to touch the 
children that you are speaking to because I absolutely agree 
with you.
    Mrs. McCarthy. And one of the other things that was 
mentioned here a couple times on the COPS program, our school 
safety officers that go in, that is probably one of the best 
programs I have seen in my underserved schools. Relationships 
are made. The kids feel safer with them around, and we need to 
do a better job on that, too.
    Mr. Chairman, I thank you for your indulgence.
    Chairman Thompson. Thank you, and I thank the panel of 
witnesses. We will recess until 1:00 p.m.[Recess 11:33 a.m.]
    Chairman Thompson. We would like to reconvene the recessed 
meeting. I apologize to our second panel. We were obviously in 
the midst of votes, and that is one of the unfortunate 
situations we have to contend with because as chairpersons, 
when we set committee hearings, we have no idea when votes will 
be called.
    I appreciate your patience.
    I now welcome our second panel of witnesses. First witness, 
Ms. Cornelia Ashby, Director of Education, Workforce, and 
Income Security, Government Accountability Office.
    You have been there since 19----
    Ms. Ashby. 1973.
    Chairman Thompson. 1973. Congratulations.
    And in 2002 you moved to your current position as Director, 
and we appreciate your hard work in that respect.
    Second witness is Mr. Kenneth Trump, who is President of 
National School Safety and Security Services, a Cleveland, 
Ohio-based national firm specializing in K-through-12 school 
security and emergency preparedness training and consulting.
    Glad to have you.
    Our third witness is Dr. James Renick--pleasure--Senior 
Vice President for Programs and Research, American Council on 
Education, and former Chancellor of North Carolina A&T State 
University.
    Welcome.
    And our last witness is Dr. David Rainer, Associate Vice 
Chancellor, Environmental Health and Public Safety, North 
Carolina State University.
    Looks like Congressman Etheridge has significant influence 
on this committee.
    Chairman Thompson. Welcome, panel. Mr. Etheridge and others 
are on their way back. We do have some conflict in committee 
hearings going on.
    Ms. Ashby, if you will begin summarizing your statement for 
5 minutes.

STATEMENT OF CORNELIA M. ASHBY, DIRECTOR, EDUCATION, WORKFORCE, 
     AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Ashby. Yes, sir.
    Mr. Chairman, I am pleased to be here today to discuss 
emergency management in public school districts. My testimony 
this afternoon will focus on what school districts have done to 
plan and prepare for emergencies and the challenges they have 
experienced.
    The Federal Government supports emergency management in 
school districts by providing districts funding, guidance, 
training and equipment. However, with respect to funding 
school--I am sorry--with respect to funding, program guidance 
for three DHS grants does not clearly specify that school 
districts are among the entities to which State and local 
government grant recipients can disburse funds. As a result, 
not all States receiving DHS funding are aware that such 
funding could be disbursed to school districts, and therefore, 
some school districts may not have the opportunity to benefit 
from this funding.
    Almost all school districts have taken steps to prepare for 
emergencies. Based on our survey of school districts, we 
estimate that 95 percent of all school districts have written 
emergency management plans that address multiple hazards, and 
over half of the districts with the plans update them at least 
once a year.
    We also estimate that 93 percent of all school districts 
conduct inspections of their school buildings and grounds to 
identify possible vulnerabilities. Of those school districts 87 
percent made security enhancements to their school facilities 
and grounds as a result of these inspections.
    Some school districts took responsibility for a number of 
activities to prepare for emergencies at the district level, 
such as negotiating the use of school buildings as community 
shelters and identifying security needs in schools. However, 
school districts' emergency management plans and preparation 
activities are not always consistent with federally recommended 
practices.
    For example, while most school districts have written roles 
and responsibilities for school staff, only 43 percent use the 
incident command system to establish the roles and 
responsibilities of school district officials, local first 
responders and community partners during an emergency. In 
addition, about three-fourths of all school districts have not 
included written procedures in their plans for communicating 
with limited-English-proficient parents and students, and 28 
percent of school districts with emergency management plans do 
not have specific provisions for students with special needs in 
their plans.
    While over half of all school districts with written 
emergency plans include procedures to assist with recovery 
after an incident, few school districts' emergency plans 
contain procedures for continuing student education in the 
event of an extended school closure.
    Further, less than half of the school districts with plans 
involve community partners in the development and updating of 
the plan; 27 percent have never trained with any first 
responders and only 29 percent have trained with community 
partners.
    In planning for emergencies, many school districts face 
challenges. For example, 70 percent of all school districts 
face challenges resulting from competing priorities and 62 
percent cited a lack of equipment and expertise as impediments 
to emergency planning.
    School district officials we interviewed reported 
challenges in incorporating special needs students in emergency 
management planning, with the challenge sometimes resulting 
from the lack of equipment or expertise to evaluate--I am 
sorry--to evacuate the special needs students. Also, 39 percent 
of districts with emergency plans experience challenges in 
communicating and coordinating with local first responders, 
sometimes because of limited time or funding to collaborate 
with first responders or a lack of interoperability between the 
equipment used by the school district and equipment used by 
first responders.
    Further, while all of the 27 school districts we 
interviewed have ways of communicating emergency procedures to 
parents, 16 of these districts experience difficulties in 
implementing the recommended practice that school districts 
communicate clear, consistent and appropriate information to 
parents regarding an emergency.
    In conclusion, the Federal Government plays a critical role 
in assisting school districts to prepare for emergencies. The 
school districts have taken a number of important steps to plan 
for a range of emergencies; however, in many school districts 
these emergency management plans or their implementation do not 
fully align with federally recommended practices.
    Given the challenges many school districts face due to a 
lack of necessary equipment and expertise, they do not have the 
tools to support their plans and they are left with gaps in 
their ability to fully prepare for emergencies.
    Additional clarity regarding access to Federal resources 
and improved guidance in areas such as incorporating special 
needs students in emergency management planning and continuing 
student education in the event of an extended school closure 
may enhance the ability of school districts to plan and prepare 
for emergencies. We are currently considering recommendations 
to address these issues.
    Mr. Chairman, this completes my prepared statement. I would 
be happy to answer any questions.
    Chairman Thompson. Thank you very much.
    [The statement of Ms. Ashby follows:]

                Prepared Statement of Cornelia M. Ashby

    Mr. Chairman and Members of the Committee:
    I am pleased to be here today to discuss emergency management in 
public school districts. The nation's more than 17,000 school districts 
are responsible for maintaining the safety and security of 
approximately 49 million public school students. Events such as the 
recent shootings by armed intruders in schools across the nation, 
natural disasters such as Hurricanes Katrina and Rita in 2005, the 
terrorist attacks of September 11, 2001, and potential pandemics have 
heightened awareness of the need for school districts to be prepared to 
address a range of emergencies within and outside of school buildings.
    My testimony today is drawn from ongoing work we have conducted for 
this Committee and other congressional requesters on emergency 
management in school districts. We anticipate completing the report in 
June 2007. ``Emergency management'' refers to the range of efforts 
involved in building the capacity to prevent, protect against, respond 
to, and recover from an incident. Planning for such incidents varies by 
the type and scale of the incident. The federal government's role in 
emergency management is principally to support state and local 
activities and develop the federal capabilities to respond effectively 
when state and local governments require federal assistance. Some 
federal support comes in the form of guidance and recommendations. 
Because the federal government serves as a partner to all states, it is 
uniquely positioned to observe and evaluate the range of emergency 
management activities across states and local governments, including 
school districts, and disseminate information on recommended practices 
and successful strategies.
    My testimony today will focus on (1) the role of the federal and 
state governments in establishing requirements and providing resources 
to school districts for emergency management planning, (2) what school 
districts have done to plan and prepare for emergencies, and, briefly, 
(3) the challenges school districts have experienced in planning for 
emergencies and communicating and coordinating with first responders, 
parents, and students. When discussing the federal government, I am 
primarily referring to the three agencies included in our report--the 
Departments of Homeland Security (DHS), Education (Education), and 
Health and Human Services (HHS).
    To determine the role of the federal and state governments, 
planning requirements for school districts and schools, and the types 
of resources provided to districts, we conducted interviews with 
officials representing DHS, Education, and HHS and reviewed relevant 
federal laws. We also administered two surveys, one to state education 
agencies and one to state administering agencies (the state agencies to 
which DHS disburses emergency management funding) in all 50 states and 
the District of Columbia. To better understand how school districts 
plan and prepare for emergencies, we administered a mail survey to a 
stratified random sample of school districts in the 50 states and the 
District of Columbia. Using a 95 percent confidence interval, all 
percentage estimates included in this statement have a margin of error 
of plus or minus 10 percent or less, unless otherwise noted. To further 
understand the experiences districts have had in planning for 
emergencies and communicating and coordinating with first 
responders,\1\ parents, and students, we visited selected districts in 
the states of Florida, Iowa, Massachusetts, North Carolina, Ohio, and 
Washington. In total, we conducted semi-structured interviews, either 
in person or by telephone, with officials in 27 school districts. We 
are conducting the review in accordance with generally accepted 
government auditing standards.
---------------------------------------------------------------------------
    \1\ In both our site visits and our survey of school districts, we 
focused on the traditional definition of first responders--law 
enforcement, fire, and EMS. However, the Homeland Security Act as 
amended includes a broader definition of emergency response providers, 
including ``Federal, State, and local governmental and nongovernmental 
emergency public safety, fire, law enforcement, emergency response, 
emergency medical (including hospital emergency facilities), and 
related personnel, agencies, and authorities.'' Homeland Security Act 
of 2002, Pub. L. No. 107-296, Sec. 2,(codified at 6 U.S.C. 
Sec. 101(6)). Homeland Security Presidential Directive 8 defined the 
term ``first responder'' as ``individuals who in the early stages of an 
incident are responsible for the protection and preservation of life, 
property, evidence, and the environment, including emergency response 
providers as defined in section 2 of the Homeland Security Act of 2002 
(6 U.S.C. 101), as well as emergency management, public health, 
clinical care, public works, and other skilled support personnel (such 
as equipment operators) that provide immediate support services during 
prevention, response, and recovery operations.''
---------------------------------------------------------------------------
    In summary, federal and state governments support emergency 
management in school districts with a range of resources and most 
school districts have developed emergency management plans despite 
facing challenges; however not all of these plans incorporate 
recommended practices. Federal and state governments provide funding, 
guidance, training, and equipment; and many states require school 
districts to develop emergency management plans or engage in other 
planning activities. However, funding guidance for some federal grant 
programs does not clearly identify school districts as entities to 
which state and local governments may disburse these grant funds. 
Therefore, some states receiving this funding may be uncertain as to 
whether such funding can be allocated to school districts or schools; 
and as a result, school districts may not have the opportunity to 
benefit from this funding. At the local level, school districts have 
taken a number of important steps to plan for a range of emergencies, 
most notably developing emergency management plans; however, in many 
districts these plans, or their implementation, do not align with 
federally recommended practices. For example, many school districts do 
not include procedures for special needs students in their plans and 
many districts have not employed any procedures in their plans for 
continuing student education in the event of an extended school 
closure, such as might occur during a pandemic. Additionally, school 
districts are generally not training with their first responders (i.e., 
law enforcement, fire, and Emergency Medical Services [EMS]) and 
community partners (such as the local head of government and local 
public health agency), which are both federally recommended practices. 
Finally, many school district officials said that they experience 
challenges in planning for emergencies due to a lack of equipment, 
training for staff, and expertise and some school districts face 
difficulties in communicating and coordinating with first responders 
and parents, but most said that they do not experience challenges in 
communicating emergency procedures to students. We are currently 
considering recommendations that federal agencies clarify and improve 
guidance to states and school districts to better enable school 
districts to incorporate recommended practices for emergency 
management.

Background
    The Homeland Security Act of 2002 created DHS and consolidated most 
of the federal programs and agencies with responsibilities for 
emergency management into that agency.\2\ DHS serves as a federal 
partner to state and local governments in emergency management.\3\ DHS 
provides technical assistance and homeland security grant funding to 
states and local governments to enhance their emergency management 
efforts. States and local governments have the responsibility for 
spending DHS grant funds in accordance with DHS guidelines to meet 
local emergency management needs. In fiscal year 2006, DHS awarded $1.7 
billion to states, urban areas, and territories to prepare for and 
respond to terrorist attacks and other disasters. States and local 
governments may then provide a portion of this funding to a range of 
entities, as specified in DHS's program guidance.
---------------------------------------------------------------------------
    \2\ Pub. L. No. 107-296.
    \3\ The Robert T. Stafford Disaster Relief and Emergency Assistance 
Act, Pub. L. No. 100-707, provides the legal framework for this 
partnership. The Stafford Act is the principal federal statute 
governing federal disaster assistance and relief and primarily 
establishes the programs for and processes by which the federal 
government may provide major disaster and emergency assistance to 
states and local governments. The Stafford Act also provides emergency 
assistance to tribal nations, individuals and qualified private non-
profit organizations. The Federal Emergency Management Agency (FEMA) is 
the principal federal agency responsible for implementing the Stafford 
Act.
---------------------------------------------------------------------------
    As we have noted in prior reports, emergency management requires 
coordinated planning and implementation by a variety of participants. 
Effective emergency management requires identifying the hazards for 
which it is necessary to be prepared (risk assessments); establishing 
clear roles and responsibilities that are effectively communicated and 
well understood; and developing, maintaining, and mobilizing needed 
capabilities, such as people, skills, and equipment.\4\ The plans and 
capabilities should be tested and assessed through realistic exercises 
that identify strengths and areas that need improvement, with any 
needed changes made to both plans and capabilities.
---------------------------------------------------------------------------
    \4\ GAO, Homeland Security: Preparing for and Responding to 
Disasters, GAO-07-395T (Washington, D.C.: Mar. 9, 2007); and 
Catastrophic Disasters: Enhanced Leadership, Capabilities, and 
Accountability Controls Will Improve the Effectiveness of the Nation's 
Preparedness, Response, and Recovery System, GAO-06-618 (Washington, 
D.C.: Sept. 6, 2006).
---------------------------------------------------------------------------
    The hazards that school districts may face will vary across the 
country depending upon the natural hazards to which their particular 
areas are prone and an assessment of other risks for which they need to 
be prepared, such as pandemic influenza or the discharge of hazardous 
substances from nearby chemical or nuclear plants. Similarly, who 
should be involved in emergency planning and response for schools, and 
the roles of the various participants will vary by type and size of the 
emergency incident. For large-scale emergencies, effective response is 
likely to involve all levels of government--federal, state, and local--
nongovernment entities, such as the Red Cross, and the private sector.
Federal and State Governments Provide Resources to School Districts for 
Emergency Management Planning, While Only States Have Laws that Require 
School Emergency Management Planning
    Although no federal laws exist requiring school districts to have 
emergency management plans, most states reported having requirements 
for school emergency management planning; however, the federal 
government, along with states, provides financial and other resources 
for such planning. Education, DHS, and state governments provide 
funding for emergency management planning in schools. However, DHS 
program guidance does not clearly identify school districts as entities 
to which states and local governments may disburse grant funds. Not all 
states receiving DHS funding are aware that such funding could be 
disbursed to school districts. In addition to providing funding, the 
federal government assists school districts and schools in emergency 
management planning by providing other resources such as guidance, 
training, and equipment.
Although No Federal Laws Exist Requiring School District Emergency 
Management Planning, the Majority of States Have Requirements
    Although there are no federal laws requiring school districts to 
have emergency management plans, many states reported having laws or 
other policies that do so. Congress has not enacted any broadly 
applicable laws requiring all school districts to have emergency 
management plans. While the No Child Left Behind Act of 2001 provides 
that local education agencies (LEAs or school districts) applying for 
subgrants under the Safe and Drug Free Schools and Communities Program 
include in their grant applications an assurance that either they or 
their schools have ``a plan for keeping schools safe and drug-free that 
includes. . .a crisis management plan for responding to violent or 
traumatic incidents on school grounds'', Education has not issued any 
regulations imposing such a requirement on all school districts.\5\ 
However, 32 of the states responding to our survey of state 
administering agencies and state education agencies reported having 
laws or other policies requiring school districts or schools to have a 
written emergency management plan (see fig. 1). Several state laws 
identify a broad range of specific emergencies that schools or 
districts are required to address in their plans, while many other 
states do not identify particular kinds of crises or use more general 
language to refer to the kinds of emergencies that plans must 
incorporate.
---------------------------------------------------------------------------
    \5\ 20 U.S.C. Sec. 7114(d)(7)(D). However, these plans are not 
required to address multiple hazards; therefore, for purposes of this 
report, we do not consider this to be a requirement for an emergency 
management plan. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Federal Agencies and States Provide Funding for School Districts' 
Emergency Management Planning
    Education and DHS provided some funding to school districts for 
emergency management. Education provides funding to some school 
districts specifically for emergency management planning through its 
Emergency Response and Crisis Management (ERCM) Grant Program.\6\ Since 
fiscal year 2003, Education dispersed $130 million in such grants to 
over 400 of the over 17,000 \7\ school districts in the United States. 
These grant awards ranged from $68,875 to $1,365,087.
---------------------------------------------------------------------------
    \6\ The purpose of the ERCM grant program is to provide funds for 
local education agencies to improve and strengthen their emergency 
response plans. School districts receiving grant funds under this 
program may use them to develop improved plans that address all four 
phases of crisis response: prevention/mitigation, preparedness, 
response, and recovery. In April 2007, Education announced that it was 
renaming the ERCM grant as the Readiness and Emergency Management for 
Schools grant program (REMS) to reflect terminology used in the 
emergency management field. 72 Fed. Reg. 17,139 (April 6, 2007)
    \7\ As reported by the states to the Department of Education and 
contained in the Common Core Data (CCD), there were over 17,000 school 
districts in the United States in school year 2003-04. This number 
includes school districts in Puerto Rico; four outlying areas (American 
Samoa, Guam, Northern Marianas, and the U.S. Virgin Islands); the 
Bureau of Indian Affairs; and the Department of Defense, which were 
eligible for funds but we excluded from the sample for our survey of 
school districts. Department of Defense schools are included in the CCD 
count of school districts, but according to Education officials, such 
schools are not eligible to receive funding under the ERCM/REMS grant 
program.
---------------------------------------------------------------------------
    DHS provides funding to states and local jurisdictions for 
emergency management planning, some of which can be provided to school 
districts or schools for emergency management planning. DHS officials 
told us that such funds are available through the State Homeland 
Security Program, Urban Areas Security Initiative, and Citizen Corps 
grants.\8\ Five states--Florida, Hawaii, Michigan, Mississippi, and 
Wyoming--reported that they provided approximately $14 million in DHS 
funding directly to school districts in these states during fiscal 
years 2003-2006. In addition, eight states and the District of Columbia 
reported that they provided DHS funding to local jurisdictions that 
then provided a portion of these funds to school districts or schools 
for emergency management planning.\9\
---------------------------------------------------------------------------
    \8\ The State Homeland Security Program provides funds to enhance 
the emergency preparedness of state and local governments. The Urban 
Areas Security Initiative grant is awarded to some states with high 
threat and high density urban areas that need planning, exercises, 
equipment, and training to respond to acts of terrorism. Citizen Corps 
funds are provided to states to promote volunteer efforts.
    \9\ A ninth state distributed DHS funding to its state education 
agency, which then provided the funding to public schools in its state.
---------------------------------------------------------------------------
    Although DHS officials told us that these three grant programs 
allow for the use of funds at the district or school level, the 
department's program guidance does not clearly specify that school 
districts are among the entities to which state and local governments 
may disburse funds.\10\ As a result, some states may not be aware of 
their availability.
---------------------------------------------------------------------------
    \10\ DHS guidance for these grant programs provides that state 
administering agencies are the only agencies eligible to apply for 
funding and that they are responsible for disbursing grant funds to 
local units of government and other designated recipients. The guidance 
identifies a definition of ``local unit of government'' that was used 
in the Conference Report accompanying the DHS Appropriations Act of 
2006, and which includes ``any county, city, village, town, district, 
borough, parish, port authority, transit authority, intercity rail 
provider, commuter rail system, freight rail provider, water district, 
regional planning commission, council of government, Indian tribe with 
jurisdiction over Indian country, authorized Tribal organization, 
Alaska Native village, independent authority, special district, or 
other political subdivision of any State.''
---------------------------------------------------------------------------
    State governments also provide state funds to school districts. 
Eleven of the 49 states \11\ responding to surveys we sent to state 
education and state administering agencies reported providing state 
funding to school districts for emergency management planning.
---------------------------------------------------------------------------
    \11\ We included the District of Columbia in our state education 
and state administering agency surveys.

Federal Agencies and States Provide Guidance, Training, and Equipment 
for Emergency Management in School Districts
    The federal government also provides guidance, training, and 
equipment to school districts to assist in emergency management 
planning (see table 1).

------------------------------------------------------------
Table 1: Examples of Guidance, Training, and Equipment the Federal 
Government Provides to School Districts

Examples of guidance
        <bullet> Education publishes a guide for schools and 
        communities titled Practical Information on Crisis Planning, 
        which explains, among other things, how schools can prepare for 
        an emergency.
        <bullet> DHS created a Web site, How Schools Can Become More 
        Disaster Resistant, that provides guidance for teachers and 
        parents regarding how to prepare emergency management plans. 
        The site also discusses identifying and mitigating hazards, 
        developing response and coping plans, and implementing safety 
        drills.

Examples of training
        <bullet> The Federal Emergency Management Agency (FEMA), within 
        DHS, offers on-line courses including one on emergency 
        management planning for schools.
        <bullet> Education offers two 1-1/2; day Emergency Management 
        for Schools training sessions that provide school personnel 
        with critical training on emergency management issues, 
        resources, and practices. Emphasis for these trainings is 
        placed on emergency management plan development and enhancement 
        within the framework of four phases of emergency management: 
        prevention and mitigation, preparedness, response, and 
        recovery.

Examples of equipment
        <bullet> With funding from DHS and support from Education, the 
        Department of Commerce's National Oceanic & Atmospheric 
        Administration (NOAA) distributed 96,000 NOAA radios to almost 
        all public schools in the United States in 2005 and 2006. These 
        radios are intended to notify school officials of hazards in 
        their area 24 hours a day/7 days a week, even when other means 
        of communication are disabled.<SUP>a
</SUP>------------------------------------------------------------
<SUP>Source:</SUP> Education,</SUP> DHS,</SUP> and</SUP> HHS.

a</SUP> Schools receiving NOAA radios included those in six states 
that, according to DHS, mandate that public schools have radios. These 
states are Washington, Tennessee, North Carolina, Maryland, Florida, 
and Mississippi. DHS told us that they have procedures in place to 
allow a school to request a radio if it did not receive one. DHS 
officials also told us that they plan to distribute NOAA radios to non-
public schools (private, independent, and parochial and other faith-
based institutions), postsecondary education facilities, and district 
offices in 2007.
    Education, DHS, and HHS have collaborated and developed recommended 
practices to assist in preparing for emergencies that can be applied to 
school districts.\12\ Some of these practices are shown in table 2.
---------------------------------------------------------------------------
    \12\ Education, for example, also obtained input from state and 
local school and emergency management officials and associations in 
developing these recommended practices.

------------------------------------------------------------
Table 2: Selected Practices that Education, DHS, and HHS Recommend 
School Districts Take to Prepare for Emergencies

------------------------------------------------------------
Recommended practices
------------------------------------------------------------
        <bullet> Allocate time to emergency management planning.
        <bullet> Conduct an assessment of vulnerabilities.
        <bullet> Conduct regular drills.
        <bullet> Identify and acquire equipment to mitigate and respond 
        to emergencies.
        <bullet> Identify a storage location and replenish emergency 
        supplies on a regular basis.
        <bullet> Develop an emergency management plan and update the 
        plan on a regular basis. In developing and updating this plan, 
        school districts should:
                <bullet> Identify and address a range of events and 
                hazards specific to the district or schools.
                <bullet> Develop roles and responsibilities and 
                procedures for school community members.
                <bullet> Develop roles and responsibilities for first 
                responders and community partners.
                <bullet> Develop procedures for communicating with key 
                stakeholders such as parents and students, including 
                those who are limited-English proficient.
                <bullet> Develop procedures for special needs students.
                <bullet> Develop procedures in the plan for recovering 
                from an incident, including continuing student 
                education during an extended school closure.
                <bullet> Determine lessons learned after an incident or 
                training.
                <bullet> Develop multi-purpose manuals, with emergency 
                management information, that can be tailored to meet 
                individual school needs.
        <bullet> Include community partners such as local government 
        and public health agencies in planning.
        <bullet> Coordinate the school district's emergency procedures 
        with state and local governments.
        <bullet> Practice the emergency management plan with first 
        responders and community partners on a regular basis.
--------------------------------------------------
<SUP>Source:</SUP> GAO</SUP> analysis</SUP> of</SUP> Education,</SUP> 
DHS,</SUP> and</SUP> HHS</SUP> guidance</SUP> and</SUP> training</SUP> 
documents.
    </SUP>The type of guidance available from the federal government on 
topics related to these recommended practices varies significantly; in 
some instances, federal agencies provide detailed instructions on how 
to implement recommended practices while, in other instances, guidance 
is less detailed.
    We have also recognized the importance of certain of these 
practices in our prior reports on emergency management.\13\ We have 
noted the importance of realistic training exercises followed by a 
careful assessment of those exercises. Those with whom the school 
districts should coordinate and train will vary by the type and size of 
the emergency. For example, for a potential pandemic flu or other major 
infectious outbreak, planning and working with local health authorities 
is critical.
---------------------------------------------------------------------------
    \13\ See GAO-07-395T and GAO-06-618.
---------------------------------------------------------------------------
    In addition to the federal government, states provide guidance and 
training to school districts. Based on our survey of state 
administrative agencies and state education agencies, 47 states 
reported providing guidance and 37 states reported providing training. 
Some states also reported providing online resources that include 
guidance and training.

Most Districts Have Taken Steps to Prepare for Emergencies, but Some 
Plans and Activities Do Not Address Recommended Practices
    Almost all school districts have taken steps to prepare for 
emergencies, including developing written plans, but some plans do not 
address federally recommended practices such as establishing procedures 
for special needs students and procedures for continued student 
education in the event of an extended closure. Additionally, many 
school districts do not have procedures for training regularly with 
first responders and community partners.
Most School Districts Have Undertaken Some Emergency Management 
Activities
    Many school districts, those with and without emergency management 
plans, have undertaken activities to prepare for emergencies. Based on 
our survey of school districts, we estimate that 93 percent of all 
school districts conduct inspections of their school buildings and 
grounds to identify possible vulnerabilities in accordance with 
recommended practices. Of those school districts, 87 percent made 
security enhancements to their school facilities and grounds as a 
result of these inspections. Security enhancements included adding or 
enhancing equipment to communicate with school employees, strengthening 
the perimeter security of the school, and enhancing access controls.
    In addition to conducting vulnerability assessments, many school 
districts carry out a number of other activities to prepare for 
emergencies such as conducting some type of school drill or exercise 
and maintaining a storage location for and replenishing emergency 
supplies such as food, water, and first-aid supplies, as recommended. 
Additionally, school districts took responsibility for a number of 
activities to prepare for emergencies at the district level such as 
negotiating the use of school buildings as community shelters and 
identifying security needs in schools. These activities can vary by 
locality depending on community needs and include oversight, 
coordination with other entities, and training.

Most Districts Have Emergency Management Plans That Address Multiple 
Hazards, but the Content of Plans Varies Significantly
    Most school districts have developed written emergency management 
plans that address multiple hazards. Based on our survey of school 
districts, we estimate that 95 percent of all school districts have 
written emergency management plans with no statistical difference 
between urban and rural districts.\14\ Of those school districts that 
have written emergency plans, nearly all (99.6 percent) address 
multiple hazards in accordance with recommended practices to prepare 
for emergencies. However, the specific hazards addressed by plans vary. 
(See fig. 2.) In some instances, the hazards included in emergency 
plans are specific to local conditions, which is to be expected.
---------------------------------------------------------------------------
    \14\ Those school districts that did not have a written emergency 
management plan cited several reasons for the lack of such plans that 
included (1) no requirement to have a written plan, (2) inadequate 
resources for experienced personnel to develop emergency plans, and (3) 
schools, not the district, have individual plans. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The extent to which school districtS' emergency management plans 
and planning activities are consistent with other recommended practices 
varies:
    Develop Roles and Responsibilities for School Community Members.  
Based on our survey of school districts, most districts have written 
roles and responsibilities in their plans for staff such as 
superintendents, building engineers or custodians, principals, 
teachers, and nurses.
    Develop Roles and Responsibilities for First Responders and 
Community Partners. Based on our survey, we estimate that 43 percent of 
school districts use the Incident Command System (ICS)--established by 
DHS as part of the National Incident Management System (NIMS) \15\--to 
establish the roles and responsibilities of school district officials, 
local first responders, and community partners during an emergency, in 
accordance with recommended practices.
---------------------------------------------------------------------------
    \15\ The Incident Command System is a standard incident management 
system to assist in managing all major incidents. The Incident Command 
System also prescribes interoperable communications systems and 
preparedness before an incident happens, including planning, training, 
and exercises. The Incident Command System was developed in the 1970s 
following a series of catastrophic fires. Specifically, researchers 
determined that response problems were more likely to result from 
inadequate management rather than from any other reason. The Incident 
Command System was designed so that responders from different 
jurisdictions and disciplines could work together better to respond to 
natural disasters and emergencies, including acts of terrorism. NIMS 
includes a unified approach to incident management: standard command 
and management structures, and emphasis on preparedness, mutual aid, 
and resource management. Develop Procedures for the Continuation of 
Student Education. Few school districts' emergency plans contain 
procedures for continuing student education in the event of an extended 
school closure, such as a pandemic outbreak, although it is a federally 
recommended practice. Based on our survey, we estimate that 56 percent 
of school districts do not include any of the following procedures (see 
table 3) in their plans for the continuation of student education 
during an extended school closure. Without such procedures school 
districts may not be able to educate students during a school closure 
that could last from several days to a year or longer.
---------------------------------------------------------------------------
    Develop Procedures for Communicating with Key Stakeholders. Central 
to district emergency plans is the inclusion of procedures for 
communicating with key stakeholders such as staff, parents, and 
students, including those who are Limited-English Proficient. Our 
survey finds that roughly three-quarters of all school districts have 
not included written procedures in their plans for communicating with 
Limited-English Proficient parents and students, in accordance with 
federally recommended practices.
    Develop Procedures for Special Needs Students. Although the number 
of special needs students in the schools is growing, our survey finds 
that an estimated 28 percent of school districts with emergency 
management plans do not have specific provisions for them in their 
emergency management plans. Education officials told us that because 
there is no agreement among disability groups on what the best 
practices are for special needs students in an emergency, districts 
usually devise their own procedures. According to these officials, some 
of these procedures such as keeping special needs students in their 
classrooms during some emergencies may not ensure the students' safety 
in an emergency.
    Develop Procedures for Recovering from an Incident. Over half of 
all school districts with written emergency plans include procedures in 
their plans to assist with recovering from an incident, in accordance 
with recommended practices. School districts' plans include such 
procedures as providing on-site trauma teams, restoring district 
administrative functions, and conducting assessments of damage to 
school buildings and grounds.
    Develop Procedures for the Continuation of student Education. Few 
school districts' emergency plans contain procedures for continuing 
student education in the event of an extended school closure, such as a 
pandemic outbreak, although it is a federally recommended practice. 
Based on our survey, we estimate that 56 percent of school districts do 
not include any of the following procedures (see table 3) in their 
plans for the continuation of student education during an extended 
school closure. Without such procedures school districts may not be 
able to educate students during a school closure that could last from 
several days to a year or longer.
----------------------------------------------------------------
    Table 3: Percentages of School Districts with Written Plans that 
Include Certain Types of Procedures to Continue Student Educational 
Instruction in the Event of an Extended School Closure

------------------------------------------------------------------------

------------------------------------------------------------------------
                                                Estimated percentage of
                                                  school districts with
       Types of procedure to continue student        written plans that
                       educational instruction        include procedure
------------------------------------------------------------------------
       Electronic or human telephone trees to                        30
  communicate academic information to students
------------------------------------------------------------------------
                   based distance instruction                        12
               Mailed lessons and assignments                        10
------------------------------------------------------------------------
      Academic instruction via local radio or                         7
                           television stations
------------------------------------------------------------------------

<SUP>Source:</SUP> GAO</SUP> analysis</SUP> of</SUP> survey</SUP> data.
Note:</SUP> Responses</SUP> are</SUP> not</SUP> mutually</SUP> 
exclusive.
    </SUP>Determine Lessons Learned. Based on our survey of school 
districts, we estimate that 38 percent of districts have emergency 
management plans that contain procedures for reviewing lessons learned 
to analyze how well the plans worked in responding to a drill or 
emergency. Of the remaining school districts, 53 percent indicated they 
have procedures but those procedures are not included in their plans 
and 7 percent have no such procedures.
    Develop Multi-Purpose Manuals. Some school districts have multi-
purpose manuals that contain various types of information such as roles 
and responsibilities for staff, descriptions of how to respond to 
different types of emergencies, as well as site specific information 
for individual schools to complete in order to tailor their plan. In 
contrast, other districts provide less information. For example, one 
district's plan consisted of a flipchart with contact information on 
whom to call during an emergency.
    Involve Local Government and Public Heath Agencies in Developing 
and Updating Plans. School districts differed in the extent to which 
they involve community partners in the development and updating of 
their plans.\16\ Fewer than half of school districts with emergency 
management plans involve community partners such as the local head of 
government (43 percent) or the local public health agency (42 percent) 
when developing and updating their emergency management plans, as 
recommended by HHS.\17\ According to written guidance provided by 
Education, those school districts that do not include community 
partners in the development and updating of their plans may limit their 
opportunity to exchange information with local officials, take 
advantage of local resources, and identify gaps in their plan. More 
than half (52 percent) of all school districts with emergency 
management plans report regularly (i.e., at least once a year) updating 
their emergency management plans in accordance with recommended 
practices. However, 10 percent of all school districts had never 
updated their plans.
---------------------------------------------------------------------------
    \16\ In our survey, community partners included representatives 
from public health, mental health, local head of government, 
transportation, hospitals, Red Cross, faith-based community, and the 
business community.
    \17\ Twelve percent of school districts do not know whether public 
health agencies were included in the development and update of plans. 
Thirteen percent of districts do not know whether the local head of 
government was included in the development and update of plans.
---------------------------------------------------------------------------
    Train with First Responders. Based on our survey, we estimate that 
27 percent of all school districts with emergency management plans have 
never trained with any first responders on how to implement the plans, 
in accordance with federally recommended practices. The reasons why 
school districts are not training with first responders are not readily 
apparent. As we have previously reported, involving first responder 
groups in training and exercise programs can better familiarize first 
responders with and prepare first responders for their roles in an 
emergency as well as assess the effectiveness of a school or district 
emergency plan.\18\
---------------------------------------------------------------------------
    \18\ See GAO-06-618.
---------------------------------------------------------------------------
    Train with Community Partners. School districts report training 
with community partners--such as local government and local public 
health entities--on activities to prepare for an emergency with similar 
frequency. Specifically, we estimate that 29 percent of all school 
districts train with community partners. As with first responders, the 
reasons for the lack of training with community partners are not 
readily apparent. In our work on Hurricane Katrina, we reported that 
involving local community partners in exercise programs and training 
could help prepare community partners and enhance their understanding 
of their roles in an emergency as well as help assess the effectiveness 
of a school district's emergency plan.\19\ Without such training, 
school districts and their community partners may not fully understand 
their roles and responsibilities and could be at risk of not responding 
effectively during a school emergency.
---------------------------------------------------------------------------
    \19\ See GAO-06-618.
---------------------------------------------------------------------------
School Districts Report Challenges in Planning for Emergencies and 
Difficulties in Communicating with First Responders and Parents
    In planning for emergencies, many school districts face challenges 
resulting from competing priorities, a lack of equipment, and limited 
expertise; some school districts experience difficulties in 
communicating and coordinating with first responders and parents, but 
most do not have such challenges with students.
Competing Priorities, Lack of Equipment, and Limited Expertise Are 
Obstacles to Incorporating Recommended Practices in Emergency 
Management Planning
    School district officials who responded to our survey reported 
difficulty in following the recommended practice of allocating time to 
emergency management planning, given the higher priority and competing 
demand on their time for educating students and carrying out other 
administrative responsibilities. Based on our survey of school 
districts, we estimate that in 70 percent of all districts, officials 
consider competing priorities to be a challenge to planning for 
emergencies.
    In an estimated 62 percent of districts, officials cited a lack of 
equipment and expertise as impediments to emergency planning. For 
example, officials in one Massachusetts school district we visited 
reported that they do not have adequate locks on some of the doors to 
school buildings to implement a lockdown procedure. In a North Carolina 
district we visited, officials said a lack of two-way radios for staff 
in the elementary schools hinders their ability to communicate with one 
another and with first responders during an emergency.\20\ As 
demonstrated in these school districts, the lack of equipment would 
prevent districts from implementing the procedures in their plans and 
hinder communication among district staff and with first responders 
during emergencies. In addition to not having sufficient equipment, 
school district officials we spoke with described a shortage of 
expertise in both planning for and managing emergencies. These 
officials said their districts lacked specialized personnel and 
training with which to develop needed expertise. For example, district 
officials in 5 of the 27 districts we interviewed noted that they do 
not have sufficient funding to hire full-time emergency management 
staff to provide such training or take responsibility for updating 
their district plans. These officials noted that the lack of expertise 
makes it difficult to adequately plan for responding to emergencies.
---------------------------------------------------------------------------
    \20\ Two-way radios, commonly known as walkie-talkies, are radios 
that can alternate between receiving and transmitting messages. 
Cellular telephones and satellite telephones are also two-way radios 
but, unlike walkie-talkies, simultaneously receive and transmit 
messages.
---------------------------------------------------------------------------
School districts we interviewed also reported challenges in 
incorporating special needs students in emergency management planning. 
According to officials in about half (13 of 27) of the districts in 
which we conducted interviews, a lack of equipment or expertise poses 
challenges for districts--particularly in the area of evacuating 
special needs students. For example, an official in one school 
district, said that the district tracks the location of special needs 
students, but many of the district's schools do not have evacuation 
equipment (e.g., evacuation chairs used to transport disabled persons 
down a flight of stairs) to remove students from buildings and staff 
need more training on how to operate the existing equipment.

Some School Districts Reported Difficulty in Communicating and 
Coordinating with First Responders
    Based on our survey of school districts, an estimated 39 percent of 
districts with emergency plans experience challenges in communicating 
and coordinating with local first responders.\21\ Specifically, these 
school districts experience a lack of partnerships with all or specific 
first responders, limited time or funding to collaborate with first 
responders on plans for emergencies, or a lack of interoperability 
between the equipment used by the school district and equipment used by 
first responders. For example, the superintendent of a Washington 
school district we visited said that law enforcement has not been 
responsive to the district's requests to participate in emergency 
drills, and, in addition to never having had a districtwide drill with 
first responders, competition among city, county, and private first 
responders has made it difficult for the school district to know with 
which first responder entity it should coordinate. According to 
guidance provided by Education, the lack of partnerships, as 
demonstrated in these school districts, can lead to an absence of 
training that prevents schools and first responders from understanding 
their roles and responsibilities during emergencies. Additionally, in 8 
of the 27 districts we interviewed, officials said that the two-way 
radios or other equipment used in their school districts lacked 
interoperability with the radios used by first responders.\22\
---------------------------------------------------------------------------
    \21\ Thirteen percent of school districts reported not knowing 
whether the district has challenges related to first responders.
    \22\ GAO has reported on the range of issues associated with the 
lack of interoperability among first responders and the implications of 
these issues for emergency management. For a fuller discussion of these 
issues see the following GAO reports: First Responders: Much Work 
Remains to Improve Communications Interoperability, GAO-07-301 
(Washington, D.C.: Apr. 2, 2007); Catastrophic Disasters: Enhanced 
Leadership, Capabilities, and Accountability Controls Will Improve the 
Effectiveness of the Nation's Preparedness, Response, and Recovery 
System, GAO-06-618 (Washington, D.C.: Sept. 6, 2006); and Homeland 
Security: Federal Leadership and Intergovernmental Cooperation Required 
to Achieve First Responder Interoperable Communications. GAO-04-740 
(Washington, D.C.: July 20, 2004).
---------------------------------------------------------------------------
School Districts Have Methods to Communicate With Parents, but Face 
Challenges in Ensuring Parents Receive Consistent Information during 
Incidents
    In keeping with recommended practices that call for school 
districts to have a way to contact parents of students enrolled in the 
district, all of the 27 school districts we interviewed had ways of 
communicating emergency procedures to parents prior to (e.g., 
newsletters), during (e.g., media, telephone), and after an incident 
(e.g., letters). Eleven of these districts have a system that can send 
instant electronic and telephone messages to parents of students in the 
district. Despite having these methods, 16 of the 27 districts we 
interviewed experience difficulties in implementing the recommended 
practice that school districts communicate clear, consistent, and 
appropriate information to parents regarding an emergency. For example, 
officials in a Florida school district said that with students' 
increased access to cellular telephones, parents often arrive on school 
grounds during an incident to pick up their children before the 
district has an opportunity to provide parents with information. Thus, 
according to these officials, the district experiences challenges in 
simultaneously maintaining control of both the emergency situation and 
access to school grounds by parents and others. Representatives of 
three education associations \23\ also noted that school districts have 
much to do to ensure that their emergency management efforts diffuse 
confusion during emergencies and provide parents with consistent 
information.
---------------------------------------------------------------------------
    \23\ National Education Association, American Association of School 
Administrators, and National Association of Secondary School 
Principals.
---------------------------------------------------------------------------
    Based on our survey of school districts, an estimated 39 percent of 
all school districts provide translators to communicate with Limited-
English Proficient parents during emergencies, but fewer--an estimated 
23 percent of all districts--provide translations of emergency 
management materials. Officials in eight of the 27 districts we 
interviewed discussed challenges in retaining bilingual staff to 
conduct translations of the districts' messages or in reaching parents 
who do not speak the languages or dialects the district translates. Our 
findings, are consistent with the observations of some national 
education groups that have indicated that districts, in part due to 
limited funding, struggle to effectively communicate emergency-related 
information to this population of parents.
    Officials in all but one of the districts in which we conducted 
interviews said that the district did not have problems communicating 
emergency procedures to students. While some of these officials did not 
provide reasons; as we previously discussed, most districts regularly 
practice their emergency management plans with their students and 
staff.

Concluding Observations
    The federal government plays a critical role in assisting school 
districts to prepare for emergencies by providing funding, giving 
states flexibility to target federal funding for emergency management 
to areas of greatest need, disseminating information on best practices 
and other guidance, and providing training and equipment. School 
districts have taken a number of important steps to plan for a range of 
emergencies, most notably developing emergency management plans; 
however, in many districts these plans or their implementation do not 
align with federally recommended practices. Given the challenges many 
school districts face due to a lack of necessary equipment and 
expertise, they do not have the tools to support the plans they have in 
place and, therefore, school districts are left with gaps in their 
ability to fully prepare for emergencies. Additional clarity regarding 
access to federal resources and improved guidance may enhance the 
ability of school districts to plan and prepare for emergencies. We are 
currently considering recommendations to address these issues.

    Chairman Thompson. We will now move to Mr. Trump for his 
comments.

  STATEMENT OF KENNETH S. TRUMP, M.P.A., PRESIDENT, NATIONAL 
              SCHOOL SAFETY AND SECURITY SERVICES

    Mr. Trump. Chairman Thompson and distinguished committee 
members, thank you for the invitation to speak here today; and 
also thank you for your recognition that protecting our 
Nation's schools is not simply primarily a State and local 
issue but one requiring proactive, coordinated and meaningful 
Federal leadership.
    I would also like to recognize Congressman Etheridge for 
his efforts on keeping K-through-12 schools in the homeland 
security planning. I know you have been vigilant, and we thank 
you, sir. Police, fire, emergency medical services are our 
first responders, but schoolteachers, principals, secretaries, 
custodians, bus drivers, security staff and school police 
officers are our very first responders.
    Unfortunately, parents do not know what they do not know 
and schools are much less prepared than parents, many parents, 
believe them to be.
    Our work in evaluating emergency plans for K-through-12 
schools in 45 States over 25 years has shown that most schools 
have emergency plans, but the contents of the plans are often 
questionable, not consistent with best practices put together 
with little or no input of public safety and emergency 
partners. Staff and students are often not trained on these 
plans, and the plans are not tested or exercised by tabletop 
exercises or other activities in cooperation with public safety 
and community partners.
    The threats to school safety range from weather and natural 
disasters and Hazmat spills to school shootings, acts of 
violence and potential targets of terrorism. What is the extent 
of school violence? Nobody honestly knows.
    One of the dirty little secrets in the K-through-12 
education community today is that there is no comprehensive 
Federal school crime reporting and tracking for K-through-12 
schools, as Congresswoman McCarthy noted earlier. And the 
Education Department's school crime data is actually based on a 
very limited, hodgepodge collection of a half dozen or so 
academic surveys, not actual incident-based data.
    So we have no actual numbers on the offenses in schools, 
and this leaves Congress to make best-guesstimate-approach 
decisions for policy and funding and creates some gaps that 
need to be improved.
    We also are challenged by a historical culture in the 
education and political communities of ``downplay, deny, defect 
and defend'' in acknowledging the extent of school crime and 
violence, which has segued over to our discussions of schools 
and school buses as potential targets of terror, because many 
people are afraid of alarming parents; and therefore, these 
discussions have been placed on the back burner.
    Schools fit the definition of ``soft targets.'' We saw most 
recently the March 16 FBI and Homeland Security bulletin about 
foreign nationals with terrorist associations getting licenses 
to drive school buses, buying buses and some having interests 
in explosives. The Beslan, Russia, incident in 2004, the 
history of schools or school buses in the Middle East and other 
incidents outlined in my written testimony certainly would lead 
us to be very concerned and we need to have more discussions on 
this.
    What is not needed? Educators and public safety officials 
on the front line do not need extensive research studies, 
traveling hearings, paralysis-by-analysis conference 
symposiums, gathering manuals, guides, templates and 
regurgitation of best practices. We don't need earmarked 
technical assistance centers and institutes.
    And as you all stated earlier, Mr. Chairman, the Web site, 
we need to go beyond that as well.
    How can Congress help? Congress can help in six meaningful 
ways:
    Number one, help acknowledge the full range of threats, 
including the terror threat to schools, in a balanced, rational 
way and correct the limitations of the current school violence 
data upon which policy and funding decisions are made.
    Number two, restore cut funding for school emergency 
preparedness planning and expand future funding. One thing that 
did not come up in this morning's first panel was that the 
Education Department's emergency response and crisis management 
program, now known as the REMS program, Readiness and Emergency 
Management for Schools has actually been cut 40 percent since 
2003.
    Exhibit 3 to my testimony is the chart from an Assistant 
Deputy Under Secretary of Education from Safe and Drug-Free 
Schools showing that $39 million in fiscal year 2003 that 
served 134 school sites has been cut down to $24 million last 
year, almost a 40 percent cut. Over 550 applications for that 
program existed in fiscal year 2003 and, subsequently, would 
have been greater had the Education Department not put out the 
RFP for these proposals in May and June when the schools are 
actually involved in end-of-year graduations and other 
activities and don't have time to apply.
    Cutting almost 40 percent in school emergency planning 
funding at a time when our Nation's homeland security model has 
appropriately been focused on beefing up security and 
preparedness for airports, monuments and the very hallways of 
the buildings in which we sit today is counterintuitive 
counterproductive and counter to the best interest of 
protecting children and teachers.
    Number three, open up Homeland Security Department grants 
for K-through-12 schools as primary applicants. I would 
recommend working through the education associations, the 
school board, superintendents, principals, organizations to 
make sure they know of their availability and to allow those to 
focus on training tabletop exercises, school bus security and 
limited equipment needs.
    Number four, require local police and emergency management 
agencies receiving Homeland Security grant funding to include 
K-through-12 public and private schools in their planning.
    Number four, require States receiving Homeland Security 
Department funding to include State education departments and 
school safety experts in their planning.
    And finally, number five, taking a look at the current 
Federal structure for oversight of school safety and readiness. 
The Education Department has long been in the lead for 
prevention--violence prevention intervention programs, bullying 
and suicide; and many believe the expertise rests there. But 
our challenge and knowledge base of safety and emergency 
preparedness has changed in a post-Columbine and a post-9/11 
world.
    The Department of Homeland Security and Justice have richer 
experience that should be brought in in the short term with a 
recommended permanent interagency working group of those three 
agencies; and perhaps in the long term even looking at Homeland 
Security and Justice as having a broader role in leading those 
efforts in cooperation with, but not led by Education.
    I look forward to answering your questions. Thank you.
    Chairman Thompson. Thank you very much.
    [The statement of Mr. Trump follows:]

                 Prepared Statement of Kenneth S. Trump

INTRODUCTION AND BACKGROUND
    Chairman Thompson, Ranking Member King, and distinguished Committee 
members, thank you for inviting me to appear before you today to 
provide testimony on strengthening the preparedness and response 
readiness of our nation's K-12 schools. Our educators and school safety 
professionals across the nation appreciate your recognition of the 
importance of including our K-12 schools in the federal government's 
plans for protecting our nation's critical infrastructure.
    I would like to also specifically recognize and thank Congressman 
Bob Etheridge of North Carolina for his leadership and persistence in 
advocating for the inclusion of K-12 schools in Homeland Security 
policies and programs, protection of schools and school buses from 
terrorism, and funding of K-12 school preparedness from the Department 
of Homeland Security.
    My name is Kenneth Trump and I am the President and CEO of National 
School Safety and Security Services, Incorporated, a Cleveland (Ohio)-
based national consulting firm specializing in school security and 
school emergency preparedness consulting and training. I have worked 
with K-12 school officials and their public safety partners in urban, 
suburban, and rural communities in 45 states during my career of over 
20 years in the school safety profession.
    In addition to working with educators and public safety officials 
nationwide, my background includes having served over seven years with 
the Cleveland City School District's Safety and Security Division as a 
high school and junior high school safety officer, a district-wide 
field investigator, and as founding supervisor of its nationally-
recognized Youth Gang Unit that contributed to a 39% reduction in 
school gang crimes and violence. I later served three years as director 
of security for the ninth-largest Ohio school district with 13,000 
students, where I also served as assistant director of a federal-funded 
model anti-gang project for three southwest Cleveland suburbs.
    I have authored two books and over 45 articles on school security 
and emergency preparedness issues. My education background includes 
having earned a Bachelor of Arts degree in Social Services (Criminal 
Justice concentration) and a Master of Public Administration degree 
from Cleveland State University; special certification for completing 
the Advanced Physical Security Training Program at the Federal Law 
Enforcement Training Center; and extensive specialized training on 
school safety and emergency planning, terrorism and homeland security, 
gang prevention and intervention, and related youth safety topics.
    Presently I volunteer as Chair of the Prevention Committee and 
Executive Committee member for Cleveland's Comprehensive Anti-Gang 
Initiative, one of six Department of Justice-funded federal and local 
collaborative model projects to address gangs through enforcement, 
prevention, and reentry strategies. I was an invited attendee at the 
White House Conference on School Safety in October of 2006. In 1999, I 
testified to the Senate Health, Education, Labor, and Pensions (HELP) 
Committee as a school safety and crisis expert, and on April 23, 2007, 
I testified to the House Education and Labor Committee on school safety 
and emergency preparedness issues, needs, and actions Congress can take 
to make our schools safer (see testimony at http://edlabor.house.gov/
testimony/042307KennethTrumptestimony.pdf or http://
www.schoolsecurity.org/news/House_Education07.html ). School districts 
and other organizations engage our services to evaluate school 
emergency preparedness plans, provide training on proactive school 
security strategies, develop and facilitate school tabletop exercises, 
conduct school security assessment evaluations, and consult with school 
administrators and board members on management plans for improving 
school safety. We have increasingly found ourselves also called to 
assist educators and their school communities with security and 
preparedness issues following high-profile incidents of school 
violence. In the past several years alone, we have worked in a school 
district where a student brought an AK-47 to school, fired shots in the 
halls, and then committed suicide; in a private school where death 
threats raised student and parental anxiety; and in a school district 
where a student brought a tree saw and machete to school, attacked 
students in his first period class, and sent multiple children to the 
hospital with serious injuries.
    My perspective on school safety is vastly different from the many 
other types of other witnesses you may have heard from in the past, or 
will hear from in the future. I am not an academician, researcher, 
psychologist, social worker, law enforcement official, non-profit 
agency head, or government agency representative. Instead, I bring to a 
perspective of front-line experience in working with public and private 
school staff, their public safety and community partners, and parents 
of our nation's children on school violence prevention, security risk 
reduction strategies, and emergency preparedness measures.

SCHOOL READINESS: PARENT EXPECTATIONS, THREATS, AND GAPS
    Parents will forgive educators, legislators, and others they have 
entrusted their children's educational direction to if their children's 
test scores go down for a year. They are much less forgiving if 
something happens to their children that could have been prevented or 
better managed when it could not be avoided. Children cannot learn and 
teachers cannot teach to their maximum capability if they are worried 
about their personal safety. Education will cease as school-communities 
struggle to manage and recover from a critical incident, and the impact 
can be both severe and long-term.
    Police, fire, emergency medical services, and other public safety 
officials are the first responders to critical incidents at schools. 
However, teachers, principals, custodians, secretaries, school resource 
officers (police officers assigned to schools), school security 
personnel, and other school officials are our VERY FIRST RESPONDERS 
when an incident of crime, violence, mass casualty, or natural disaster 
strike at their schools.
    Preparing our public safety officials for emergencies without also 
adequately preparing our school officials is a serious mistake. 
Incidents of crime and violence occur very quickly, oftentimes with 
only minutes passing from beginning to end, and even the quickest 
response by public safety officials may place them on-scene after the 
incident itself is over. The actions taken by school officials as the 
incident unfolds, and in the first half hour or so immediately 
thereafter, can determine the severity of the impact on the lives of 
children and teachers for months and years to come. And once public 
safety officials complete their heroic jobs and leave the school 
emergency site, it will be the school officials who will carry the bulk 
of the responsibility for the short and long-term recovery of their 
schools.
    When parents drop off their children at school each day, they have 
an inherent and typically unspoken expectation that school, public 
safety, and elected officials have taken every possible step to place 
every measure of prevention and preparedness in place to protect their 
children. The harsh reality is that while there have been many 
improvements in school security and school emergency preparedness 
following the 1999 Columbine High School tragedy, that progress has 
stopped and has actually slipped backwards since recent years due in 
many cases to cuts in school safety and emergency preparedness funding 
for K-12 schools. Sadly, most parents do not know what they do not 
know, i.e., that their schools are much less prepared than parents 
believe them to be.
    We must do a better job at preparing our school officials to 
prevent and manage threats. The threats include weather and natural 
disasters, such as we saw with Hurricane Katrina or the destruction of 
a school in Enterprise, Alabama. They include hazardous materials 
spills that may occur on roadways or railroad tracks adjacent to 
schools. They include school shooting rampages. And they also include 
the potential for schools and school buses to be targets of terrorism.
    What is the extent of the threat? In terms of school violence, no 
one honestly knows in real numbers. One of the ``dirty little secrets'' 
in our nation's education community is that there is no comprehensive, 
mandatory federal school crime reporting and tracking of actual school 
crime incidents for K-12 schools. While Congress enacted the Cleary Act 
in 1990 to improve crime reporting and collecting on college campuses, 
K-12 schools have no such requirements or incident-driven data in 
place. Federal school crime and violence data by-and-large consists of 
a hodgepodge collection of just over a half-dozen academic surveys and 
research studies. See Exhibit 1 for these limited survey sources and 
Exhibit 2 for my tally of school-associated violent deaths since 1999.
    Unfortunately, this means that Congress is forced to make school 
safety policy and funding decisions based on a ``best-guestimate'' 
approach, and the American public is being inadvertently mislead when 
these surveys are being used to claim that school violence in America 
is actually decreasing over the past decade. It also means claims by 
the Department of Education and others that understate the threat of 
school crime and violence can lead to the underestimation of policy and 
resources for prevention and preparedness. See my aforementioned 
testimony to the House Education and Labor Committee on April 23, 2007, 
for a lengthy discussion of these issues.
    There has been a historical culture in the education community of 
``downplay, deny, deflect, and defend'' in acknowledging the extent of 
school crime and violence. This mindset and practice has extended to 
the discussion, or better stated ``lack of discussion,'' of the issue 
of schools and school buses as potential targets for terrorism. Elected 
and administrative officials do not want to openly address this issue 
with the American public out of fear of creating panic among parents.
    Schools clearly fit the definition of a ``soft target'' and an 
attack upon our schools would have not only a devastating impact on 
Americans emotionally, but a severe impact on the American economy if 
the ``business'' of education shut downs and/or is disrupted due to a 
catastrophic terror attack upon our educational infrastructure.
    We need only look at the following quote from the National 
Commission on Children and Terrorism's report of June 12, 2003: ``Every 
day 53 million young people attend more than 119,000 public and private 
schools where 6 million adults work as teachers or staff. Counting 
students and staff, on any given weekday more than one-fifth of the 
U.S. population can be found in schools.'' Schools and school buses 
have basically the same number of children at the same locations every 
day of the week in facilities and buses that are unquestionably soft 
targets.
    There are a number of ``red flags'' that appear to be going 
unnoticed in recent years. News reports in June of 2004 indicating a 
suspected sleeper-cell member of al-Qaeda who obtained a license to 
drive a school bus and haul hazardous materials; the reported 
(appropriate) reclassification of schools to a higher risk category in 
its national risk assessment program by the Department of Homeland 
Security in 2006; March of 2007 alert by the FBI and Homeland Security 
Departments about foreign national with extremist ties obtaining 
licenses to drive school buses and buying school buses; and even a top 
school administrators employed in the Detroit and DC schools who was 
federally charged in 2005 with a conspiracy with terrorists according 
to news reports. Add to that a number of other suspicious activities 
around schools across the country, the Beslan, Russia, school hostage 
siege and murders in 2004, and the history of schools and school buses 
being terror targets in the Middle East. While I have no firsthand 
knowledge, I strongly suspect our federal intelligence, justice, and 
homeland security agencies have even more information on the potential 
terror threat to schools that American parents and local safety 
officials may never know.
    In short, the tactics have been used elsewhere in the Middle East 
and in Beslan, Russia. An attack our educational system would have a 
devastating emotional and economic on America. And it is not 
unforeseeable except to those who do not wish to acknowledge and deal 
with it for political and image reasons. Congress must sure that K-12 
schools are an integral part of our nation's homeland security 
preparedness policy and funding.
    Yet to date, from inside the Beltway to our local communities, 
public officials have largely been afraid of talking about, and acting 
proactively upon, the idea of schools as potential terror targets out 
of fear of alarming parents. I pray we do not face the day where we 
have a ``911 Commission'' type hearing asking how a terrorist attack 
that occurred upon a school in the United States could have been 
avoided. We know that denial, downplay, and ``Ostrich Syndrome'' make 
us more vulnerable. We cannot continue the current course of ignoring 
the threat of terrorism to our nation's K-12 schools.
    Our work with K-12 school officials in 45 states over close to 25 
years has found that most schools now have crisis/emergency plans. Many 
of those were created after the 1999 Columbine tragedy. Expert 
evaluations of those plans have found that the plans have frequently 
been put together by school officials with limited to no input from 
their public safety and emergency management partners; contents of the 
plans are often very questionable in terms of best and appropriate 
practices; school teachers and staff have not been trained on the 
plans; and the plans have not been tested or exercised by tabletop or 
other exercises with their public safety partners. It has been widely 
acknowledged, even in the U.S. Department of Education's programs, that 
many plans are sitting up on shelves in school offices collecting dust.

WHAT IS NOT NEEDED
    There are many things Congress can do to help improve K-12 school 
emergency prevention and preparedness. But first, there are clearly 
some things that our educators and public safety officials on the 
front-lines do NOT need.
    School and public safety officials do NOT need more federal 
research, studies, and paralysis-by-analysis reports. They do NOT need 
more conferences, symposiums, and gatherings. They do NOT need more 
advisory groups, panels, commissions, and hearings. They do NOT need 
more manuals, guides, templates, and regurgitation of best practices. 
They definitely do NOT need more earmarked ``technical assistance'' 
centers, institutes, or Beltway contracted technical assistance 
providers. And they certainly do NOT simply need more federal web 
sites.

HOW CONGRESS CAN PROVIDE MEANINGFUL HELP TO SCHOOLS
    Congress and the federal administrative agencies can take action to 
have a meaningful impact on K-12 school readiness and preparedness by:
        1. Acknowledging the full range of threats to schools and the 
        limitations of current data on school violence. In particular, 
        be forthcoming with the American public and education and 
        safety officials charged with protecting our children about the 
        potential threat of terrorism to our nation's schools and 
        school buses.
        2. Restore cut funding for school emergency preparedness 
        planning and expand funding over time to reflect our nation's 
        commitment to school preparedness in the way we are beefing up 
        protection for other national critical infrastructures.
        3. Require Department of Homeland Security grants and other 
        funding to local law enforcement, emergency management 
        agencies, and other public safety officials to include 
        mandatory requirements that these public safety officials 
        actively engage K-12 public and private schools in local 
        emergency planning.
        4. Open select Department of Homeland Security grants 
        specifically for K-12 schools for emergency preparedness 
        training, tabletop exercises, school bus security, limited 
        equipment (especially communications equipment), and related 
        needs.
        5. Require states with Department of Homeland Security funding 
        to include their state education departments on statewide 
        homeland security committee policy and funding decision bodies, 
        and actively include K-12 school safety experts in their 
        advisory activities.
        6. Examine and modify the current federal organization and 
        structure for the oversight and management of federal school 
        safety, readiness, and preparedness policy, programming, and 
        funding to allow the expertise of the Department of Homeland 
        Security and Department of Justice to have broader input and 
        leadership, rather than the Department of Education having 
        primary responsibility for these initiatives.

Acknowledging the Threat
    As noted above and in my April 23, 2007, testimony to the House 
Education and Labor Committee, there are serious flaws and gaps in 
federal Department of Education data on school violence. H.R. 354, The 
SAVE Act by Congresswoman Carolyn McCarthy, addresses a number of these 
issues. Congress should recognize and acknowledge the flaws in school 
violence and crime data, and work to improve the data, if it truly 
wishes to more accurately identify the potential threat to schools.
    We must also acknowledge the terrorism threat to schools and school 
buses. It does not have to be done in an alarmist manner, nor should it 
be done that way. But fear is best managed by education, communication, 
and preparation, not ``Ostrich Syndrome,'' denial, or downplay. 
American parents, educators, and the public in general, deserve a more 
candid recognition of this threat so we can move to better 
preparedness.
Restore School Emergency Preparedness Funding Cuts and Expand Future 
Funding
    Federal funding for the Education Department's Emergency Response 
and Crisis Management (ERCM) program, now known as the Readiness and 
Emergency Management (REM) for Schools program, has been cut almost 40% 
since 2003. According to PowerPoint slide data from a presentation by a 
Department of Education official, the program has been cut from over 
$39 million awarded to 134 school sites in FY 03, to only $24 million 
awarded to 77 sites in FY06. See Exhibit 3 for this document detailing 
these facts.
    The numbers of applications for this ERCM/REMS grant program have 
ranged from over 550 in its first year of FY03 to 301, 406, and 379 the 
following years. Given the Department of Education has issued the RFP 
for this grant toward the end of each school year (April-May) and 
required submissions around May-June, it is logical to believe there 
would be greater interest and more applications had the Department not 
chosen to put out calls for proposals at the end of the school year 
when educators are focused on testing, graduations, and school-year 
closure and therefore have more difficulty in putting together complex 
grant applications with multi-agency partners from their communities. 
Many of us in the school safety field believe the number of 
applications would be even greater if the call for proposals was put 
out earlier in the school year and not when school administrators are 
so overwhelmed with year-end school matters.
    At a time when Congress is funding more resources to protect our 
national infrastructure such as airports, monuments, and the hallways 
of our government offices themselves, how can we justify cutting almost 
40% from an already pithy amount of funding for helping to protect the 
children and teachers in the hallways of our nation's schools?
    Following my testimony to the House Education and Labor Committee 
hearing on April 23, 2007, as I walked back to my Capitol Hill hotel I 
counted eight, yes eight (8), Capitol Hill police officers at ONE 
street intersection, several with high-power weaponry. Capitol Hill 
Police cars seemed to be on every roadway, one after another. 
Barricades and bollards surround the Capitol and its Congressional 
office buildings and other facilities. Officers, metal detectors and x-
ray machines are at federal building doors.
    It dawned upon me what a mixed message it sends to our American 
children, their parents, and their educators that while security and 
emergency preparedness have been understandably well-funded and beefed 
up to protect those of us here in these Capitol Hill offices today, 
funding for protecting and preparedness for children and educators in 
the hallways of their schools has actually been cut nearly 40% since 
2003, along with cuts to the federal Safe and Drug Free Schools and 
COPS in Schools program, in a post-9/11 world. It not only sends a 
mixed message, but a wrong message and is a wrong action.
    Unlike many other narrowly focused federal grant programs, the ERCM 
(now REMS) grant provides for a comprehensive and balanced program 
consisting of prevention, mitigation, preparedness, and response 
components in order to be successfully funded. This means that school 
programs can be designed as they should, not skewed towards prevention 
programming-only or security/policing/emergency response-only, but 
designed instead with a balanced and comprehensive approach of 
prevention, preparedness, and response. The threats facing our schools 
today require nothing less.
    While the authority for this particular program rests with the 
House Education and Labor Committee, the Committee on Homeland Security 
and Congress overall should work together in a bipartisan manner to 
immediately restore funding cut for the ERCM (now REMS) program and 
significantly increase future funding multiple times the original 
already-under-funded $39 million funding allocation for this program. 
The need is significant. Reducing school emergency prevention and 
preparedness funding in a post-911 and post-Columbine world is 
illogical, counterintuitive, counterproductive, and inconsistent with 
our national homeland security philosophy of preparedness.

Require Homeland Security Grant Recipients to Engage K-12 Schools in 
Planning
    Local police, emergency management agencies, and other funding 
recipients of Department of Homeland Security grant funding should be 
required to include K-12 public and private schools in local emergency 
planning. This means more than simply inviting schools to sit at a 
table in a countywide tabletop exercise. Schools should be integral 
parts of local emergency planning and public safety grant recipients 
should be required to establish relationships, memoranda of 
understanding documents, cross-training, school-specific exercises, and 
other joint planning.

Open Select Homeland Security Grants to K-12 Schools
    Schools should be made eligible as primary applicants to seek 
funding for emergency preparedness for teachers, administrators, and 
school support staff such as bus drivers, secretaries, custodians, and 
others on the front lines protecting kids. Funds should designated for 
training of these school officials; tabletop exercises with public 
safety and community partners to get school emergency plans off the 
shelves and people talking to see if they would work in a real 
emergency; to improve school bus security and emergency preparedness; 
for limited equipment needs, particularly to improve communications 
capabilities (mass parent notifications capabilities, interoperability 
with public safety officials, two-way radio and other communications on 
campuses; etc.); and other related preparedness activities.

Require States to Include Education and School Safety Experts in State 
Planning
    Congress should require states receiving federal Homeland Security 
dollars to include state department of education and K-12 school safety 
experts in their statewide homeland security policy and funding 
governing bodies. Schools and school safety experts are still too often 
absent from state homeland security planning.

Modify the Current Federal Structure for Overseeing School Safety and 
Readiness
    Congress needs to look at how federal school safety and policy is 
managed in the federal government administrative structure. The 
Department of Education has long been the lead source for violence 
prevention curriculum, intervention programming, and dealing with 
strategies school as bullying prevention, youth suicide, and related 
prevention policy and funding, and many believe they the expertise for 
addressing these issues is best housed in the Education Department. It 
is worth noting that the Department of Education's current Office of 
Safe and Drug Free Schools actually originated as the drug-free schools 
program, with safety being added as an after-thought as incidents of 
violence in our schools increased over time. In fact, it was not until 
a couple years ago that this ``program'' was reshaped under an 
``office'' of safe and drug free schools.
    Yet the challenges, knowledge-base, and expertise of public safety 
and emergency preparedness have expanded greatly in the past decade 
and, in particular, in our post-Columbine and post-9/11 world. Congress 
should explore whether the Department of Homeland Security and the 
Department of Justice's richer history, experience, knowledge, and 
expertise with security, policing, and emergency preparedness 
programming would provide a more focused leadership on managing K-12 
school security, policing, and emergency preparedness components of our 
nation's school safety policy and funding. While these two departments 
do work, and should continue to work, with the Department of Education, 
the emphasis of responsibility for specific programmatic areas of 
public safety and security, and emergency preparedness, would be worthy 
of restructuring and/or realigning.
    In the short term, Congress should establish a permanent 
interagency working group of the Department of Homeland Security, the 
Department of Justice, and the Department of Education to create a 
formal structure for communication, planning, policy and funding 
decisions combining their respective expertise areas and disciplines. A 
periodic conversation or meeting, or a joint manual publication, 
between the Department of Education and the Department of Homeland 
Security is simply not enough. An interagency working group, supported 
by state, local, and front-line experts in K-12 school safety and 
security, would help build more meaningful and expert-designed federal 
policy and funding decisions on K-12 school safety, security, and 
emergency preparedness.
    In the long term, the leadership for school security and emergency 
preparedness should be positioned outside the Department of Education 
in Homeland Security and Justice Departments working with, but not led 
by, the Department of Education

CONCLUSION
    Chairman Thompson and distinguished Committee members, thank you 
again for your leadership in protecting me, my family, and our nation. 
I appreciate the opportunity to have testified before you today and 
look forward to answering any of your questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Thompson. We now will hear opening statements from 
Mr. Rainer for 5 minutes.

     STATEMENT OF DAVID RAINER, ASSOCIATE VICE CHANCELLOR, 
 ENVIRONMENTAL HEALTH AND PUBLIC SAFETY, NORTH CAROLINA STATE 
                           UNIVERSITY

    Mr. Rainer. Thank you, Chairman Thompson, Mr. Etheridge. My 
name is David Rainer. I bring greetings from our Chancellor 
James Oblinger and thank you for inviting me today to testify 
in front of the House Homeland Security Committee.
    I serve as the Associate Vice Chancellor for Environmental 
Health and Public Safety at North Carolina State University in 
Raleigh, North Carolina. While my written testimony is more 
detailed, I want to focus on several key components that may 
help frame the issue around university disaster preparedness 
and response and how the Federal Government might assist us 
further.
    North Carolina State University takes a proactive approach 
to disaster preparedness and response. We have a fully 
accredited police force with 55 sworn officers, an integrated 
fire, public safety and environmental health and safety office 
and disaster response plans for a variety of emergency 
situations. We regularly test those plans with drills and 
scenarios to evaluate our planning and training.
    We believe that as a large institution we must be proactive 
in our disaster planning and response efforts, and we regularly 
review and update our disaster planning processes and our 
protocols.
    We also believe that we must integrate ourselves within the 
larger city and county disaster planning and response efforts, 
and so we have mutual aid agreements and hold joint planning 
and disaster response drills with the city, county and State 
response agencies.
    North Carolina State University is a large institution, 
similar in size, function and population to a medium North 
Carolina city. The university has more than 30,000 students--
8,000 students are residents--7,000 employees and 2,100 acres 
on three separate campuses about 3 miles from the State capital 
of North Carolina.
    In addition to our population, our facilities and our very 
active campus, we have about $150 million in Federal 
investments on campus.
    In my role as Associate Vice Chancellor, I am responsible 
for coordinating campus preparedness and response efforts for 
disasters and emergencies and coordinating our campus efforts 
with those of the larger community.
    Now, our accredited police force reports to me, as well as 
fire safety and environmental health and safety, and my 
division coordinates our disaster and emergency response 
planning and regularly conducts all types of emergency drills.
    We have conducted a variety of drills and scenarios to 
understand what we should expect and how we would respond in an 
emergency. In general, what we have learned is that regular 
mass communication systems are fragile in a major crisis and 
emergency; and depending on the situation, they can easily 
become inoperative or overwhelmed. We cannot rely solely on 
cell phones, the Internet, radio or TV to communicate to our 
campus community in a crisis.
    We have also learned that large universities, such as NC 
State, must be prepared to be self-sufficient for a time after 
a large regional or statewide disaster. We are ever conscious 
of the fact that because of our size and the disaster response 
capacity, we might not receive outside help for at least 48 
hours or more after a large disaster, and we may be a triage or 
shelter facility for the greater community.
    We have learned that if we have a campus-based chemical 
emergency, outside first responders might not have the 
detection and protective equipment they need to safely assess 
the situation and respond. We must assist them with our own 
capabilities.
    We have learned that preplanning is critical in many ways, 
and we have learned that no amount of planning will make any 
campus immune to a disaster.
    Finally, let me touch on what I hope the committee and the 
Department of Homeland Security might be able to do for us in 
the future to assist us:
    Help coordinate and develop standardized campus security 
and hardening protocols. Current requirements specified by 
Select Agent rules, the Nuclear Regulatory Commission, DHS's 
Interim Final Rule: Chemical Facility Antiterrorism Standards 
need to be coordinated so that universities implement 
standardized hardening and security protocols that support the 
requirements of a multitude of regulations.
    Establish one or more National Resource Centers that 
support the provision of emergency planning and campus security 
information to universities and ensure that universities are 
aware and familiar with available resources.
    DHS could host a national ``best practice'' symposium on 
regional--or regional symposiums on university campus safety 
and security.
    Programs such as ``Ready Kids.'' Materials for children 
could be modified and targeted to college students and campuses 
could be used to communicate more information to families about 
personal emergency planning.
    Help establish well-formulated and standardized threat 
assessment protocols for university campuses modeled after 
guidelines of the Safe School Initiative that was discussed 
this morning.
    DHS could convene a group of disaster preparedness and 
university experts to help evaluate how constraints regarding 
sharing of information, mandated by FERPA and HIPAA, impact the 
university's ability to share and receive information that may 
be relevant to identifying threatening individuals.
    Thank you again for inviting me to testify today. Let me 
assure you that North Carolina State University is prepared to 
do its part to assist the national effort on campus safety and 
disaster preparedness.
    I am happy to answer any questions that you may have. Thank 
you.
    Chairman Thompson. Thank you very much.
    [The statement of Mr. Rainer follows:]

                   Prepared Statement of David Rainer

Introduction
    On behalf of North Carolina State University and Chancellor James 
Oblinger, I thank you for inviting me to testify about how to 
strengthen federal efforts to enhance community preparedness and 
response as it relates to schools, and in particular, to universities. 
I hope our experiences at NC State can help to shed light on what is at 
risk, what we do to prepare for a disaster and how we respond to a 
crisis that affects our campus and our community.
    As associate vice chancellor for Environmental Health and Public 
Safety at North Carolina State University, I am responsible for 
coordinating the campus preparedness and response efforts for disasters 
and emergencies within our campus and coordinating with emergency 
response agencies throughout the wider community in which we live and 
work. I also work with other units on our campus to develop crisis 
response and communications plans as well as plan and carry out 
simulations of possible disaster scenarios that could occur on our 
campus and in our community.
    We are fortunate that our university is one of the few that has 
under one division the Campus Police, Environmental Health and Fire 
Safety. This enhances our ability to train as one team, develop 
efficient emergency response protocols, develop a trust and 
understanding of how each discipline responds and assure that all 
response protocols recognize and support each of our primary campus 
emergency response groups.

Our Campus and Community
    NC State is a large campus, with more than 30,000 students and 
about 7,000 employees, including approximately 1,800 full and part-time 
faculty and extension field faculty. Including visitors, there could be 
40,000 people or more on campus at any given time. Not only do we have 
large numbers of people on campus, but our campus population is spread 
over 2,110 acres on three separate tracts of land that make up the main 
campus in Raleigh. In addition, we have more than 101,000 acres in 
research and extension farms, forests and facilities throughout the 
state. As a land-grant university, we have staff and facilities or 
field offices in all 100 counties in the state of North Carolina and 
the Cherokee Reservation. NC State was awarded more than $146 million 
in federally funded research and $207 million in total research awards 
in Fiscal Year 2006.
    More than 8,000 students live on campus; our approximately 16 
million square footage of building space includes student residence 
halls, research labs, classrooms, private company and government 
administrative offices, dining halls, recreation commons, athletic 
facilities, steam and cooling water generation facilities and pilot-
scale manufacturing facilities. We operate our own Wolfline bus system 
and transport over 13,000 passengers a day.
    NC State's Raleigh campus is located within the city of Raleigh, 
the capital of North Carolina. Raleigh is a vibrant and growing city 
with more than 350,000 residents. NC State University's campus is less 
than 3 miles from downtown Raleigh and the population density on campus 
is far higher than the city in general.

NC State Response to Emergency Preparedness
    We take our job of protecting campus people and assets very 
seriously. We believe the State of North Carolina and the Federal 
Government have placed a certain trust in us as a flagship public 
university as well as investing significant tax dollars in our campus. 
We are good stewards of both.
    NC State takes several approaches to campus safety and emergency 
preparedness, starting with a well-trained police department, one of 
the few accredited university police departments in the country. 
Accreditation means our police have met or exceeded nationally 
recognized standards for law enforcement agencies. The university's 
police department--which includes 55 sworn law enforcement officers--
provides a full range of services, including 24-hour patrol (by 
vehicle, on bikes, on foot and on horseback), investigations, a 911 
center and a crime prevention unit. The department offers a wide range 
of educational services.
    We have written mutual aid agreements with other police agencies 
including the City of Raleigh and Wake County Sheriff Department. We 
have mutual aid agreements with other governmental agencies to use 
campus facilities as shelters or mass medical surge facilities in case 
of weather or other declared emergencies.
    We have university-wide crisis response and communication plans on 
which departmental plans are based.  By creating a plan before a crisis 
erupts, we believe we have accelerated our decision-making process, an 
important advantage in an emergency.
        <bullet> The Environmental Health and Public Safety division, 
        as part of our ongoing commitment to emergency preparedness, 
        regularly conducts all types of emergency drills. These drills 
        keep our emergency responders ready for different situations 
        and help us evaluate our ability to handle problems beyond the 
        scope of daily happenings in our university community.
        <bullet> By simulating a crisis and engaging the leadership in 
        a decision-making discussion, we improve our ability to respond 
        to a real emergency. To make drills realistic, senior 
        leadership participate. Participation prepares them to take a 
        leadership role in an actual emergency and furthers their 
        understanding of how assets are deployed and an incident 
        command system works.
        <bullet> We understand that because of the size of our campus, 
        we may not expect to see community resources in case of natural 
        disaster until up to 48 hours or longer after a major 
        emergency. Campus drills allow us to test our ability to 
        support the 8,000-plus students who reside on campus and who 
        would remain our responsibility in a major event if students 
        could not travel home.
        <bullet> Campus Police are the first responders to any campus 
        police emergency and we test their preparedness to all types of 
        police emergencies.
        <bullet> Environmental Health staff are first responders to 
        campus radiation safety and chemical emergencies. They serve as 
        technical specialists should regional HAZMAT teams respond to 
        campus. We test our technical ability to respond as well as 
        ability to advise and communicate with outside partners and 
        regulatory agencies.
        <bullet> Campus Fire Protection staff are all Emergency Medical 
        Technician certified and are first to respond to emergency 
        medical events. We have tested our ability to respond to unique 
        campus medical emergencies that may involve radioactive 
        material and chemical agents.
    Our drills often include municipal response groups. We are proud of 
our working relationship with Raleigh Fire, Hazmat, EMS and Police; and 
Wake County Emergency and the State Office of Emergency Management. In 
turn, community emergency drills often include NC State responders and 
sometimes use NC State facilities (football stadium, high-rise 
residence halls, underground utility tunnels) to realistically test the 
ability to respond to complicated emergency situations.
    Over the past four years, we conducted or participated in the 
following drills:
        <bullet> Infectious disease outbreak (smallpox, pandemic flu 
        with the Wake County Health Department)
        <bullet> Radioactive material release (``dirty bomb'') with 
        Raleigh Hazmat, Raleigh Police Bomb Squad
        <bullet> Terrorist chemical attack with Raleigh Hazmat, Wake 
        and State Emergency Management, federal agencies, police 
        agencies
        <bullet> Terrorist attack with hostages at an athletics 
        facility with local, state and federal police agencies
        <bullet> Active shooter on campus with multiple police agencies
        <bullet> Urban search and rescue, with Raleigh Hazmat and Fire 
        Department
        <bullet> Train derailment with state, local and federal 
        agencies

What We Have Learned
    All drills are designed to test our ability to respond promptly to 
a crisis, communicate effectively with drill participants and our 
community at large, and to take appropriate action to stabilize, 
mitigate and resolve the problem. Each type of drill presents different 
and unique challenges that require temporary work-around actions and 
implementation of corrective action plans during and after the drill. 
Among other things, we have learned that:
        <bullet> Universities must prepare for catastrophe through 
        planning and funding. Universities that are self sufficient, 
        provide support to the larger community in a disaster through 
        personnel, expertise and shelter. Of course, universities not 
        prepared become another entity of potentially thousands of 
        people in need of rescue.
        <bullet> Pre-planning is critical. Universities must clarify in 
        advance with surrounding city and county agencies their 
        expectations of use of university facilities for shelter, such 
        as coliseums and convention facilities. These expectations may 
        conflict with university plans or require extensive university 
        support.
        <bullet> Universities must work in partnership with local and 
        state agencies and must consider entering into its own 
        contracts and agreements with vendors for continuity and 
        support.
        <bullet> We must continue revision and improvement of existing 
        plans in accordance with changes in internal capabilities and 
        roles and responsibilities. We must also account for changes in 
        capabilities of supporting groups and agencies.
        <bullet> Departments require cross training in functional roles 
        and need to understand the capabilities and limits of 
        responding groups.
        <bullet> Internal and external communication protocols and 
        capabilities must be tested and retested. Emergency mass 
        communication is a challenge and communication systems fail 
        when stressed (cell phones, web servers, text message systems). 
        When our communication systems have failed we have had to 
        improvise.
        <bullet> During our radiological drills, we have learned that 
        emergency responders need better personal monitoring equipment 
        and training and need to understand some of the technical 
        aspects of our radiological license.
        <bullet> During chemical emergency response, the university has 
        had to provide specific monitoring instrumentation to outside 
        responders.
        <bullet> Recovery and reconstitution plans must be in place, 
        continuously updated and tested.
        <bullet> Understanding the limits of our ability to respond to 
        various scenarios and the shortcomings of key systems such as 
        communication pathways is critical. By practicing various 
        emergency scenarios, we begin to gain an understanding of the 
        way the campus population may respond to instructions and what 
        systems may fail.
        <bullet> We have developed mechanisms to regularly share 
        equipment and information with outside responders, recognizing 
        that a university campus response is often not the same as a 
        general community emergency response because of the density of 
        the population and sometimes-unique hazards.
        <bullet> We have learned that no crisis proceeds according to 
        plan.

What More Can the Department Homeland Security (DHS) Do to Help Improve 
Campus Safety
    I am aware that the Department of Homeland Security (DHS) has 
reached out to support state and local governments and universities 
through various initiatives, including the Disaster Resistant 
Universities Initiative. In our own experiences--and in our 
conversations with our colleagues from around the country--we believe 
that university campuses are so large, complex and unique that special 
support is required.
    My recommendations include:
        <bullet>Establish one National Resource Center that supports 
        the provision of emergency planning and campus security 
        information to universities and ensures that universities are 
        aware and familiar with available resources. This Center could 
        help introduce a greater focus on the unique security needs of 
        college campuses.
        <bullet> DHS could create a ``best practice'' symposium on 
        campus safety and security. The last national symposium was 
        called by Oak Ridge Associated Universities in 2003. 
        Universities are struggling to identify ``best practices'' for 
        a wide range of security and communications issues.
        <bullet> Pulling the first two points together, the Center 
        could research, develop and train best practices in 
        interdisciplinary and all hazard disasters and guide 
        universities in implementing effective programs.
        <bullet> DHS has made great strides in encouraging the public 
        to develop family and personal emergency plans. We believe 
        university campuses also have an obligation to support 
        emergency plan development. DHS could create materials targeted 
        to college students such as ``Ready Kids'' for children and 
        utilize campuses to communicate more information to families 
        about personal emergency planning.
        <bullet> Help establish well-formulated and tested standardized 
        threat assessment protocols for university campuses modeled 
        after guidelines of the Safe School Initiative for public 
        schools developed by the U.S. Department of Education and U.S. 
        Secret Service.
        <bullet> In support of the above point, evaluate how 
        constraints regarding sharing of information mandated by the 
        Federal Family Educations Rights and Privacy Act (FERPA) and 
        Health Insurance Probability and Accountability Act (HIPPA) 
        impact on a university's ability to share and receive 
        information that may be relevant to identifying threatening 
        individuals.
        <bullet> Help coordinate and develop standardized campus 
        security and hardening protocols. Current requirements 
        specified by Select Agent rules, the Nuclear Regulatory 
        Commission, DHS's Interim Final Rule: Chemical Facility Anti-
        Terrorism Standards need to be coordinated so universities 
        implement standardized hardening and security protocols that 
        support the requirements of a multitude of regulations.
    Thank you for the opportunity to come before you today to discuss 
this important issue of campus safety. Your willingness to engage in an 
open dialogue and seek input from colleges and universities will help 
and continue to improve our ability to respond to campus emergencies. 
It is also hoped that this hearing and future initiatives will better 
prepare our campuses to prevent future tragedies.

    Chairman Thompson. We will now hear from Mr. Renick.

  STATEMENT OF DR. JAMES C. RENICK, SENIOR VICE PRESIDENT FOR 
      PROGRAMS AND RESEARCH, AMERICAN COUNCIL ON EDUCATION

    Mr. Renick. Thank you very much, Mr. Chairman and 
distinguished members of the committee. And thank you for your 
invitation to be here before you this afternoon. In the 
interest of time, my oral presentation will highlight key 
points in my written testimony submitted for the record.
    Let me start by saying, college campus presidents and 
chancellors take emergency preparedness very seriously. Without 
security our institutions' educational missions cannot 
flourish. Campus leadership must develop and continue 
continually update emergency preparedness plans that will be 
effective against a range of potential hazards, including 
terrorism like 9/11, natural disasters like Hurricane Katrina, 
possible public health emergencies like avian flu, and gun 
violence like the recent tragedy at Virginia Tech. Much as we 
might plan and wish the truth is that our campuses are very 
much a part of the communities they inhabit and so will never 
be totally isolated from the perils of the outside world.
    Nevertheless, the available evidence suggests campuses are 
among the safest places for young people in America to be. All 
of the planning college presidents and chancellors do is 
necessary, but it is not easy. Many colleges and universities 
are large, diverse and complex places that are open by design.
    For example, North Carolina A&T enrolls 11,000 students. It 
employs over 1,700 faculty and staff across a sprawling 800-
acre campus, located in downtown Greensboro, whose physical 
plant includes over 80 buildings, including dormitories, 
classrooms, research labs, cafeterias, libraries, electrical 
towers, hazardous waste storage facilities.
    On any given day, many hundreds of additional visitors make 
their way across A&T's largely urban campus via multiple entry 
points to attend meetings and other events. This type of free-
flowing mobility occurs 24 hours a day, 7 days a week, all year 
round, involving a population of predominantly young adults 
whose habits, behaviors and attitudes often differ 
significantly from both elementary and secondary school 
students and workplace employees.
    In short, college campuses can be thought of and accurately 
compared to small--to medium-sized cities with all the 
activities, vibrancies and, sadly, the vulnerabilities that 
entails.
    With respect to recommendations that the committee might 
consider in this area, let me offer the following:
    First, the fact that this hearing is occurs appropriately 
underscores the importance of this topic and its worthiness for 
increased Federal investments, particularly in the rapidly 
developing area of technology with all of its promise and cost.
    Second, we believe that the Federal Government should 
recognize the unique and vital role that campus security 
personnel must play in any comprehensive homeland security 
plan, and amend current law to allow campus police to receive 
DHS or DOJ funds directly.
    Third, we support the creation of a National Center for 
Campus Public Safety as recommended, by the 2004 Department of 
Justice Summit. And finally, AC encourages the committee to 
carefully reexamine the way in which higher education is 
currently being integrated into both the national 
infrastructure protection plan as well as the Department of 
Homeland Security's recently announced interim rule on chemical 
facilities, antiterrorism standards. In both cases we are 
concerned that a lack of meaningful input and substantive 
consultation with the higher education community is producing 
policy goals that, though well intended, are going to face 
significant real-world implementation problems on campuses 
across the country.
    Again, thank you for your invitation to be here with you 
this afternoon.
    [The statement of Mr. Renick follows:]

                 Prepared Statement of James C. Renick

    Chairman Thompson, Ranking Member King and Members of the 
Committee:
    Thank you for the opportunity to testify on the timely and critical 
matter of how best to protect our schools in this post-9/11 world. My 
name is Dr. James C. Renick. I am the Senior Vice President for 
Programs and Research at the American Council on Education (ACE), which 
represents more than 1,800 two- and four-year, public and private 
institutions of higher education throughout the United States. 
Formerly, I served as Chancellor at both North Carolina Agricultural 
and Technical State University and the University of Michigan-Dearborn.
    As a former chancellor who has spent the bulk of his professional 
career in campus administration and teaching, I can tell you that the 
safety of students, faculty and staff is a fundamental, ongoing concern 
of every college and university president. Without security, our 
institutions? educational missions cannot flourish. For that reason, 
whether the risk emanates from an act of terrorism like 9/11, a natural 
disaster like Hurricane Katrina, a potential public health emergency 
like avian flu, or gun violence like the recent tragedy at Virginia 
Tech, campus presidents go to great lengths to develop, maintain and 
continuously assess emergency preparedness plans that will be effective 
at both preventing and responding to an exceptionally wide range of 
potential hazards.
    This planning is necessary, but it is not easy. Colleges and 
universities are large, diverse and complex places that are open by 
design. To take an example I am intimately familiar with, North 
Carolina A&T enrolls over 11,000 students and employs over 1,700 
faculty and staff across a sprawling 800 acre campus located in 
downtown Greensboro, N.C. whose physical plant encompasses over 80 
buildings--including dormitories, classrooms, laboratories, cafeterias, 
libraries, gymnasiums, parking decks, electrical towers, hazardous 
waste storage facilities and livestock barns. On any given day, many 
hundreds of additional visitors make their way across A&T's largely 
urban campus via multiple points of entry to attend meetings, events or 
other functions. This kind of free-flowing mobility occurs at every 
hour of the day and night, all week long, throughout the entire year. 
Moreover, it involves a population of predominantly young adults whose 
habits, attitudes and behaviors differ significantly from both 
elementary and secondary students and workplace employees.
    In short, many college campuses can be thought of--and accurately 
compared to--self-contained, small--to medium-sized cities--with all 
the activity, vibrancy and, sadly, vulnerability associated with 
cities. Unfortunately, inasmuch as campuses are very much a part of the 
communities they inhabit, they can never be totally insulated from the 
full panoply of risks found in society as a whole. Nevertheless, it is 
worth noting that colleges and universities are among the safest places 
to be for young adults in America.
    In its most recent 2001 Report to Congress, ``The Incidence of 
Crime on the Campuses of U.S. Postsecondary Education Institutions,'' 
the Department of Education found that the overall rate of criminal 
homicide at postsecondary institutions was .07 per 100,000 students 
enrolled, compared to a criminal homicide rate of 14.1 per 100,000 17-
29 year olds in society at large--making college students 200 times 
safer than their off-campus peers with respect to this kind of 
violence. Based on these findings, the Department of Education 
concluded that ``students on the campuses of postsecondary institutions 
[are] significantly safer than the nation as a whole.''
    Since this is the House Committee on Homeland Security, I have been 
asked to reflect on how well the Department of Homeland Security 
specifically--as well as the federal government generally--has been 
addressing emergency preparedness on college campuses.
    In response, I would tell you that, without question, all 
stakeholders involved in these efforts--including our campuses, state 
and local authorities, as well as the federal government--have been 
noticeably more focused regarding matters of emergency preparedness 
since the events of September 11, 2001 and Hurricane Katrina. To offer 
one of many possible examples, the University of Florida drew on its 
own experience--as well as the experience of other institutions--to 
develop hurricane evacuation models that have become widely adopted by 
institutions along the Gulf plain. In one of the largely unheralded 
success stories of the Hurricane Katrina disaster, our 30 New Orleans 
and Gulf Coast institutions were subsequently able to use those models 
to evacuate more than 100,000 students and staff during Hurricane 
Katrina without a single loss of life.
    At the federal level, I would commend the Department of Homeland 
Security (DHS) for its recent partnership with the International 
Association of Campus Law Enforcement Administrators (IACLEA). Through 
a grant from DHS, IACLEA has been able to develop a state of the art 
suite of emergency preparedness tools designed to help campus 
administrators evaluate threats on their campuses and implement best 
practices to address them. Shortly after the tragedy at Virginia Tech, 
the American Council on Education (ACE) worked with IACLEA to broadly 
disseminate these DHS-funded planning and training materials to our 
presidents and chancellors, along with a list of jointly developed 
security and emergency preparedness questions all campus leaders should 
ask (see attachment).
    Of course, more can and should be done.
    First, the value, and corresponding cost, of deploying ever more 
sophisticated technology to effectively deter and mitigate the full 
range of threats facing college campuses today clearly makes this an 
area worthy of increased federal investment.
    Second, it is worth noting that, unlike other specialized security 
professionals like transit or tribal security, campus security 
personnel are currently not eligible to receive grant funds directly 
from the Department of Homeland Security (DHS) or the Department of 
Justice (DoJ). Instead, campus officials must rely on state or local 
law enforcement to include campus security departments in their own 
emergency planning, which in many cases does not happen. While the 
American Council on Education (ACE) honors the efforts of law 
enforcement and first responders at all levels of government, we 
believe the federal government should recognize the unique and vital 
role that campus security must play in any comprehensive homeland 
security plan by enabling campus police to receive emergency 
preparedness funds directly from DHS and DoJ.
    Third, ACE fully supports the creation of a National Center for 
Campus Public Safety, as recommended by the 2004 Department of Justice 
Summit. We believe such a center would promote needed collaboration 
between national and local law enforcement while strengthening the 
administrative and operational components of campus security systems 
across the country.
    Fourth, and finally, we respectfully request that the committee re-
examine the way in which higher education is currently being 
incorporated into the Department of Homeland Security's National 
Infrastructure Protection Plan (NIPP). Specifically, we are concerned 
that the NIPP's Educational Facilities Sub-Sector Plan shoehorns 
institutions of higher education alongside elementary and secondary 
schools under the Department of Education-s Office of Safe and Drug 
Free Schools without regard to the vast differences between these 
entities with respect to funding, governance, size and physical 
infrastructure. Additionally, the Educational Facilities Sub-Sector 
Plan to which our institutions have been assigned falls under the 
broader Government Facilities sector, despite the fact that a majority 
of American colleges and universities are private institutions and that 
our public institutions historically have closer ties to state and 
local governments. Perhaps most troubling, the current NIPP subdivides 
many elements of our campuses between multiple sectors (e.g. stadiums 
and arenas, transportation, chemicals, cybersecurity, public safety, 
educational facilities, etc.), thereby complicating emergency 
preparedness and response considerably by requiring an institution 
governed by a single president or chancellor to interface with multiple 
departments of government both during the emergency planning process 
and in the event of an emergency.
    Although higher education is listed as a ``security partner'' with 
respect to the NIPP, key higher education associations have to date not 
been meaningfully consulted regarding the NIPP's development, resulting 
in the wide-ranging deficiencies described above. At the end of the 
day, I am afraid that any security plan for higher education developed 
without the substantive input and expertise of higher education itself 
will not optimally secure the human, physical and cyber assets we are 
all committed to protecting.
    Thank you for your consideration of these views. I look forward to 
answering any questions you may have.

ATTACHMENT:

David Ward and the
American Council on Education's
President to President
Vol. 8, No. 20
May 2, 2007

SPECIAL EDITION
<bullet> Questions Campus Leaders Should Ask About Security and 
Emergency Preparedness
    Recent events have focused significant attention on the need to 
plan for campus emergencies. While incidents of violence on campus 
remain isolated, recent events have shown that institutions are often 
subject to profound natural disasters such as hurricanes, earthquakes, 
flood; attacks on technology systems; releases of biological and 
chemical agents; and even terrorism. Because of this, campus leaders 
throughout the country are addressing preparedness for crisis with 
renewed urgency.
    Although no single template will adequately meet the emergency 
planning needs of all institutions, among the key questions presidents 
should consider are these:
        <bullet> Has our institution conducted a comprehensive 
        assessment of the potentially catastrophic risks it faces? Has 
        our institution made plans that address those risks?
        <bullet> Does our institution have an appropriate emergency 
        team in place? Is the team headed by a senior administrator? Do 
        key team members regularly participate in emergency 
        preparedness exercises?
        <bullet> Does our institution have a plan for continuous 
        operation in the event of an emergency (i.e., continuity plan)? 
        Is that plan applicable to all types of emergencies?
        <bullet> Does our institution have multiple means to 
        communicate with students, faculty, staff and visitors in the 
        event of an immediate, ongoing emergency situation?
        <bullet> What role does our campus information technology 
        leadership play in our emergency planning? How are technology 
        experts brought into the day-to-day planning process for campus 
        communications, emergency response, and the ability to maintain 
        campus services during a short- or long-term disruption?
        <bullet> What communication and coordination networks exist 
        among our campus security leadership, local law enforcement, 
        political officials, first responders and health officials, 
        both on an ongoing basis and in case of emergency? For example, 
        does our institution's campus safety department have mutual aid 
        agreements or memoranda of understanding with local emergency 
        response agencies?
        <bullet> What kinds of processes or programs does our 
        institution utilize to inventory campus security resources, 
        including the ability to retain experienced, trained staff?
        <bullet> Is the training of campus security personnel 
        appropriately responsive to catastrophic risks?
        <bullet> Are the policies and procedures used at our 
        institution appropriate with respect to persons who are 
        believed to pose significant danger to themselves or others?
    Even the best-managed institutions cannot completely eliminate the 
risk of catastrophe. But by addressing such risks thoughtfully, 
institutions can increase their preparedness. Resources are available 
to assist in this work. For example, the International Association of 
Campus Law Enforcement Administrators (IACLEA) has developed what it 
believes to be best practices, as well as all-hazards campus 
preparedness planning and training materials and guidance that your 
institution may find useful. The IACLEA Campus Preparedness Resource 
Center, developed with support from the U.S. Department of Homeland 
Security, is accessible at http://www.iaclea.org/visitors/WMDCPT/cprc/
login.cfm. The login is XXXXX and the password is XXXXX.
    In the world in which we live, emergency planning has taken on 
heightened priority. Questions and resources such as those identified 
above can be valuable in this effort.

David Ward,
President of ACE

    Chairman Thompson. Thank you very much.
    I appreciate the testimony of all of our witnesses, and I 
will start with my questions.
    Ms. Ashby, I heard in your testimony a story that I can 
pretty much identify with. I have some 50-odd school districts 
in my congressional district. And to be honest with you, I 
would probably have 50 different plans, 50 levels of whether or 
not they have been implemented.
    Can you just tell me, based on your study, did you find 
much participation by districts in school preparedness? Or is 
this just one of many things that they would do in the normal 
course of a school year? And I guess what I am saying is, did 
you see any real emphasis on preparedness or was this one of 
400 other things they did in the running of a year?
    Ms. Ashby. It varies. In terms of looking at the plans 
themselves, the emergency management plans, some were very 
elaborate in terms of spelling out roles for the district 
officials and for school officials, and even in some cases, 
what the teacher should do in a classroom in an emergency 
setting.
    Others were much simpler with just a basic outline of 
things to consider, that sort of thing.
    Some school districts actually provide money to schools in 
their districts to help them with their emergency management 
planning. It really varies.
    We didn't visit districts in your State, so I can't talk 
about that.
    Chairman Thompson. Yeah. Well, thank you. You probably 
would have found the same thing.
    Mr. Trump, in your testimony you kind of gave a broader 
brush to this issue of preparedness. What has your experience 
taught you in terms of the district level participation in 
this?
    Mr. Trump. Mr. Chairman, it is very consistent with Ms. 
Ashby's findings. One of the unintended consequences of No 
Child Left Behind in the focus on academics today has actually 
pushed school safety and emergency planning to the back burner 
in many school districts. It is not the fact they don't care. 
It is not the fact educators aren't concerned. It has just been 
an issue, as you well stated, that it is one of the 400 things 
to do.
    With the pressure of school leaders today to get their test 
scores up because many of their jobs, quite frankly, are on the 
line to do so, school safety and emergency planning has not 
been as high of a priority that many wish that it should be.
    One of the side benefits of some of the funding, the 
Emergency Response and Crisis Management Grants, the REMS 
grants, the midlevel managers have been trying to push it onto 
the front burners of the boards; and their superintendents have 
actually said that the presence of those grants has forced them 
to do things and get it back upon the radar screens at a time 
when it otherwise might still be simmering on the back burner.
    The interest varies not only district to district, but 
principal to principal. We stress that it is a leadership 
issue, but all in all we found that the progress that was made 
after Columbine in 1999 has actually stalled and slipped 
backwards in the recent years, along with the funding that goes 
with it.
    Chairman Thompson. Well, I think the funding has been 
documented. One thing that concerned me--you heard the 
testimony of the other panel--is that while we require a school 
preparedness plan, nobody checks it for completeness or 
anything. And, in fact, Mr. Etheridge and I talked to the 
chairman of the Education Committee between votes, and I assure 
you that we will tighten that part of the requirement up so 
that there is some review of whatever is submitted.
    Mr. Trump. If I may, Mr. Chairman, just say that you are 
absolutely right. And what I will say is that in the 32 States 
that were mentioned as having requirements, we found exactly 
what you are saying in one State that requires the 
superintendent to sign off each year and certify to the State 
superintendent that plans have been reviewed annually.
    We reviewed four or five in the year 2006 that were still 
dated 1999. There are few carrots for actually following 
through, and there are absolutely no sticks, no auditing, no 
consequences that go with it for those who don't.
    Chairman Thompson. And that is K-through-12.
    At the college level, one of the concerns is, we don't have 
a Federal oversight entity, to my knowledge, that has any real 
focus on colleges and universities.
    Would you care to address how you would see that coming to 
play in Federal responsibility, Mr. Rainer?
    Mr. Rainer. I think you are correct. I think there is no 
Federal oversight. Because we are so big and we have such an 
important place in the city of Raleigh, we have taken it upon 
ourselves to work through the city the county and the State.
    So I can only tell you that we recognize that since there 
is no oversight authority, we work with our--and partner with 
other State agencies and local agencies to make sure that we 
can do the right thing. And if we didn't partner with them, I 
can honestly say that we would not have effective plans and we 
would not be able to implement them.
    Mr. Renick. I would agree totally.
    I would only add, one size in higher education won't fit 
all because of the range and diversity of type. I think Federal 
incentives to support certain behaviors would be useful but I 
would just add that there is an incredible array of diversity 
in American higher education. And so federalizing that, you 
know, would have to be a variable included in an approach of 
that magnitude.
    Chairman Thompson. Yeah. I will yield my time to the 
gentleman from North Carolina.
    Mr. Etheridge. Thank you, Mr. Chairman. Again let me thank 
you for this hearing, and let me thank and welcome my 
colleagues from North Carolina.
    Mr. Rainer and Dr. Renick, thank you for being here.
    And I acknowledge, there is a huge difference at the 
university level, as there is at the public school level; they 
are totally different, as you can appreciate, and yet, at the 
same time, there are a lot of similarities.
    Let me--Ms. Ashby--excuse me. Ms. Ashby, let me get a 
question to you. Let me thank you for the work you and your 
colleagues are doing with the GAO survey; I look forward to 
getting it when you are finished. We had asked earlier to get 
that done, and I appreciate the work that you have done.
    The reason--and the chairman knows this. The reason we have 
asked for that is because I have always believed that schools 
are soft targets. They are just out there, and I was concerned 
even when I was a State superintendent, and North Carolina took 
the lead in the country putting school resource officers in, 
even before we did it at the Federal level.
    Yet when things get stable, we tend to relax. And when you 
relax, that is a dangerous time because that is when you get in 
trouble. So my question to you is, as you look across this, 
have you gotten far enough along in the report to indicate, 
number one, what the funding level is, what kind of funding 
level we need?
    Obviously, everyone would say we need more money. But the 
point is, if we do it, it seems to me it has to be at a 
sustained level, so you cannot only get a plan, but a plan has 
to be executed and worked, similar to what you do with fire 
drills and tornado drills, because here we would be even more 
sophisticated.
    And the second part of it is, in your survey, what is the 
most pressing need for funding? And if there is one, what kind 
of funding are we talking about, talking about direct; or are 
they talking about grants, are they talking about the 
Department of Education? Are they talking about Homeland 
Security or what kind of combination? Or does it matter?
    Ms. Ashby. Okay. In terms of the total amount of funding 
needed, that is not a question I can answer beyond what we did 
in our survey. But in the terms of the most pressing needs--and 
we refer to those as challenges in our report and in our 
testimony statement--States told us that what they need is 
expertise. And along with that training, but beyond training 
their current personnel, they need, in some cases, individuals 
that have expertise in emergency planning.
    Mr. Etheridge. Would that mean coordination between--within 
the local communities as well?
    Ms. Ashby. It is certainly reasonable if they could get it 
through that, yes. But as I said in my brief opening statement 
and in the fuller testimony statement, there isn't a whole lot 
of that going on.
    School districts or school also need equipment. In one 
case, for example, something as simple as they didn't have 
locks for all of their doors, so they couldn't do a lockdown if 
they needed to. From there to more elaborate needs.
    But all of it does translate into money, and in terms of 
exactly how much, I don't know. Certainly, in terms of how it 
should be funded, I don't think it matters whether it is from 
the Department of Education or DHS or, you know, from them 
through the States. But certainly grants would seem to be their 
reasonable mechanism.
    Mr. Etheridge. Let me interrupt, if I may, at this point, 
because it seems to me that what you have just suggested is 
something that may be workable.
    Number one--more importantly, coordinate with the State and 
the local level with a mechanism so that--some of these things 
are very similar to be done and could be done very recently if 
we had a plan. You have to find out what the problem is first, 
before you decide what kind of resources you are going to need. 
Once you do that survey, then it needs to be jointly done so we 
get it done.
    I think Mr. Trump touched on that earlier. Those are the 
kinds of things, if you don't know what you don't know, it is 
kind of hard to fix what you don't know needs to be fixed. And 
it seems to me it varies in size from A to B to C to D, and 
calling attention to it first is what we are trying to do; and 
number two, devising the plan to fix it, and number three, fix 
it, and number four, have a plan that fixes it so it doesn't 
happen again.
    Ms. Ashby. Correct. That makes absolute sense. One of the 
things we did find out in our survey is that most of the 
schools, school districts, are assessing their own 
vulnerabilities and reacting to the extent they can to those 
vulnerabilities. But therein lie the needs.
    In some cases, they can't control their perimeter, for 
example, so they would need fencing. They might need security 
cameras; they might need some type of alarm system. But--most 
seem to know, based on their planning, what was needed, but 
they didn't always have the means to get it.
    Chairman Thompson. If I might cut in, one of the things 
that we have seen is not enough of the stakeholders are 
involved in that process--you know, the fire department, law 
enforcement, emergency management. We found very few instances 
of all the stakeholders being involved in putting together a 
school preparedness plan.
    The example, on most campuses, people did not know how to 
get on that in the most efficient manner. They would just go to 
the school and they could not identify buildings or anything 
like that because there is no lettering on a lot of buildings. 
Now--just some basic things that could go toward improving 
response time, the knowledge of who is there.
    Law enforcement could not talk to the school system on a 
radio system; they are on two different frequencies. Parents 
could not be notified of what was going on in an incident 
because they did not have a system to notify parents.
    So there were a lot of things lacking, and especially--in 
both situations. You know, we are the custodians of the 
children. And to some degree, parents or guardians ask the 
school districts or the colleges and universities, take care of 
my children while you have them. And we should do the best job 
possible.
    And I think our emphasis with this hearing is to work with 
the various committees of jurisdiction on identifying through 
hearings what the problems are, but also coming up with some 
resources. We recognize the shortages, but we need, to some 
degree, standardized preparedness.
    As to say, a basic school preparedness plan should have 
one, two, three, four. So while there is no cookie-cutter 
approach to it, it has to include certain things. And I think 
that is where we are headed, respecting size and all of that.
    Mr. Etheridge. Mr. Chairman, I know we have a vote pending. 
But the final point I want to make is that some have done it. 
North Carolina has done it, working with the attorney general's 
office, working with the local superintendents and local 
schools.
    As you have indicated, it is a coordinated effort. We can't 
put all this load on the backs of teachers and principals and 
custodians and people in the schools. It really is a community 
effort, and we will try to do our part to make it happen.
    I want to thank the chairman for taking the time to pull 
this together because this is the way we will draw attention to 
it; and we will work to make it happen.
    Thank you, Mr. Chairman.
    Chairman Thompson. Absolutely.
    And let me thank the witnesses for being so patient. I know 
all of us are very busy, and I again thank you for your input.
    We might have some more questions that we will submit to 
you in writing, based on what we have heard today, and we will 
allow ample time for a response.
    Again, thank you very much. Committee is adjourned.
    [Whereupon, at 1:52 p.m., the committee was adjourned.]


                   Appendix: Questions and Responses

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
